<html>
<title> - DECENCY IN BROADCASTING, CABLE, AND OTHER MEDIA</title>
<body><pre>[Senate Hearing 109-531]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-531
 
            DECENCY IN BROADCASTING, CABLE, AND OTHER MEDIA

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 19, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-472 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 19, 2006.................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Burns.......................................     3
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................     4
Statement of Senator Pryor.......................................    28
Statement of Senator Rockefeller.................................     3
Statement of Senator Stevens.....................................     1

                               Witnesses

Bozell, III, L. Brent, President/Founder, Parents Television 
  Council........................................................    35
    Prepared statement...........................................    36
Cohen, David L., Executive Vice President, Comcast Corporation...    14
    Prepared statement...........................................    16
Ergen, Charles W., Chairman/Chief Executive Officer, EchoStar 
  Communications Corporation.....................................    10
    Prepared statement...........................................    12
Franks, Martin D., Executive Vice President, Planning, Policy and 
  Government Relations, CBS Corporation..........................    41
    Prepared statement...........................................    42
McIntyre, Jeff J., Legislative and Federal Affairs Officer, 
  Public Policy Office, American Psychological Association.......    49
    Prepared statement...........................................    51
Reese, Bruce T., Joint Board Chairman, National Association of 
  Broadcasters; President/Chief Executive Officer, Bonneville 
  International..................................................    31
    Prepared statement...........................................    32
Rosenberg, Alan, President, Screen Actors Guild..................    45
    Prepared statement...........................................    47
Valenti, Jack, Former Chairman/CEO, Motion Picture Association of 
  America........................................................     7
    Prepared statement...........................................     9

                                Appendix

Cohen, David L., Letter, dated February 13, 2006, to Hon. Frank 
  R. Lautenberg..................................................    72
Ergen, Hon. Charles W., Letter, dated February 13, 2006, to Hon. 
  Frank R. Lautenberg............................................    71
Johnson, Kathleen, Vice President, Programming, Sky Angel, 
  letter, dated December 5, 2005, to Hon. Ted Stevens............    62
Letter, dated January 18, 2006, from Jeannine Kenney (Consumers 
  Union), Mark Cooper (Consumer Federation of America), and Ben 
  Scott (Free Press) to Hon. Ted Stevens and Daniel K. Inouye....    64
Response to Written Questions Submitted by Hon. Frank R. 
  Lautenberg to:
    L. Brent Bozell, III.........................................    68
    Martin D. Franks.............................................    67
    Jeff J. McIntyre.............................................    66
    Bruce T. Reese...............................................    65
    Jack Valenti.................................................    70
Swann, Lanier, Director, Government Relations, Concerned Women 
  for America, prepared statement................................    61


            DECENCY IN BROADCASTING, CABLE, AND OTHER MEDIA

                              ----------                              


                       THURSDAY, JANUARY 19, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you all for coming. Senator Inouye and 
I announced a series of hearings, 15 in total, dealing with 
issues related to communications. We are going to have a 
continuation of the forum we started in the past, back in 
November, and at that time we had family groups, broadcasters, 
cable, satellite, radio, TV, artists, and videogaming 
representatives. That forum was for the purpose of exploring 
what we could do to stimulate some voluntary action, because it 
is my opinion that we could go for the hard mandates. But if we 
did opt for the hard mandates, those would be held up in court, 
and it would take years before changes, which the American 
public and family demand, take place. So, I am pleased that the 
industry has responded.
    We are going to hear today about some of the solutions in 
terms of family tier offerings. I will leave it to you 
gentlemen to announce what those are, but very clearly what we 
have seen--yesterday I went down and visited the demonstration 
of some of these new technologies, particularly the V-Chip and 
the blocking technology.
    From my point of view, the industry and Jack Valenti 
personally are to be commended for their efforts to make it 
easier for parents to control what their children watch. I 
think that is the basic objective right now. I understand we 
are going to hear today about a new initiative to educate 
parents on how they can really govern what their children watch 
and that they have the tools to do that if they can learn how 
to use them. That initiative, also, we will be pleased to hear 
about today.
    There are still people who believe that mandatory 
legislation may be necessary, and we are here today to hear 
from different groups about what has happened so far and what 
further legislation they may be interested in. We are going to 
have to work with Members of our Committee to develop a 
bipartisan consensus to get a bill to the floor as soon as we 
can. These hearings will help us determine the outlines of 
legislation that will be acceptable and will advance the 
concepts that have already been explored, particularly by 
Senators Brownback, Rockefeller, Wyden, and others.
    I think I can speak for my Co-Chairman to say that we feel 
that, with 85 percent of viewers today watching cable and 
satellite, we should try to explore this voluntary option 
first. The First Amendment does impose some restrictions, 
constraints, on what Congress can mandate. As I said in the 
beginning, whatever we mandate is going to go to court. 
Whatever we work out in a consensus basis is going to happen 
now, and I think we ought to find a way to respond as quickly 
as possible to the requests of our family friendly audiences to 
see if we can accomplish what was accomplished before with the 
movie industry when they worked out the ratings system.
    I know the FCC is working on an a la carte study and I 
think we should proceed to see how these family tiers work and 
wait for the FCC to act before we review or attempt to discuss 
a la carte legislation. It is still out there and it will have 
to be discussed some time, but I do believe these voluntary 
efforts may result in the kinds of choice and kind of controls 
that parents have requested and that family groups have 
demanded.
    Senator Inouye, do you have an opening comment?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I thank you very much. As noted by you, we 
continue this discussion we began in the past November. At this 
juncture, I would like to thank Jack Valenti and Mr. McSlarrow 
for the efforts they have undertaken to resolve this matter 
before us. But, obviously, we have much more to do.
    I would also like to commend Senator Rockefeller and 
Senator Hutchison for the efforts they have made in drafting 
legislation.
    Mr. Chairman, I have a much lengthier statement. May I have 
that put in the record?
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today, we continue the discussion on broadcast decency. We have 
seen some important developments since our November 29th forum, but we 
still have work to do. We all appreciate the efforts that Jack Valenti 
and Kyle McSlarrow have undertaken to address how best to protect our 
families from viewing indecent and violent materials on TV.
    We have a difficult task ahead of us, but one that must succeed in 
many areas--indecency, violent content and sanctions.
    The Kaiser Family Foundation's most recent study, released in 
November, provided further evidence that racy TV programming remains 
increasingly prolific. The networks have little incentive to reverse 
this trend, as it continues to attract viewers and market share.
    At a minimum, we hope to provide parents with the information and 
tools to control the flood of materials they can view at home. We also 
have a number of legislative proposals before the Committee that would 
raise fines and impose other remedies.
    While indecent content continues to receive the lion's share of 
attention, violent content is an equal concern. Violent content has 
proven to have a strong, negative, anti-social effect on young viewers, 
so it is essential that we address TV violence as well. Senator 
Rockefeller's and Senator Hutchison's legislation wisely emphasizes 
this issue, and I am an enthusiastic cosponsor of their bill. I hope 
that the Committee will consider their proposal in the near future.
    I thank our witnesses for their continued participation in this 
effort.

    The Chairman. Yes, sir.
    Senator Burns, do you have a comment?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I do. I will wait until the questioning 
starts, Mr. Chairman. Thanks for this hearing though. We are 
drifting into an area now where we have to deal with some 
definitions one of these days, and we all define different 
words differently. If we can do that, why, we can probably 
solve some problems. So, I will withhold any kind of statement. 
I know it is one that we hear every day from our constituents 
and one that is a great concern of all of us. So, I will just 
wait until I will sort of make my statement through the 
questions that I ask.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. My statement 
is short.
    First, I have to not only thank you and the witnesses, but 
also declare a substantial amount of guilt, because I have been 
hoping for this hearing for a long time. We are having it, 
courtesy of you and the Co-Chairman. We had a mine accident in 
West Virginia where a number of lives were lost, and starting 
at 10:30 we are having a whole series of briefings to get ready 
for a trip down there tomorrow. So, I feel silly because this 
amendment is something I have been pushing for and I cannot 
stay for it.
    Let me just say a couple of things. I think that any 
programming option that gives consumers more choices is by 
definition a good thing, and I think the companies that have 
pledged to offer a family tier should be commended for taking 
the step. But I do not believe that voluntary actions alone--
and it is not just mandatory versus voluntary, there are shades 
of that description--but that voluntary actions alone are 
sufficient to address the issue.
    I know the Committee has spent a lot of time on this in 
discussing it, examining the most appropriate manner to address 
indecency issues, which I expand very much to include the 
nature of violence. But I think it is time for the Committee to 
take action, and hence, the legislation which the Co-Chairman 
indicated.
    I along with Senator Hutchison have introduced 
comprehensive legislation about a year ago and it addresses 
these issues that our witnesses are going to discuss. Our bill 
would provide the tools--it is not mandatory in the way that I 
think the Chairman mentioned it. Our bill would provide parents 
the tools they need to protect children from indecent and 
overly violent programming. I still believe that we need to 
address the root cause of the issue, the ever-increasing level 
of indecent, really absolutely extraordinarily indecent and 
violent content that television is presenting, commercial 
television is presenting to us. Each year it gets worse and 
worse.
    Creating tiers of programming is a good step, but I believe 
it is not enough and that if we are going to make a substantive 
change in what programming is actually shown, we have to do a 
bit more. So, Mr. Chairman, we simply cannot declare victory in 
addressing this significant problem. As I say, voluntary 
actions alone will not serve the majority of my constituents, 
as the cable companies in West Virginia who serve the vast 
majority of consumers, obviously, have not adopted family 
programming tiers as of yet.
    I still maintain that my legislation, Senator Hutchison's 
and my legislation, is compatible with the industry's voluntary 
efforts. That is never the way, however, that it works when one 
is considering the chemistry and karma of all of this. Our 
legislation only requires that the FCC, which is not a Federal 
law but an institution, to determine if existing technologies 
are in fact effective or ineffective at protecting our 
children. Is it too complicated? If it is not, is it doable? If 
they determine that it is, then so be it.
    But if they determine that it is not, that it does not 
protect our children from offensive content, then the content 
regulation of cable and satellite programming would occur. If 
the industry's commitment to consumer awareness, technology 
advancements, and new programming options are commercially 
successful, the FCC may find that existing efforts to keep 
children away from violent and indecent programming is working. 
It will be up to them, not to us, and further regulation, 
therefore would not be needed.
    But let us have the FCC make this determination, not the 
industry. We have tried decades of self-regulation in many 
areas, in some to effect, many to little effect. One needs only 
to look at the current spate of programming, as I have said, to 
realize that television programming is not on the upswing in 
terms of nobility.
    Now, I recognize that we can get in trouble here because 
people can always say you can always purchase the family tier 
and this creates a problem, but it is something that we can 
discuss today.
    Again, I want to thank all of you witnesses for being here. 
I hope that you will pay especially close attention to Jeff 
McIntyre from the American Psychological Association. He is 
going to speak about the effects of television violence--that 
is my thing--on children. Television violence is a public 
health hazard. I know people have read lots of things about it, 
but Jeff speaks with great authority and I think this Committee 
must absolutely address this issue along with indecency.
    Television is such a huge part of our lives, we just cannot 
pretend that it is just, do you prefer Tootsies or Milky Ways, 
Tootsie Rolls or Milky Ways or M&Ms or whatever. This is a 
very, very serious matter and we have to do the right thing for 
the people who we represent.
    So, I thank the Chairman. I apologize once again and I will 
stay here as long as I possibly can.
    The Chairman. Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. Obviously, I come 
here with grandfatherly credentials, concerned about my 
grandchildren, what they are seeing, looking at the dilemma 
that we face as a society. Where do we cut off the flow of 
information and where do we try to regulate behavior, adult 
behavior, and conduct in their lives, when there is a pretty 
hefty appetite for the material that is salacious, that has 
violence connected with it?
    On the violence side, not infrequently we hear about a 
youngster, behavior by a youngster, violent behavior, who 
suggests that he or she was stimulated by something he or she 
saw on TV. The violence side is, I think, as dangerous to our 
national health as is the prurient material that comes through.
    Now, 3 years ago the FCC levied the largest fine in 
history, $1.2 million, against FOX for an outrageous episode of 
a television program called ``Married by America.'' FOX 
protested the fine, and even argued that the FCC should not 
have the right to regulate broadcast programming. A year later, 
a coalition of groups called on the FCC to investigate FOX for 
its show ``Boston Public,'' which also featured inappropriate 
material in prime time.
    Last year, the Parents Television Council, headed by one of 
our witnesses today, filed another complaint about yet another 
FOX program, ``The Inside.'' I want to point out that FOX is 
not the only offender, just one that's really highlighted by 
their choices.
    Parents are fighting to protect their children. They need 
help, and it is not enough to create the technology like the V-
Chip because we have to make sure that parents understand how 
to use these tools to screen out the programs that can harm 
young children.
    The cable and satellite industries' proposal to create 
packages of programming appropriate for family viewing is a 
good first step, but there are some troubling aspects because 
of what is included in the family package. For example, I 
understand that the initial family packages will not include 
sports programming; no ESPN if you want the family package. 
Well, frankly, I do not know why a family has to choose between 
protecting their children and being able to watch one of the 
most interesting areas of attention, the sports action that we 
see. No reason for it. It almost seems like an invitation to an 
unmarketable package, and I think we have got to be very 
careful.
    Mr. Chairman, we do not have all the answers, but I know 
that we have got to take steps to help parents stem the tide of 
filth that threatens our children and our grandchildren. I 
thank you for calling this hearing and I look forward to 
hearing from our distinguished witnesses.
    The Chairman. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for holding this 
hearing, and I appreciate these outstanding gentlemen and 
leaders who have shown great concern for this area in the past 
and are trying to devise some appropriate measures for us as 
parents. I speak not as a grandparent, but as a parent, and 
trying to make sure on our cable and broadcast TVs that our 
children are watching the right shows, they are not watching 
shows that have inappropriate things for their eyes and ears.
    I do think some of the voluntary approaches in the past 
have helped parents make decisions, particularly in DVDs. When 
you are looking at these DVDs, you see what they say about 
them. The same with videogames, which I think is another area 
that needs to be looked at, so far as violence and 
inappropriate behavior, and how that might affect or stimulate 
the minds of young people.
    Regardless, the First Amendment is very important. It 
protects our freedom, freedom of religion, freedom of----
    The Chairman. Senator, allow me to interrupt.
    Would you please turn off your cell phones. Thank you very 
much.
    Senator Allen. There are reasonable restraints on your 
First Amendment rights of communications.
    [Laughter.]
    Senator Allen. This is reasonable and it is an appropriate 
protocol. You do have a First Amendment right to express 
yourself and petition your government, but you should not be 
having interference with it.
    We do have standards and there are some of us who feel like 
the standards have been violated. When standards are violated, 
you need appropriate penalties to deter such behavior.
    I do think the responsibility first is on the part of the 
parents as an individual. There also is a responsibility, and I 
think all these gentlemen and others who are on this panel 
recognize, there is a responsibility on, whether it is the 
transmission of content or the creative content providers, to 
empower or make sure that parents have these options and, for 
that matter, all consumers have options to know what they are 
purchasing or viewing.
    I do think that the labeling and the parental control 
technology has been an improvement, and it is voluntary and I 
think there is a good demand for it. I do applaud what cable 
and satellite providers have come up with. Mr. Chairman, it is 
from that hearing when Kyle McSlarrow came in here and said: 
All right, we are going to have this family tier. I rarely 
agree with the Senator from New Jersey, the senior Senator from 
New Jersey. To have a family tier and not have sports on it, in 
our family it would not be proper family programming. So, you 
are going to have to come up with a family tier plus sports.
    As you put together these different packages, I think you 
are going to find that the marketplace is going to want to have 
that. If your kids are coming to visit Grandfather Frank, 
whatever they call you----
    Senator Lautenberg. That is what they call me.
    Senator Allen. Do they?
    Senator Lautenberg. Just leave out the ``Grandfather.''
    Senator Allen. All right. Well, just ``Grand-Frank.''
    They are going to be wanting to watch a basketball game, 
West Virginia playing someone, or they are going to want to 
watch a football game, and that should be part of it. But that 
is something I believe that the marketplace should be 
determining rather than the government determining it. I think 
that whether it is EchoStar or whether it is Comcast, whether 
it is Cox, whether it is Time Warner, they are going to find 
consumers saying, this is what we would want, and I would hope 
they would react as the free marketplace normally does to the 
demands of consumers.
    So, Mr. Chairman, I look forward to hearing the insight 
from these three gentlemen and also those on the second panel 
as to how we can effectuate these desires, that I think all of 
us should share, to make sure that parents have the ability to 
have control over the content that their children see and hear 
over their television sets.
    I thank you, Mr. Chairman.
    The Chairman. Well, thank you very much.
    I hope you all go down and see this demonstration at the 
Hall of States, because when you do, you will find one of the 
reasons you cannot include sports in those packages is that 
sports programs are not rated. If you tell the family tier that 
you want only those things that are rated for families, sports 
are excluded because they are not rated. The simple thing is 
that the people who are putting out sports programs are going 
to have to rate them, and if they do, they are going to have to 
take the liability if they provide something in a sports 
program that offends families.
    Our first witness is Jack Valenti. Delighted to have you 
here as an old friend of all of us and the Committee. I again 
thank you for your leadership in the meetings you have held 
since we held our forum in November. Jack.

STATEMENT OF JACK VALENTI, FORMER CHAIRMAN/CEO, MOTION PICTURE 
                     ASSOCIATION OF AMERICA

    Mr. Valenti. Mr. Chairman, Senators: There takes place in 
America the enterprise called surveys, polltaking. Over the 
past several years a lot of polls have been taken and they ask 
two significant questions that are much connected to this 
hearing. One question is: Do you, Mr. and Ms. Parent, find many 
or some TV programs that you think are unsuitable for viewing 
by your children? The answer from 70 to 80 percent is yes.
    Then they ask a second question: Do you believe that the 
government ought to step in to fix this problem? The answer 
with 70 to 80 percent is absolutely no.
    So it seems to me that we need to listen to the people that 
you around this dais today are attempting to help and to aid in 
how they protect their children from that which they find to be 
unsuitable. So, what I think the answer is that right now every 
parent in America, with a few exceptions that does not have 
television and does not have the problem, has the power, the 
total power to control all television programming that is 
dispatched to their home today. We do not have to wait for 
legislation or any kind of government intervention.
    So what I present to you today is something that is unique. 
For the first time, an assembly of all the ingredients, 
elements, people, enterprises, entities who make and dispatch 
visual programming to American people, they have come together 
for the first time. Their mission is to be able to pass along 
to parents the easy, understandable ways they can use to 
control that programming.
    Now, here is our plan. First, we are bringing in the Ad 
Council. The Ad Council, for those of you who do not know, is 
the most respected element of its kind in this country. For 
many years they have brought together the largest, most 
successful and most effective advertising agencies and public 
relations agencies in the country to offer to the public 
information and educational material about issues that affect 
this country.
    They are now going to come in, and with their linkage to 
all the advertising agencies and PR agencies in the country, 
devise and create messages, simple and easy to understand, so 
that parents recognize now that all the power they need to 
control programming is in their hands and no one else.
    Number two, all of the people involved in this assembly, 
which are the makers of movies and television programs, cable 
systems, direct broadcast satellite, individual television 
stations, national networks broadcasting, as well as the makers 
and sellers of consumer electronics products, for the first 
time, are brought together. This has never happened before. 
That makes it unique.
    All of these people are going to air these messages over 
and over and over and over again for a duration of at least 18 
months.
    Number three, for the first time, we are reaching out to 
retail stores and makers of television sets, and the Consumer 
Electronics Association is going to provide them all kinds of 
materials which will tell people who come into a retail store: 
this television set has a V-Chip and here is how it works.
    Number four, the logo ratings that you see, Senators, on 
these television programs are going to be shown not only at the 
beginning of the program, but also after each commercial break, 
so that parents are constantly informed as to the rating of 
that particular program.
    Finally, for the first time we are going to reach out to 
churches and parents advocacy groups by sending them this kind 
of educational material, which they can then duplicate and send 
to their congregations and to their members.
    So, what we have, we believe again for the first time, is a 
well-coordinated program whose mission solely is to inform and 
persuade the American people that they have this power in their 
hands today. I urge you to confirm what the Chairman had just 
said. If you just walk a couple of blocks, or however you get 
there, by whatever conveyance, to watch these demonstrations of 
the blocking mechanisms that are on EchoStar and all the other 
broadcast satellites, on cable systems and on over-the-air 
television, it is remarkable. It is simple, and even a 
technological innocent like myself after a couple of times gets 
the hang of it pretty easily.
    This is what we are going to try to present to the American 
public. The beauty of us, Mr. Chairman and Senators, is we do 
not torment and torture the First Amendment. This is voluntary, 
because you are dealing in extremely sensitive material here. 
We all know that the best way to deal with this through 
voluntary means.
    I can tell you this. The motion picture industry 37 years 
ago put in a voluntary film rating system, which today, in the 
latest polls, as of last September, by the Opinion Research 
Corporation of Princeton, New Jersey, found that 79 percent of 
all the parents in this country with children under 13 found 
these ratings very useful to fairly useful in helping them 
decide the movie-going of their children.
    I will be glad to answer any questions. I see this red 
light, this Cyclopean eye over there, so I will listen to its 
admonitions. Thank you very much.
    [The prepared statement of Mr. Valenti follows:]

  Prepared Statement of Jack Valenti, Former Chairman and CEO, Motion 
                     Picture Association of America
 A Plan to Communicate to Parents That They Have the Power to Control 
                     all TV Programs in Their Homes
Preface
    This is a unique assembly of all the elements of creators and 
distributors of visual programming in the Nation. Never before has such 
a cooperative venture ever been attempted. Cable systems, national TV 
networks, TV broadcast stations, makers of movies and TV programming, 
direct broadcast satellite delivery systems, manufacturers of consumer 
electronics--and the Ad Council--are all bound together in a tightly 
coordinated mission. We will conduct research and create informational 
and educational messages which in turn will be transported to parents 
throughout the country. All distributors of visual entertainment, news, 
and sporting events will exhibit these messages to homes in every 
neighborhood in the land.
    The ``uniqueness'' of this vast, national enterprise is confirmed 
by a very simple fact. The scale and sweep of this effort, its 
persistence, frequency, clarity, uniformity of message, are totally new 
and completely different than any other nationwide mission yet 
attempted.
    Beginning with the ``go ahead'' to the Ad Council, we plan on one 
year and a half for the duration of this effort.
    Cost to the cooperating enterprises: Through the Ad Council and 
through on-air message time, it is estimated the cost to the 
cooperating enterprises will be between $250 to $300 million.
The Essence of the Mission
    One: Enlist the Ad Council to create, supervise and monitor 
Messages to Parents.
    The Ad Council has for many years been the most prestigious, 
respected and effective creators and conveyors of messages to the 
public on issues that are of high importance to the Nation.
    The Ad Council has a long, close, time-tested linkage to the 
largest and most successful advertising and public relations agencies 
in the country. From this reservoir of the Nation's finest creative 
brains will come the work of devising messages for parents that are 
clear, easy to understand, and persuasive.
    These messages will let parents know without question or doubt that 
they have total power, in their hands right now, to control every TV 
program that enters their home by whatever method of delivery they have 
chosen.
    (Attached are some past national ``message campaigns'' the Ad 
Council has constructed, to confirmed favorable results.) We must point 
out that no previous campaign was equipped by the cooperative force 
that fuels our mission.
    Two: All the cooperating enterprises will offer air time so these 
messages will be dispatched to all TV homes in the country.
    This aspect of the mission is distinguished by its totality and 
frequency of coverage, that is, these messages will be carried by every 
distributor of programs in whatever form it comes into the home. This 
means that over and over again, parents will be visited by simple, 
easy-to-grasp instructions for use of the V-Chip as well as cable 
blocking mechanisms. These instructions will be so simple that even the 
most technology-innocent parent can, very quickly, get the hang of it, 
without complications.
    Three: The campaign will, in cooperation with other industry groups 
in retailing, initiate a point of sale promotion. The Consumer 
Electronics Association will distribute V-chip educational materials 
such as pamphlets, labels and/or tags for TV set manufacturers and 
retailers use on TV set cartons, on TV sets on display or in or along 
with instruction manuals. The CEA will support a website on V-chip.
    This is the first time any effort has been made to enlist the TV 
set manufacturers and retail stores in an educational campaign.
    We believe this has favorable prospects and we aim to energize this 
program to the fullest.
    Four: All the cooperating entities will have readable logos at the 
start of every show, and coming out of every commercial break in 
programs aired.
    Our goal here is to make sure the logos are large enough to be 
identified by parents, and their frequency of appearance is sufficient 
to keep parents informed.
    Five: We will reach out to religious and parents' advocacy groups 
with information they can re-distribute to their congregations or 
members to further inform and educate them about the power that parents 
have to control TV programming in their homes.
    We believe that this extra reach will reap additional benefits in 
making it clear to parents that they need no longer feel helpless in 
standing guard over what they want their children to see or not see in 
the TV set in their home.

    The Chairman. Did the red light come on? All right. Well, 
thank you very much, Jack.
    Our next witness is the Chairman and Chief Executive 
Officer of EchoStar Communications, Charles Ergen. Mr. Ergen.

 STATEMENT OF HON. CHARLES W. ERGEN, CHAIRMAN/CHIEF EXECUTIVE 
               OFFICER, EchoStar COMMUNICATIONS 
                          CORPORATION

    Mr. Ergen. Chairman Stevens and other distinguished Members 
of the Committee: I appreciate the opportunity--let me turn 
this on.
    Thank you, Mr. Chairman and other Members of the Committee. 
I appreciate the opportunity to testify here today. You know, a 
lot of people ask me how did EchoStar go from being an upstart 
company to one of the largest pay TV providers today? The 
simple answer is that we have just given consumers what they 
want. Every day we hear from DISH Network subscribers and we 
try to pay close attention. Our customers drive us to develop 
cutting-edge technology, provide top-rated customer service, 
and an extensive channel lineup, all for the best value.
    Lately, customers have been requesting more and more 
control over the content that is coming into their homes. They 
are concerned about television's influence over their kids. I 
am a parent of five tech-savvy kids and I understand firsthand 
the issues that parents are grappling with in a world dominated 
by media and entertainment.
    In response to those concerns raised by parents, we have 
developed easy-to-use parental controls from the very beginning 
of our service. Our Adult-Guard software allows parents to 
block access to one or more or entire channels and remove those 
channels from the electronic program guide. The software also 
provides consumers with the ability to block access to programs 
based on the ratings of their content.
    We have been pioneers in this technology, offering powerful 
parental locks, ever since we launched our service in 1996, and 
we will continue to educate parents about how to protect their 
children from indecent and violent content.
    Even with these parental controls, some of our customers 
say they want more choice over the package they purchase. They 
wonder why they pay for channels that they have to block out. 
At DISH Network, we considered offering a family friendly tier 
of programming in the past, but programmers have not been 
willing to allow it. Thanks to the leadership of this 
Committee, the chairman of the FCC, Chairman Martin, and other 
Members who have increased awareness of this issue, programmers 
have finally given us permission to launch a meaningful family 
package.
    I am pleased to announce that beginning February 1st DISH 
Network will launch the DISHFamily package for the low price of 
$19.99. We will provide about 40 family-friendly channels, 
including many popular kids shows, as well as movies, a few 
sports channels, religion, and other programming, and for $5 
more customers can get their broadcast networks.
    Because the system is 100 percent digital, the DISHFamily 
Package will be available nationwide, including Alaska and 
Hawaii, and including traditionally underserved rural areas. 
And in the EchoStar-DISH Network tradition, the $19.99 
DISHFamily package will be the most robust family tier in 
America. This is not a promotional price and there is no costly 
buy-through. It can be purchased on a stand-alone basis. 
Moreover, there is no fee for the initial digital set-top 
boxes.
    We do not yet have a final lineup of all the channels 
because we continue to meet some resistance from some 
programmers who remain unwilling to unbundle some programming 
or relax penetration requirements in existing contracts. We 
hope these programmers will eventually work with us to make 
their channels available on our DISHFamily package so we will 
have an even more compelling choice for consumers.
    While we are confident that our family package will meet 
the needs of the average American family, we also recognize 
that some consumers want even more flexibility. Some customers 
want more sports or news and are unwilling to pay extra to 
receive those channels.
    At this point you may be asking yourself, why do pay 
television providers not have more control over the way 
programming is offered? The answer usually comes down to the 
muscle of the largest programmers, particularly those who own 
the large four networks. More than a decade ago, Congress 
granted local broadcast stations the right to demand payment 
from cable providers and ultimately satellite providers in 
exchange for carriage. The rules have provided broadcasters, 
who already benefit from monopoly rights in their local market 
and the free spectrum from the government, extraordinary 
leverage over pay television providers, who need to offer the 
four networks as must-have programming for their customers.
    These same broadcasters have accumulated other popular 
programming. According to the FCC's 2005 report, the media 
conglomerates--Disney, Viacom, NBC-Universal, and News 
Corporation--are among the largest owners of local broadcast 
stations and have approximately 60 percent of the top 20 pay 
television networks. These large programmers use this leverage 
to bundle their programming together and tell distributors like 
DISH Network: If you want one, you have to take them all. 
Before you know it, we are carrying channels that our customers 
do not watch and do not want to pay for.
    Programmers also force distributors to package family and 
adult-oriented programming in the same package. Sometimes these 
media conglomerates offer their local broadcast stations on a 
stand-alone basis, but more often they do it at an astronomical 
price that has no basis to the market.
    Ironically, we have more success negotiating deals with 
international programmers than we do on the domestic front. 
Because we are not faced with the same anticompetitive bundling 
practices, we are able to offer a la carte foreign programming 
such as Arirang TV out of Korea or, if our customers prefer, a 
bundle of Korean channels in a variety pack. We do not require 
our international customers to purchase other costly domestic 
packages in order to receive these programs if all they really 
want is a single channel.
    This leads one to wonder why it is that in America, a free 
market economy, an entrepreneurial company like EchoStar cannot 
deliver its customers the domestic packages of programming they 
are asking for. We are willing to do it. Our systems are set up 
to offer individual channels and specialized packages and we 
have proven that in the international context it can be done.
    It is time for Congress to fix this domestic problem. 
Congress needs to pass legislation that provides unbundling of 
the retransmission consent from other programming negotiations. 
The legislation should include a binding arbitration process to 
resolve disputes that include broadcast stations. Arbitration 
would have the practical effect of unbundling the negotiation 
of broadcast networks from other channels. During arbitration, 
the programming in dispute would continue to be available, 
thereby ensuring the consumers have uninterrupted access to the 
most important channels.
    Commercial arbitration is a pro-consumer way of resolving 
these disputes without government involvement. It would enable 
the Committee to avoid unnecessary rate or content regulation 
that could trample First Amendment rights. Admittedly, it does 
not go as far as legislation that would provide an a la carte 
solution, as some advocate. But it would offset the leverage 
that the largest programmers now wield in their retransmission 
consent negotiations and it would result in more customized 
program packages for America.
    Chairman Stevens, I commend you on holding this important 
hearing and we look forward to working with you on these 
matters. At DISH Network we are proud to serve over 12 million 
subscribers who rely on us every day as their pay television 
provider and we will continue to promote consumer choice in the 
pay TV market.
    Thank you.
    [The prepared statement of Mr. Ergen follows:]

   Prepared Statement of Charles W. Ergen, Chairman/Chief Executive 
              Officer, EchoStar Communications Corporation
    Chairman Stevens, Senator Inouye, and other distinguished Members 
of this Committee, I appreciate the opportunity to appear today to 
discuss this important matter. My name is Charles W. Ergen, and I am 
Chairman and Chief Executive Officer of EchoStar Communications 
Corporation and its DISH Network.
    A lot of people ask me, ``How did EchoStar grow to become the third 
largest pay-TV company in the Nation? ''
    The answer is simple: by giving consumers what they want.
    Every day, we hear from DISH Network subscribers, and we pay close 
attention. Consumers drive us to develop cutting-edge technology, 
provide top-rated customer service, and offer an extensive channel 
lineup, all for the best value in the industry.
    Lately, consumers often say they want more control over the 
television programming coming into their homes. They are concerned 
about television's influence on their kids.
    One way we've addressed these concerns is to provide our customers 
with a number of easy-to-use tools to control the programming viewed in 
their homes. All DISH Network set-top boxes come with ``Adult Guard'' 
software that allows parents to block entire channels and individual 
programs based on multiple ratings and content criteria. We were 
pioneers of this technology, offering powerful parental locks since we 
launched our service in 1996.
    Using the prompts on an onscreen menu, a DISH Network subscriber 
can block access to one or more entire channels. Our software even 
allows parents to completely remove the channel numbers from their on-
screen program guide. This technology not only prevents young family 
members from accessing the programs; it also blocks access to the title 
and descriptions of the program. We also developed a one-click ``Hide 
Adult'' feature that automatically removes all adult channels, saving 
our subscribers the time of selecting each network of adult 
programming.
    The ``Adult Guard'' feature also provides consumers with the 
ability to block access to specific programs based on ratings, such as 
PG, PG-13, R, and NC-17. In addition, the software can alternatively or 
additionally blockout any programming that contains violence, language, 
nudity, sexual content or any combination of these factors.
    We also recognize that our subscribers must know the ``Adult 
Guard'' functionality exists in order for the technology to be useful. 
For this reason, we include information about the parental controls on 
promotional channels available to all our customers. We also offer 
information on Adult Guard on our website, and in our user guides, 
product brochures, and periodically in our monthly bills. In addition, 
we use some of the on-air ad time programmers make available to us to 
promote the ``Adult Guard'' technology, and consumers can call our 
customer service representatives for help in setting up the blocking 
technology.
    Even with parental controls, consumers often say they want more 
choice over the programming they can purchase. They would like the 
option of purchasing a family-friendly tier. At DISH Network, we've 
considered offering such a package in the past, but programmers have 
never allowed it.
    Thanks to the leadership of this Committee, Chairman Martin, and 
other Members who have increased awareness of this issue, I am pleased 
to inform you that some programmers have finally given us carriage 
rights to launch a family tier of programming.
    On February 1, we will launch the ``DISHFamily'' programming tier. 
For the low price of $19.99, this new package will provide consumers 
with all-digital, all-family friendly programming--including many 
popular networks. Unlike family tiers offered by other pay television 
providers, the ``DISHFamily'' package will be available to consumers 
nationwide, including traditionally underserved rural areas. And at 
$19.99, with no costly ``buy throughs'' that other providers require, 
``DISHFamily'' is the lowest-priced family tier in America.
    Because we're still working with programmers on the stations that 
will be included in the package, we cannot disclose the channel lineup 
at this time. Unbelievably, we continue to meet resistance from some 
who remain unwilling to unbundle or relax penetration requirements in 
existing contracts. We hope that these programmers will eventually work 
with us to make the ``DISHFamily'' package a compelling choice for the 
consumer.
    While we are confident that our family package will meet the needs 
of the average American family, we also recognize that some consumers 
want even more flexibility. There are always consumers who want more 
sports or more news programming, than is offered in a particular tier. 
And these consumers are willing to pay extra to receive these channels.
    Unfortunately, the largest programmers, particularly those that own 
a big 4 network, have the muscle to control the way that pay television 
providers offer programming to consumers.
    More than a decade ago, Congress granted local broadcast stations 
the right to demand payment from cable providers, and then ultimately 
satellite, in exchange for carriage. These rules have provided 
broadcasters, who already benefited from monopoly rights in their local 
market and free spectrum from the government, extraordinary leverage in 
their negotiations with pay television providers who need to offer big 
4 network programming to compete in the market.
    In negotiations, the largest programmers use their leverage to 
bundle their broadcast channels with other channels, forcing 
distributors to charge customers for channels they do not want, and to 
package family and adult-oriented programming in the same tier. 
According to the FCC's 2005 Competition Report, the media conglomerates 
of Disney, Viacom, NBC Universal, News Corporation, and Hearst-Argyle, 
who are all among the largest owners of local broadcast stations, have 
an ownership stake in 60 percent of the top 20 pay television networks. 
And while these media conglomerates may offer their local broadcast 
channels on a stand alone basis, they do so only at an astronomical 
price that has no basis in the market.
    We are not alone in our concerns. Our competitors in the cable 
industry, such as small cable operators, represented by the American 
Cable Association, and cable overbuilders, such as RCN, experience 
similar problems with these programmers.
    To get at this problem, Congress should create a binding 
arbitration process to resolve disputes that involve broadcast 
stations. It would have the practical effect of unbundling the 
negotiation of broadcast networks from other channels. During 
arbitration, the programming in dispute must continue to be available, 
thereby ensuring that consumers have uninterrupted access to important 
local content.
    This proposal would enable this Committee to avoid unnecessary rate 
or content regulation that could trample on the First Amendment rights 
of either programmers or pay television providers. Admittedly, it does 
not go as far as legislation that would provide an ``a la carte'' 
solution as some advocate, but it would immediately offset the leverage 
the largest programmers now wield in their retransmission consent 
negotiations and would result in more customized program packages for 
American consumers.
    Chairman Stevens and Senator Inouye, I commend you for holding this 
important hearing, and we look forward to working with you on these 
matters. At DISH Network, we are proud that over 12 million subscribers 
rely on us every day as their pay television provider, and we will 
continue to promote consumer choice in the pay TV marketplace.
    Thank you.

    The Chairman. Thank you very much.
    Our next witness is David Cohen, Executive Vice President, 
Comcast Corporation. Mr. Cohen.

STATEMENT OF DAVID L. COHEN, EXECUTIVE VICE PRESIDENT, COMCAST 
                          CORPORATION

    Mr. Cohen. Thank you, Mr. Chairman, Senator Inouye, and 
Members of the Committee. We appreciate the invitation to 
testify before the Committee today.
    America's cable companies deeply value our relationship 
with our customers. We want to provide them with the greatest 
possible choice and control. At the same time, we want to run 
our businesses in a sound economic manner so that we can 
deliver the advanced services that our customers want and 
deserve.
    Today, Americans have access to a dizzying array of video 
and interactive media choices. There is something for every 
possible taste. But not everything in the marketplace is to 
everyone's taste. So, as some of our customers have asked for 
more alternatives to help manage family viewing, we have 
listened to them. In reviewing our options, we have to deal 
with some practical constraints. We must make decisions that 
are economically sensible for us and for the companies that 
provide content to us. We must honor our contractual agreements 
with those program providers and we must develop approaches 
that meet the needs both of our digital cable customers and our 
customers who are receiving analog television signals.
    As part of this effort, Comcast recently announced plans to 
offer a new family tier. Subscribers will receive 35 to 40 
channels, including many of the premier brand names in family 
programming, such as Disney, Discovery, National Geographic, 
and PBS Kids Sprout, which features quality programming chiefly 
for pre-schoolers and young children. We carefully selected 
channels on this tier that offer primarily content rated TV-G 
in all parts of the day and channels with less programming that 
is live and therefore more unpredictable than taped programming 
that can be viewed in advance.
    Comcast's Family Tier will retail for an average of about 
$31 a month, including all the broadcast channels that are 
available in local markets. It will soon be widely available on 
our systems across the Nation. We have been very pleased by the 
initial response to our family tier. The San Angelo Standard 
Times in Texas called it ``a welcome development.'' The 
Carlisle Sentinel in Pennsylvania said: ``This proposed family 
tier is a good idea that appears to have a groundswell of 
popular demand behind it.'' Faith and Family Broadcasting 
Coalition said that our family tier is ``a welcome and 
important step in the right direction.'' The Reverend Jerry 
Falwell called it ``a welcome response to the concerns of 
families.''
    We believe that the family tier approach provides 
additional choice in ways that make economic sense to us and 
for our program providers, and we think it has none of the 
downsides of the a la carte regime that some have advocated--a 
regime that in the considered opinion of numerous economic 
experts, scores of programmers, and hundreds of organizations 
and opinion leaders, would raise prices and reduce consumer 
choice.
    Of course, we know that our Family Tier will not meet the 
needs of every home. That is why we will keep working hard to 
ensure that parents and caregivers know about and know how to 
use cable's parental control tools. At Comcast, our digital 
cable customers, and soon our Family Tier customers as well, 
can press the guide button on their remote, select parental 
controls, and with a few clicks make the programming choices 
for their family and have them PIN-code-protected. As anyone 
who will go to that demonstration that the Chairman has 
referenced can see, this is really easy, and in my written 
testimony for the record, I have also submitted just a screen 
shot of what the parental control screen looks like so that you 
can actually see how easy it is to set these controls.
    Parents will be able to block specific programs or channels 
or block programs based on their MPAA or TV rating, and they 
can hide adult titles on the program guide. We are working on 
other ways to make our parental controls and program guides 
even more family-friendly, some of which are detailed in the 
prepared statement that I have submitted for the record.
    The cable industry wants every parent in America to know 
about these tools and know how to use them. Between May and 
November of 2005, basically a 6-month period, our industry has 
already aired over $130 million worth of public service 
announcements about these tools. Comcast alone in these 6 
months has aired over 1.6 million PSAs to inform our customers 
and your constituents about the availability and the 
flexibility of parental control technologies.
    Our industry has also conducted dozens of media literacy 
workshops in cities across America, and we are pleased to 
confirm that we are proud to join in the new pan-industry 
informational campaign that Mr. Valenti talked about just a few 
minutes ago.
    Mr. Chairman, the cable industry's success depends upon 
listening to our customers. Every day we compete for their 
loyalty against Mr. Ergen's company, Rupert Murdoch's satellite 
company, and now against the Bell companies. We want to offer 
every home the widest possible range of video programming, 
while giving parents the power to decide which programming best 
meets the needs of their families.
    We appreciate this Committee's interest in making sure that 
our industry is listening. We know it is a longstanding 
interest that did not just start today or even with the open 
forum on indecency, but is longstanding and will continue in 
the future. I want to promise you that we are listening to 
those customers and to you.
    Thank you very much for the opportunity to be here.
    [The prepared statement of Mr. Cohen follows:]

Prepared Statement of David L. Cohen, Executive Vice President, Comcast 
                              Corporation
    Mr. Chairman, Senator Inouye, and Members of the Committee: Thank 
you for the invitation to be here today.
    It's a particular honor to share this panel with Charlie Ergen, one 
of the great entrepreneurs of the communications industry, and with 
Jack Valenti, who has done so much for so many years to help parents 
make responsible choices for their children.
Cable Companies Are Listening to Their Customers
    America's cable companies deeply value our relationship with our 
customers. We want to provide them with the greatest possible choice 
and control. At the same time, we want to run our businesses in a sound 
economic manner so that we can deliver the advanced services that our 
customers want and deserve.
    Today, Americans have access to a dizzying array of video and 
interactive media choices. There is something for every possible taste. 
But not everything in the marketplace is to everyone's taste.
    As the Nation's largest cable company, Comcast is sincerely 
committed to ensure that our customers have all the choice they want, 
and all the controls they need. So, as some have asked for more 
alternatives to help manage family viewing, we have listened to them.
    We have to deal with a few practical constraints, including the 
laws of economics, contracts and physics. We need to make decisions 
that are economically sensible for us and for the companies that 
provide content to us. We must honor our contractual agreements. And we 
need to come up with approaches that meet the needs of both our digital 
cable customers and of our customers who use analog cable equipment.
A La Carte Violates the Laws of Economics, Contracts and Physics
    While some consumer groups have advocated that cable and satellite 
companies be required to make all of their channels available on an a 
la carte basis, this would violate the laws of economics, contracts, 
and physics.
    First, a la carte services cannot be delivered to analog cable set-
top boxes. To offer a la carte would require the individual sale of all 
of our channels, which would mean that 100 percent of television sets 
in cable homes would have to be equipped with digital set-top boxes. At 
the current state of technology, this would be prohibitively expensive 
for us and for our customers.
    Second, we have scores of complex programming contracts in which 
cable networks have negotiated for the right to be carried on specified 
tiers of cable service. In an a la carte world, all of these contracts 
would have to be unwound or abrogated by force of law. This would be 
hugely disruptive to our industries, extremely expensive, and 
undoubtedly exceedingly litigious.
    Third, after imposing all of those unnecessary costs and 
complications, an a la carte regime would yield no consumer benefits. 
Every independent analysis that has been conducted--from the Government 
Accountability Office to the Federal Communications Commission's Media 
Bureau, from Booz Allen to Bear Stearns, from Paul Kagan to various 
academic economists--has concluded that an a la carte regime would lead 
to consumers paying more and getting less.
    An a la carte regime would guarantee that there will be fewer 
programming choices and less diversity. Over 200 consumer and civil 
rights organizations, elected officials, and others have gone on record 
objecting to the devastating effects that a mandatory a la carte regime 
would have on programming diversity. Dozens of creators of niche 
networks, who know their success depends on their ability to reach the 
greatest possible number of women, or African-Americans, or Hispanic-
Americans, or other specialized segments, have protested that a la 
carte would sound their death knell.
    Many analogies have been used to explain why a la carte is a bad 
idea. I think the most compelling analogy is to a public library. All 
of us pay for the maintenance of our libraries. Each library contains 
thousands and thousands of volumes. Most people will never open most of 
those volumes, but someone is likely to look at every volume at some 
point. If we cared only about the volumes that most people wanted to 
read most of the time, our libraries would look like The New York Times 
best-seller list. But none of us would want to sacrifice the immense 
diversity that our libraries contain, and all of us benefit from the 
opportunity to browse and to find something that we didn't know about 
before.
    Cable and satellite television work much the same way. Everyone 
pays about the same for basic service, and these fees (plus advertising 
sales) help to support an incredible diversity of programming. Not 
everyone who watches cable watches every channel, of course. But this 
economic model, which puts scores of channels into customers' homes, is 
a proven success.
    If an a la carte regime were pro-consumer, then surely one of the 
numerous competitors in the marketplace--Comcast, Time Warner, DIRECTV, 
DISH Network, RCN, Knology, WideOpenWest, and dozens of others--would 
have adopted that model by now to distinguish themselves from their 
competitors. The fact that none of these companies has seriously 
pursued an a la carte model speaks volumes about the lack of viability 
of this concept in the marketplace.
Our Innovative ``Family Tier''
    While we are firmly convinced that an a la carte requirement would 
not be in the best interest of our consumers, program providers, or our 
industry, we are nevertheless always exploring new ways to better serve 
our consumers.
    We are absolutely committed to meeting the needs of families. We 
have shown this by providing flexible parental controls; by working 
with PBS to create the PBS Kids Sprout Network, the premiere service 
for young viewers; and by working with the cable and programming 
industries to constantly improve the information available to parents 
about how to manage the programming available in their homes.
    As another step in that commitment, last month Comcast announced 
our plans to offer a new ``Family Tier'' service.
    Subscribers to the ``Family Tier'' will receive 35 to 40 channels, 
including many of the premiere brand names in family programming, such 
as Disney, Discovery, National Geographic, and PBS Kids Sprout. 
Specific channel offerings include: Disney Channel, Toon Disney, 
Discovery Kids, Nickelodeon or Nick Too, Nickelodeon Games and Sports 
(GAS), PBS Kids Sprout, DIY (Do It Yourself Network), CNN Headline 
News, The Weather Channel, C-SPAN, C-SPAN 2, Food Network, National 
Geographic, Science Channel (Discovery), HGTV, and TBN (Trinity 
Broadcasting Network).
    We carefully selected channels that offer primarily TV-G content in 
all parts of the day, and channels with less programming that is 
``live''--and therefore unpredictable. Comcast's Family Tier will 
retail for an average of about $31 a month. This includes our basic 
cable service (which averages about $12 per month and which must, by 
Federal law, be made available to all of our customers), 16 family 
channels (at $14.95), and a digital cable box, which is required to 
obtain this service (at an average regulated price of about $4.25).
    We created our Family Tier in a way that is consistent with the 
laws of economics, contracts and physics. We believe this is an 
economically viable offering that gives families another affordable 
choice and does not violate the reasonable expectations of cable 
programmers. And while this service does require a digital set-top box, 
we hope that it will encourage more penetration of digital services, a 
goal shared by this Congress.
    We have been pleased by the initial response to our Family Tier.

  <bullet> The San Angelo Standard Times in Texas called it ``a welcome 
        development.''

  <bullet> The Carlisle Sentinel in Pennsylvania said, ``this proposed 
        `Family Tier' is a good idea that appears to have a groundswell 
        of popular demand behind it.''

  <bullet> Faith and Family Broadcasting Coalition said it ``is a 
        welcome and important step in the right direction.''

  <bullet> And the Rev. Jerry Falwell called it a ``welcome response to 
        the concerns of families.''

    This new service will be available to 99 percent of homes across 
our cable footprint, and we will make sure that families interested in 
this option know how to take advantage of it.
    I would also note that several other cable companies also have 
announced plans to launch a family tier, including Time Warner, Cox 
Communications, and, most recently, Insight Communications.
Empowering Parents With Information and Technology
    Of course, we know our Family Tier won't meet the needs of every 
home. That's why we will still work hard to ensure that parents and 
caregivers know about, and know how to use, cable's parental control 
technologies.
    At Comcast, our digital cable customers--and soon our Family Tier 
customers as well--can press the ``Menu'' button on their remote, 
select ``Ratings Locks,'' and with a few clicks make the programming 
choices for their family and have them PIN-code-protected. They can 
block specific programs or channels, they can block programs based on 
their MPAA or TV rating, and they can hide adult titles on the program 
guide. Attached is a ``screen shot'' of our parental controls feature.
    We will continue to innovate to make our parental controls and 
program guides even more useful to families. Later this year, we plan 
to give parents the power to PIN-code-protect access to our On Demand 
service. During 2007, we expect to roll out additional features 
including the ability to lock out programming by content label (based 
on TV ratings for violence, sexual situations, dialog or language), 
displaying these content labels on our program information screens, and 
offering family-friendly recommendations in our program guide. Our 
developers are at work on all of these new capabilities right now.
    As we've said many times, we realize that it's not enough to make 
these features available. We want all of our customers to know about 
these tools and to know how to use them. That's why Comcast has worked 
closely with the National Cable & Telecommunications Association in its 
``Cable Puts You in Control'' public information campaign.
    Between May and November of 2005, the cable industry aired its 
``Take Control'' public service announcements with an aggregate 
commercial airtime value of $130 million--well on the way to the $250 
million in airtime we committed to last spring. Comcast alone has aired 
these PSAs over 1.6 million times.
    In addition, about 30 Members of Congress have recorded public 
service announcements promoting public awareness of parental controls, 
and these are airing on cable systems across the Nation. And our 
industry have held dozens of media literacy workshops across the 
Nation, working with PTAs and other family organizations, and we plan 
dozens more in 2006.
    Like other cable companies, Comcast also communicates directly with 
its customers about their options. We offer, on demand, a how-to video 
to instruct parents on our parental control features. For almost two 
years, we have provided one-click access to parental controls 
information from the homepage of our website, www.comcast.com. And 
nearly two years ago, we established a toll-free hotline (866-781-1888) 
to answer any questions our customers may have about the Family Tier or 
parental control features.
    Finally, we are delighted to join with NCTA and our cable industry 
colleagues as part of the new pan-industry informational campaign that 
Jack Valenti announced today, and we are especially pleased to have 
enlisted the creative talents of the Ad Council for this effort.
Conclusion
    Mr. Chairman, every hour of every day, we compete for our 
customers' loyalty against Mr. Ergen's company, Rupert Murdoch's 
satellite company, and now against the Bell companies as they offer 
competing cable services. To succeed, we must offer our customers 
choice, control, convenience and good value. We want parents to think 
of us as their partners. We want to offer every home the widest 
possible range of video programming, but we also want to give them the 
power to tailor their selections for the unique needs of each 
household.
    We always remain open to constructive ideas about ways to better 
serve our customers. We think the competition we all face in the 
multichannel television marketplace compels all of us to keep our eyes 
and ears wide open.
    We appreciate this Committee's interest in making sure that our 
industry hears the needs of our customers, and I am glad to be able to 
tell you, ``We are listening very carefully.'' Thank you, Mr. Chairman.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you all very much.
    Without objection--I hope there will be no objection--we 
will limit ourselves to 5 minutes each. We have got another 
panel later.
    So, let me start it off. Mr. Valenti, when you look at this 
problem--and I think Mr. Ergen has mentioned the problem--about 
the programming and content, what do you say about, this group 
of yours, will it include PTA participation, reach out to all 
of those who deal with children and problems, children's 
problems, in terms of the use of television?
    Mr. Valenti. Mr. Chairman, as I said, we are going to reach 
out for the first time to all advocacy groups, including the 
PTA and others. The uniqueness of this is in the first time 
this kind of unity, in which Comcast and Mr. Ergen and Mr. 
Murdoch's groups and all the studios and all the television 
stations and all the cable systems and all of the national 
networks, as well as the consumer electronics industry. This is 
the first time we have come together like this.
    I am absolutely convinced that we are going to make a real, 
real impression on the consciousness of American parents, to 
give them more zeal and more ease in doing what they have the 
power to do. By the way, we estimate the cost of this to be 
somewhere between $250 to $300 million, and in my own judgment 
that is a very conservative estimate. I am talking about the 
cost of designing these messages and the air time cost of 
putting them on. Every time that Mr. Ergen puts one of these 
messages on his DISH company and Comcast, that costs money.
    So, we are willing to put up these funds and to spend the 
money that is requisite to doing this job.
    The Chairman. Thank you very much.
    Mr. Ergen, on January 31, we will hold a hearing on video 
content and we will take up your challenge to discuss with the 
programmers what they will do to assist in making sure that we 
meet this demand for American families.
    Mr. Cohen, I want you to know that demonstration that you 
put on last evening for the staff and for me, and it is 
available to every Member, I think is very good. I have seen 
some of the things on your Comcast broadcasts, the spots that 
you are already running. I have got to tell you, being involved 
in terms of the totality of that presentation yesterday, I know 
a lot more about it now than I did looking at the spots. Now, I 
am not criticizing the spots. You can only do so much in a 30- 
to 45-second spot.
    But I do think this total concept now of the public 
awareness campaign to educate American families on what is 
there now is very important, extremely important. I did not 
know that all of that was available on the TV and is available 
right in my own home.
    In answer to my friend from New Jersey, I have got to say I 
am blessed with some spouses of my children. They are really 
getting the control, the family control they need. I have told 
people before how I, as a father, tried to do it. I just said 
no television in our house. About a month later, the Mayor 
asked me what the hell were my kids doing in his house all 
afternoon. We understand the problem and bought a television.
    [Laughter.]
    The Chairman. So, it is a problem.
    This afternoon's hearing will be on the problems of the 
Internet and children's viewing. Last week I was told the 
average child in grade school spends 4 hours a day on a 
computer. The problems that are coming now, in terms of the 
streaming of information, particularly pornography, over the 
computer are overwhelming. So, this problem, I hope we can get 
it solved voluntarily. That other one is an enormous problem to 
deal with, and I invite people to be sure to be here this 
afternoon.
    Senator Inouye.
    Senator Inouye. I thank you very much.
    According to a recent study by the Parents Television 
Council, this past September in prime time, people were able to 
see 67 dead bodies. During the same period in 2004, 24 dead 
bodies.
    When I was a child--and I have been told that it still 
continues--our teachers used to tell me: Read the newspapers, 
listen to the radio, and, as we got older, watch news on 
television, inform yourself about what is happening here and 
abroad. Now, I do not know where these numbers came from, but 
there are certain programs that I watch that are news, network 
news. How are they going to cover Katrina without showing dead 
bodies?
    Are we concerned about that type of violence? I always tell 
my son: Watch the History Channel or Discovery Channel, because 
you may learn a few things about where you came from. These 
past couple of days I have been watching the Civil War. Last 
night it was the French-Indian War. I must say that there must 
have been at least 500 dead bodies on that movie.
    We seem to be concerned about Hollywood or the TV programs. 
Should we be concerned about news and documentaries? Should we 
be concerned about Aruba? My God, I have learned where Aruba is 
now. It comes on every week. It is still coming on. Is that 
good for our kids? I do not know what the attraction is. Then, 
ever since they found the body in San Francisco Bay, it is 
still coming along.
    I think we should be looking into something like that. But 
you do not control that with the V-Chip, do you? Do you knock 
off news programs? Please, anyone?
    The Chairman. Mr. Cohen.
    Mr. Cohen. A couple of comments. I am happy to lead off 
with a couple of comments.
    First of all, in the documentary area, many documentaries 
are rated. The Chairman made reference to the need for ratings. 
So, for example, the History Channel offers a program, ``Band 
of Brothers,'' a documentary based on a World War II book by 
Steven Ambrose that is rated TV-14. So, if you have used 
parental controls and blocked out TV-14 programming, then, even 
though you have the History Channel, that programming would be 
blocked out.
    I think news is complicated because you do not want to not 
offer news in a family tier or not offer news in a household. 
My solution to that is a little bit of a different story, and I 
think it goes to the way in which parents control the use of 
television and watch television with their children or have 
their children watch television.
    I had the privilege of attending one of the media literacy 
workshops that I mentioned in my oral testimony. By the way, we 
co-sponsor those with local PTAs, in response to the Chairman's 
initial question to Mr. Valenti. In that media literacy 
workshop we actually teach parents how to watch television with 
their kids. I remember a line which is so logical and I will 
say it here, which is that television is not a babysitter. It 
is not something you just turn on and put your kids or your 
grandchildren in front of when you do not want to pay attention 
to them.
    I personally do not think we should block news out of 
American households, but there is so much disturbing news that 
maybe it is something you should watch with your children so 
that you can talk them through things that they may see, such 
as Katrina for example, and make sure they are not upset and 
that they understand what is happening and why it is important.
    Or, if the news is too disturbing for a particular family, 
you may decide that you do not want your children to watch the 
news, in which case you should tell them not to watch it and 
enforce that in your own home.
    So, those are a few thoughts in response to those comments.
    The Chairman. Do either of you want to comment?
    Mr. Valenti. Mr. Chairman, I just want to offer one thing. 
When you live in a free and loving land, a democracy, it gets 
messy at times. When you have a First Amendment, that means you 
must allow unto the marketplace a lot of this I personally find 
vile, profane, and just plain stupid. But that is the price you 
pay for the freedoms that we enjoy.
    I have a 4-year-old grandson, Senator Lautenberg. When he 
gets to be about 10, I am going to take him, as I did my son, 
to the Normandy country of France and show him that cemetery 
there where 70 percent of the 9,387 buried there are between 
the ages of 18 and 23. Then I am going to want to let him watch 
Steven Spielberg's ``Saving Private Ryan'' so he understands 
that in that cemetery these young men gave him the greatest 
gift in the world. They gave him the gift of freedom, and I 
want him to understand where it came from. So, I want him to 
see what war is really like and why he will never have to, I 
hope, test his own courage to see how he would react when the 
dagger is at the Nation's belly and death stares him right in 
the face.
    So, I think there are some things that you want to show 
your children. But that is the beauty of these blocking 
mechanisms that both Comcast and Mr. Ergen have. It allows a 
parent to block out what he or she does not want their children 
to watch and leave there what their children can watch.
    But I promise you this, and I have spent a lifetime, over 
40 years, 42 years, in Washington and Hollywood, and I have 
learned a couple of things. One is that you cannot block out 
everything for your child. The church, the home and the school 
is where you build a moral shield for that child. Sooner or 
later, he is going to have to face the blandishments of his 
peers in the mean streets. But if he has this kind of moral 
shield built for him at home and in the church and school, he 
will be able to navigate his way.
    So, I am just saying to you there are some things that can 
be done and some things that cannot be done. But I believe what 
we are trying to offer is giving parents the power to do what 
they think is right.
    The Chairman. Thank you very much, Jack.
    Senator Burns.
    Senator Burns. I wish I had the command of the English 
language like Mr. Valenti, because I think you put it in great 
words.
    You write down all of these things about programming, a la 
carte, family tiers, all of this. That may work in your home, 
because every family has a different degree of acceptability. 
We all differ, what we like to watch, what we permit to watch, 
because our values change as houses do going down the block.
    We have got to understand that for our children, everything 
that they see is not at home. They have an opportunity to view 
a lot of things that would be unacceptable to us in other 
venues, whether it be at school or at a neighbor's house or 
whatever, the friendships that they have. That is what makes 
our problem even more difficult. I think the framers of the 
Constitution understood that, too, and that is why that First 
Amendment is there, because they did not want government to set 
the standard for the whole society, and families do it, moms 
and dads.
    I have got to tell you that since the break that I became a 
grandfather and I have got a new granddaughter. I can say 
without mental reservation or equivocation whatsoever, she is 
perfect.
    I guess I want to talk mostly to programmers. Mr. Valenti, 
you probably could answer this more than anything else. Are 
there ever discussions with anybody that produces programming, 
discussing what is acceptable and what is not in our society? 
Does that discussion ever take place and then a corporate 
decision says, we do not think we want to do this, or yes, it 
is acceptable? Does that discussion ever go on in corporate 
America? Or do they just look at bottom line?
    I would like to have your view on that, sir.
    Mr. Valenti. The answer is yes, it does. Keep in mind that 
last year, the major studios put out about 211 movies, but 
there were over 700 produced in this country. First, we do not 
have enough gifted creative people to do 700 really first-class 
movies. That is number 1. Number 2, because it is a free 
country, you do not have to operate within any system. You can 
make your own movie and then you can go out and try to sell it 
to anybody who wants to buy it, or you can put it on the 
Internet without barriers of any kind.
    So, I am saying to you that, as you pointed out about 
parents are different, all filmmakers are different. Some of 
them have a very, very strenuous and stringent, I think, 
honorable way of looking at it, and they make their own 
revisions of their movie. Some of them do not, but that is part 
of what I call the neighborhood of America. Everybody is 
different.
    So, you cannot lay down a stern gauge and say everybody 
must fit this mold. But I am impressed by the kind of, I think, 
corporate responsibility that goes into many of the companies 
that I deal with every day.
    Senator Burns. Now, as far as the distribution goes, do you 
have those kinds of discussions, what you will air and what you 
will not? Do you have any responsibility to society of what you 
want to do and what you will push out of that satellite or down 
that piece of glass?
    Mr. Ergen. You know, Senator, from a DISH Network 
perspective, we feel our job is to put up content and we put 
all the--I think the industry you have heard here today has 
done a great job of putting the controls in front of parents to 
be able to lock out what they want to. Even if you are going to 
use the TV as a babysitter, our system will allow you to make 
sure that what people are watching, even if your kids are there 
and you are not there, you can control.
    Senator Burns. Sadly enough, though, there are some 
televisions that are being used as babysitters.
    Mr. Ergen. That is right, that is right. So, we have to 
build a system that if you want to use it as a babysitter you 
can feel safe in doing that, and you can do that with our 
satellite system.
    However, what our consumers complain about is the fact that 
they have got to pay for things that they do not want to watch. 
As you see on the board over there, the big conglomerates have 
enough power to have you carry things that you may not want to 
carry in a particular package. So, that is where our concern 
is, we feel we do a great job as an industry to give parents 
the tools to watch on television what they want, certainly 
better than the Internet or any other form of video 
distribution today.
    But what we do not do a great job at as an industry is to 
give customers those channels that they want to pay for and not 
give them those channels that may have objectionable 
programming that they are forced to pay for. That may be two-
thirds of the bill they pay every month is for channels they do 
not watch. So, that is where we think the Congress can take a 
further look at it.
    The Chairman. Thank you very much.
    Senator Lautenberg.
    Senator Burns. I was going to have Mr. Cohen remark about 
that, because he offers distribution, but in a different way.
    Mr. Cohen. I will take only 30 seconds so the Chairman can 
stay on schedule.
    I basically agree with Mr. Ergen that as a distributor I 
think we have a different feel to this, but the people who run 
our companies are parents and grandparents too, and I think we 
have all the same concerns that have been expressed here today. 
So are the people who run the content companies and the 
programmers. Certainly, over the past 12 to 18 months at least 
there have been a lot of discussions between distributors and 
programmers about the coarseness of programming and the trend 
toward coarseness of programming. A lot of those discussions, 
as Members of this Committee know, have taken place at the NCTA 
level, where we have programmer members as well as distributor 
members. I cannot tell you that we have reached any resolutions 
that are helpful, but I think it is a matter of dialog today, 
whereas maybe a few years ago it was not something that was 
being talked about between the distribution and the programming 
community.
    The Chairman. Thank you very much.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. I am sorry that 
we do not have more time with these witnesses. There is a lot 
of information that they bring to the table and it is very 
interesting and certainly stimulating in terms of where we go 
from here.
    Jack Valenti we have all known a long time and we know that 
Jack speaks with an authoritative voice and that the polling 
data that you brought is very interesting. I wonder if it is 
possible to get a copy of those polls on whether the government 
involvement is unwelcomed, as it appears to be.
    Senator Inouye raised an interesting question, the 
definition of what stands as violence. When we look at Darfur 
and we watch the news and you see the abuse that is heaped upon 
children and women and men, that is disturbing. But, Jack, you 
said it: in Democratic nations, the high communication 
capability that we see now, you are going to see some things 
you do not like. It is going to bring you closer to reality, 
and reality is these things. No matter how much we want to 
shield our children, I do not think we can do it.
    When we talk about the value of the interest in sports--and 
I asked the question before whether sports are included in the 
family tier packages. Is news, Mr. Cohen, included in the 
family package? Whose news do you produce?
    Mr. Cohen. I would like to address both points. Let me 
answer the question about news first and the answer is yes.
    Senator Lautenberg. But quickly, because, even though he is 
out of the room----
    Mr. Cohen. Sure, the clock is still running.
    The answer is yes. There are two types of news in the 
Comcast Family Tier packaging. First, we carry all the 
broadcast networks and therefore all the news that they carry 
is part of the Family Tier. Second, we include CNN Headline 
News as one of the channels in our Family Tier package.
    On sports, I would like to say both to you and Senator 
Allen, because we carry the broadcast networks and local 
television networks, there is a vast amount of sports 
programming that is on the Family Tier. Our problem with ESPN 
is some of the non-sports programming, particularly the non-
live sports content that ESPN carries, like ``Playmakers,'' 
which was the controversial TV-MA rated series that ESPN ran, 
and ``Tilt,'' which is a reality program about gambling in Las 
Vegas, are not appropriate for children.
    Senator Lautenberg. How about the sport of wrestling? Would 
that be considered violent?
    Mr. Cohen. Professional wrestling? I think that would be 
considered theater.
    [Laughter.]
    Senator Lautenberg. Not to the kid who imagines himself to 
be Mr. Terrible.
    But the dilemma that all of you face--Mr. Ergen, you said 
something that was very significant and I think candid. That 
is, give customers what they want. You have to understand what 
people want. Some fellow I know who is an analyst in the 
hospitality industry brought up some information to me about 
the films that are requested in hotel rooms and he indicated 
that, by far, the largest segment of interest is sexually 
oriented.
    Well, that tells you something about the public appetite, 
and how can you deal with the public appetite? Talk to 
Blockbusters, talk to any one of them, and I have, to see what 
the largest portion of interest is in film rental.
    So, we have to understand that there is an overriding 
interest dictated by the popularity of ``Sex in the City'' and 
``Desperate Housewives'' and things of that nature. The public 
wants to have it for themselves. They do not want their kids to 
have it. I do not want my grandchildren to have it.
    So, how do you deal with that realistically? How about 
things like commercial space, seductive ads for lingerie or 
things? Is that OK or is it not OK? It is OK by me, but I do 
not want my kids, my grandchildren, to be noticing that 
particularly. My oldest is only 12, so we are safe for another 
year.
    So all of these things relate to the marketplace and how 
you deal with it fairly without invading the ability, under the 
First Amendment, under our freedoms, to communicate what people 
want. I think that the notion that a rating ahead of a program 
is going to make the difference is not really going to get you 
a lot, because that means the parent has to stand by and watch 
what is coming up and click it off. I think there has to be a 
better response.
    Mr. Cohen. Just really briefly again, not necessarily. If 
you set up the parental controls in advance to block out TV-14 
programming, the parent does not have to be present. When the 
program comes on the TV, the technology in both of our systems 
and with the V-Chip would automatically cut it off. Number two, 
in terms of ads, again the issue here is, will the private 
market--will the markets work to do this.
    I think the attention and the focus that this Committee, 
your counterparts in the House, the FCC has put on this issue--
we have already seen changes. So, for example, just a few weeks 
ago the NFL stopped a relationship that they had with an 
advertiser that raised some of these concerns. I think it was 
Levitra, but not 100 percent sure. You will see that the dialog 
around this and the discussion is causing behavior patterns to 
change in some of these more difficult areas that cannot be 
controlled with parental controls.
    Senator Lautenberg. You do not really mean behavior 
patterns changing. You mean viewing changes?
    Mr. Cohen. I mean the people who are responsible for the 
programming making changes in what it is they are putting on 
the air.
    Senator Lautenberg. I want to say, Mr. Chairman, before I 
am cut out, that Jack Valenti--Jack was always a leader in 
areas of communications, video, broadcast, etcetera. I think it 
is a great idea to come up with in terms of advertising 
parental responsibility, which is what you are essentially 
saying.
    The thing, however, one of the suggestions is that programs 
be rated as they are ready to come on the air, and I think that 
is going to be an awfully tough process to buy.
    Thanks very much, Mr. Chairman. Thank you all.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Several questions. One of the things that we are all 
grappling with, you used the word, Mr. Cohen, ``coarseness of 
society,'' and those standards have changed throughout the 
history of our country. It has changed from when we were kids 
and that was different than when our parents were kids and 
grandparents, and all the rest.
    As a parent, about the only time that you really have any 
control over what your kids are listening to or hearing is when 
you are driving in the family vehicle and you change the music. 
My kids get sick of listening to good music. They are not big 
country music fans like I am. But sometimes you are listening 
to talk shows and something is coming up, and it may be 
conservative talk shows as well, and they will bring up things 
and you just change the radio station. That is about the only 
time you really are with your kids.
    The rest of the time, you are not necessarily wanting to 
watch what your kids watch, and the kids will watch MTV or 
something like that, which I am not sure how that is rated one 
way or the other, but that is a reflection of a certain 
coarseness, I suppose, in people's views.
    The questions that we have here affect broadcast, affect 
cable. Broadcast is different than cable. Cable is a paid 
matter. That is accorded all those First Amendment rights, just 
like anything you would buy in magazines and all the rest. 
Broadcast is different, and when broadcast--and broadcast 
standards are different than cable standards.
    So, whether you are watching a sporting event or you are 
watching a concert or whether you are watching an awards 
ceremony, and in the midst of that over-the-air broadcast there 
is a violation of these standards--and I think we all agree 
there should be standards for broadcasting--there is a concern 
that the penalties and the fines for violations are 
insufficient.
    Would you like to comment on whether or not you think that 
the fines for violation--this is broadcasting--are sufficient? 
A lot of the measures that have been introduced in the last 
several years, it seemed to have all started off with the half-
time show at the Superbowl a couple of years ago. Regardless, 
do you find that increased fines would deter violations of 
decency standards or do you think that we should just continue 
the way it is?
    Mr. Valenti, since you represent--the same with Mr. Ergen 
and Cohen--I would like to hear your views on whether we should 
be increasing fines. This is for broadcast. Cable I look at as 
a completely different situation.
    Mr. Valenti. I have always been quite nervous about being 
indicted for a crime whose specifics are vague. It seems to me 
that if you are going to be charged with violating indecency 
standards, there ought to be some explicit and precise measure 
of what is an indecency standard.
    I have to say, in the interest of full disclosure, that the 
idea that you would fine somebody enormous amounts of money for 
a 1.5 seconds partial exposure of an artificial breast to me is 
so absurd that I cannot even deal with it. Is that a standard? 
Does the whole American culture collapse on one and a half 
seconds on the Superbowl? I find it absurd.
    But the idea that you entrust somebody to say what is the 
standard--the Supreme Court today, Senator Allen, I need not 
explain to you, cannot define pornography and obscenity. The 
Miller standard is, well, it is community standards. Well, that 
is a loophole you can drive seven Hummers through.
    So, I find that before we ought to be assigning fines, 
should we not as a matter of candor and logic and reason define 
what it is that we are talking about?
    Senator Allen. Well, when you are watching a half-time show 
and if somebody disrobes, that will be offensive to those who 
do not expect to see that. Or if you are watching some show and 
certain words are used--and I think most will understand what 
words, you can use the F-word and so forth--that if these words 
are used this is not what you expect to be watching on family 
programming.
    In the event that people can get away with doing that, 
saying, oh well, these standards are vague, I think most people 
in a reasonable jury would say watching a half-time show you do 
not expect that to happen. I do not think it is the end of 
western civilization, either, nor maybe if certain words are 
used or if certain things are demonstrated and so forth.
    But there is an expectation on broadcast TV that certain 
standards of decency--and this is one of the expectations. It 
is one of the important aspects of why I generally support your 
philosophy that parents are empowered to know what will be the 
expectations, and when those expectations are breached that 
ruins that credibility of us trying to find an approach. So 
when people do breach what we can consider to be voluntary 
standards of decency or coarseness, whatever phrase one would 
want to use, there would be a punishment for it. And that--it 
is typical of our legal system that if somebody violates a 
certain standard or a contract or an agreement that there is a 
penalty for it, and if there is not a penalty there will be no 
reason, that added reason, for them to try to comply.
    Since then, of course, the networks, they have these 5-
second delays, whether it is award shows and half-time shows 
and whatever else is going on. There are the technologies to be 
able to screen that out if one of the actors or actresses 
violates those standards which are expected for broadcast 
television.
    That is my point from that.
    Mr. Ergen--we have gone over time.
    The Chairman. Another minute, Senator.
    Senator Allen. You each get 30 seconds to answer that. 
Although you all are not in the broadcast television, you 
obviously transmit broadcast programming.
    Mr. Ergen. I think all we can do from our perspective since 
we are in the distribution business is control what we can 
control. I think the fines would influence behavior. Fines have 
been larger lately, so we will see how--maybe see some change 
in behavior in broadcasters. But we put in place for the parent 
or the family the controls that, if a broadcaster violates your 
trust and your family, you can lock that channel out even if 
the channels are not rated, and if the channels are rated we 
give you different levels that you can lock out. So, our 
industry has done a really great job under Jack's leadership.
    Now, the thing that we have not done as well in the past is 
to educate people how to use those controls. We have always had 
those controls, but maybe we have not educated our customers as 
well as we should. Now we are endeavoring to do that with 
Jack's leadership, and I think that is going to be a big, big 
step forward.
    Mr. Cohen. Two quick comments. Number one, as the Senator 
notes, normally I think we would be loathe to comment on a 
regulatory issue affecting a different industry. We are pretty 
consistent in not coming to government and say, help us with 
another industry. We try and focus on the cable industry per 
se.
    But I do think that some of your follow-up comments to Mr. 
Valenti make the most important point here, which is that it is 
not necessarily the size of the fines that is changing the 
behavior that you want to change; it is the spotlight on the 
problem and in fact the moral suasion of there being fining 
authority at any level.
    As the Senator has pointed out, there has already been a 
dramatic alteration in the approach of broadcasters to these 
issues, even without any change in the fines. I think that has 
been a positive development and I think the broadcasters would 
agree that it has been positive.
    Senator Allen. Thank you.
    Thank you, gentlemen.
    The Chairman. Thank you very much, gentlemen. Again, I do 
think that the Committee should congratulate you for these 
initiatives and for this program you are going to work with the 
Ad Council--oh, pardon me. We have Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. We are getting in a hurry here, Senator. My 
apology.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. That is OK, I understand. I will try to be 
brief. But Mr. Chairman, thank you for your leadership on this 
and continuing to keep the heat on as only you can. Thank you 
for doing this very, very much.
    Let me, if I can, focus on Comcast just for a few moments. 
I know that you are trying to do the right thing, so please do 
not take these questions in the wrong vein, because I know you 
are trying to get there and trying to meet, not just what the 
Committee wants, but I think what a lot of Americans want as 
well.
    Let me ask--I know you are in the process of announcing 
this Family Tier and getting it up and running. Do you know 
about your competitors? Are they doing the same thing?
    Mr. Cohen. The answer is that, as of today, including Mr. 
Ergen's announcement, there have been announcements from 
Comcast, DIRECTV, EchoStar, Time Warner Cable, Cox, and Insight 
to roll out a family tier. The interesting thing, we did a 
little adding up last night, is that about 70 percent of the 
multi-channel video customers in America today, with the 
announcements that have already occurred, have the choice of 
basically three family tiers: the DIRECTV family tier, the 
EchoStar family tier, and their local cable company family 
tier.
    Senator Pryor. Let me ask you, at least from your 
perspective, what do you like about family tier as opposed to a 
la carte? Why do you want to go the family tier route as 
opposed to a la carte?
    Mr. Cohen. I think, as I briefly said, and in the amount of 
time that we have here I am just going to summarize again, the 
problem with a la carte according to the cable industry, the 
programming community independent experts, including Bear 
Stearns, Booz Allen, Paul Kagan, the Government Accountability 
Office, the FCC Media Bureau study, and what hundreds of 
organizations and advocacy groups believe is that the net 
result will be less choice for the consumers, fewer channels, 
at a greater cost.
    In a nutshell, the reason for this is that, as you make 
channels available a la carte the subscribers and the affiliate 
fees go down, and the advertising rates go down. That requires 
you to raise your per unit price, and for ESPN for example, you 
might have to pay 10 to $12 a month a la carte to get ESPN. The 
current bundling package that cable provides we believe is in 
the best interests of consumers because it provides a cost-
efficient way for them to get the diversity of choice and 
diversity of voices that we think consumers really like out of 
their multi-channel video providers.
    Senator Pryor. Well, I do not disagree with what you are 
saying, but also I do think we need to recognize that the way 
that the programmers, et cetera, bundle their channels has an 
impact on that as well. If you want ABC, you have got to get--I 
mean, I do not know how it works, ESPN, ESPN-2, ESPN Classic, 
whatever, whatever, whatever. There are a lot of folks that do 
not want all of that. They would like a la carte.
    Mr. Cohen. A slightly different issue, which Mr. Ergen 
talked about in his testimony.
    Senator Pryor. We will save that for another day, because I 
want to ask about on your service with your family tier. You 
have to have the basic cable service?
    Mr. Cohen. You have to have the basic cable service, as 
required by Federal law.
    Senator Pryor. I understand that. Then you have to have a 
digital box?
    Mr. Cohen. You do need a digital box to get the family tier 
because it is a digital product. But the price that we have 
given you, an average price of about $31, includes the cost of 
the digital box. So, it is not an add-on cost to the price that 
we have announced.
    Senator Pryor. Why do you have to do it in digital? I know 
that it is only $5, $6, $8. I do not know exactly, but it is 
not a whole lot of money. But why do you have to do it in 
digital?
    Mr. Cohen. The problem is one of technology. When we 
deliver signals analog to the house, beyond--after the basic, 
what we call our broadcast basic tier--the next tier would be 
called enhanced basic in our terminology, and that is the full 
70- to 80-channel package that contains lots of programming 
that everyone would agree is not family appropriate. There is 
no technical way to block selective channels on that second 
stream of enhanced basic carriage.
    So, the only way to do this is you have to block the whole 
stream, all of what is called B-2, and then you bring in 
digitally through the digital box the channels that you want to 
include on your digital tier that are then added to your B-1, 
your basic, broadcast basic tier.
    Senator Pryor. Right. I am out of time. And you have 16 
that you are offering in your family tier? Others may have a 
different lineup?
    Mr. Cohen. That is correct, plus the broadcast basic. So we 
have a total of 35 to 40 channels.
    Senator Pryor. I notice that there is a channel called ABC 
Family. ``ABC Family'' would imply that it is family friendly, 
but it did not make your tier. Is there a reason for that?
    Mr. Cohen. ABC Family actually has some TV-PG and a little 
bit rougher programming at different times of the day. At prime 
time and during most of the course of the day, it is all family 
appropriate, but it does have some programming. And we looked 
at that channel. That was the reason it did not meet our 
standard, which was at least 70 percent, 70 percent of the 
total programming being TV-G rated.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Again, my apologies.
    Again, I thank you all for your help and look forward to 
working with you further. As was just pointed out, we have a 
series of hearings now going through the next month, and we 
hope after those that we can get the Committee to find a time 
to reach a consensus on many of the issues we are dealing with. 
So, we may be back in touch with you.
    Thank you all very much.
    Mr. Cohen. Thank you very much.
    The Chairman. We are now going to change to panel 2. We 
hope that there will be an orderly transition and those of you 
who are back there by the door allow these people an 
opportunity to leave. Take a 5-minute break.
    [Brief recess.]
    The Chairman. Thank you very much. Thank you for coming and 
for being willing to present your views on the subject. We are 
just going to go right down the list from left to right as you 
are at the table.
    Our first witness is Mr. Bruce Reese, the Joint Board 
Chairman of the National Association of Broadcasters and the 
Chief Executive Officer of Bonneville International, 
Washington, D.C. Mr. Reese.

  STATEMENT OF BRUCE T. REESE, JOINT BOARD CHAIRMAN, NATIONAL 
ASSOCIATION OF BROADCASTERS; PRESIDENT/CHIEF EXECUTIVE OFFICER, 
                    BONNEVILLE INTERNATIONAL

    Mr. Reese. Thank you very much, Chairman Stevens, Senator 
Inouye, and Members of the Committee.
    The Chairman. Do you want to push the button on your mike.
    Thank you very much, Chairman Stevens, Co-Chairman Inouye, 
and Senator Pryor. We appreciate the opportunity to be here 
today. Bonneville International, the company that I head, 
operates the NBC affiliate in Salt Lake City and 38 radio 
stations around the country, including WTOP here in Washington. 
I am also here, as the Chairman said, with my Joint Board 
Chairman hat, as currently serving as the chairman of the board 
of the National Association of Broadcasters.
    Broadcasters acknowledge the concerns about programming 
content and in particular how media affects children. At the 
same time, as several Committee Members acknowledged at the 
November forum and again today, very real First Amendment 
issues are at stake when Congress considers venturing into 
content regulation. Given this delicate balance between the 
protection of children on the one hand and free speech on the 
other, we would ask the Committee to consider four key points.
    First, we would ask you to remember that the vast majority 
of broadcasters have never been cited for airing indecent 
material. In 2002, only 8 of the more than 15,000 stations 
received a notice of apparent liability from the FCC relating 
to indecent content. In 2003, that number was only 15. While in 
2004, the number was up to 208 stations, 189 of those notices 
could be attributed to two programs.
    Last year in 2005, not a single station was cited for an 
indecency violation. Overwhelmingly, local broadcasters err on 
the side of caution when making content decisions. For the vast 
majority of stations, these decisions are made on a local case-
by-case basis, with community tastes and standards in mind. 
Speaking personally, I know those are hard decisions. I ran our 
television station for a few years and I made some of those 
calls and I was criticized in the national media for decisions 
not to air programming that people thought they ought to be 
able to see on our stations.
    Second, just as the Committee must carefully consider the 
size of the problem, it should also remember that in today's 
media marketplace, viewers and listeners draw little 
distinction between over-the-air free broadcaster's programming 
and the programming of our satellite and cable competitors. 
Yet, existing indecency rules and the proposed legislation 
would not apply to the edgier content of cable and satellite 
radio and television.
    As Chairman Stevens noted at the November forum, the 
argument that the ubiquitous nature of broadcasting justifies 
singling out broadcasters as second-class citizens with regards 
to the First Amendment simply does not make sense any more. In 
a world in which 80 percent of households receive their 
television signal via cable or satellite, one would think 
broadcasters, cable, satellite TV, and satellite radio would 
all be governed by the same framework.
    Our third point, going forward, the Committee should be 
mindful of any unintended consequences that might result from 
increasing fines and penalties. For instance, some contemplated 
changes to the indecency regime could have severe chilling 
effect on free speech. Proposals requiring license revocation 
proceedings are especially troublesome. License revocation is 
the death penalty for a broadcaster and no broadcaster is 
willing to run that risk.
    Already, however, broadcasters have sacrificed compelling 
programming to avoid even the risk of a violation. Broadcasters 
have edited language used by soldiers on news reports coming 
out of Iraq and many stations were reluctant to air the 
acclaimed World War II film ``Saving Private Ryan'' on 
Veteran's Day because of uncertainty about indecency 
enforcement, concerns that the FCC later decided were 
unwarranted. Mandating license revocation hearings will 
exacerbate this problem.
    Any changes to the indecency rules should also include 
important culpability provisions. There are differences between 
those who have a live slip-up after taking reasonable 
precautions and those who purposefully push the envelope. In 
short, most legislative proposals present as many grey areas 
and complications as they offer solutions.
    Our fourth point and one that has already been discussed at 
length on the first panel is our belief that a key element, 
perhaps the key element, in content issues is to empower 
parents to make more informed choices and to facilitate their 
implementation of those choices. In that vein, NAB has been a 
proud collaborator in the unprecedented effort that Mr. Valenti 
described to develop a plan that will educate the public about 
the V-Chip and other blocking technologies.
    Ultimately, Mr. Chairman, broadcasters believe this sort of 
education, coupled with continued responsibility on the part of 
broadcasters, is far preferable to targeting one media group, 
broadcasters, with enhanced fines and greater penalties.
    Thank you.
    [The prepared statement of Mr. Reese follows:]

 Prepared Statement of Bruce T. Reese, Joint Board Chairman, National 
    Association of Broadcasters; President/Chief Executive Officer, 
                        Bonneville International
    Good morning, Chairman Stevens, Co-Chairman Inouye and Members of 
the Committee. Thank you for this opportunity to appear before you to 
participate in this Hearing on Decency in Broadcasting, Cable and Other 
Media.
    My name is Bruce Reese. I am the President and CEO of Bonneville 
International. Bonneville owns and operates the NBC affiliate in Salt 
Lake City as well as 38 radio stations around the country, including 
WTOP here in Washington.
    I am also the Joint Board Chairman of the National Association of 
Broadcasters. On behalf of NAB's member stations, I urge this Committee 
to recognize that continuing to add new, stricter content regulations 
that apply only to over-the-air broadcasting will not further the 
government's goal of limiting the potential for children to be exposed 
to indecent material. This is because broadcasting is but one of many 
media available to the American public. As the lines between over-the-
air and other forms of content delivered to the home continue to blur 
(and consumers have increasing difficulty distinguishing between them), 
it is becoming even clearer that the current approach of applying 
strict indecency regulation only to over-the-air broadcasting is 
ineffective and unsustainable. And because the vast majority of 
broadcasters do not violate the rules that are now applied to them, 
additional regulation is warranted.
    Making rules stricter for broadcasters alone will have little 
impact on the overall programming delivered to consumers. I urge you to 
focus on crafting fair and balanced legislation that applies equally to 
all media and maximizes a parent's ability to use the tools available 
to them to protect their children from any content they believe is 
inappropriate.
    In this Committee's Forum on Indecency last November, you invited 
representatives from many different segments of the entertainment 
business to talk about the issue of indecency. That you did so 
demonstrates your understanding that children today have ready access 
not just to broadcast programming, but to cable and satellite 
programming as well. In such a world, to be effective, efforts to 
protect children must be applied equally across media.
    The ineffectiveness of regulations focused only on broadcasters is 
even more apparent when one considers that the vast majority of 
broadcasters have never had the FCC take any action against them for 
airing indecent material. Consider these numbers: in 2002, only 8 of 
more than 15,000 stations received a Notice of Apparent Liability (NAL) 
from the FCC for airing indecent programming. In 2003, the number of 
stations cited was only 15. While, in 2004, the FCC proposed fines 
against a total of 208 stations, the proposed fines for 189 of the 
stations grew out of two programs (20 Viacom-owned stations that aired 
the Super Bowl and 160 FOX affiliates that aired ``Married by 
America.'' Petitions for Reconsideration of these proposed fines are 
still pending at the FCC).
    It makes very little sense to pretend that regulating over-the-air 
broadcasting alone furthers the government's goal of limiting the 
likelihood that children will be exposed to indecent programming. Given 
the remarkably rapid growth of cable and satellite television, the 
Internet and now satellite radio, traditional over-the-air broadcasters 
represent only a small portion of the content available to consumers. 
See generally 2002 Biennial Regulatory Review, Report and Order, 18 FCC 
Rcd 13620 (2003).
    The Committee should also consider that of the many millions of 
hours of programming aired by radio and television broadcasters, only 
an infinitesimal amount has been the subject of an indecency complaint, 
let alone an actual forfeiture. As former FCC Chairman Powell testified 
in 2004 to the House Committee on Energy and Commerce, of the 240,350 
indecency complaints received by the FCC in 2003, 239,837 (or 99.79 
percent) pertained to only nine programs. See, Letter from Michael K. 
Powell, Chairman, FCC, to The Honorable John D. Dingell, Ranking 
Member, Committee on Energy and Commerce, U.S. House of Representatives 
at Exhibit 1 (March 2, 2004). In 2004, some 1,405,419 complaints 
related to only 314 programs out of all the many programs aired that 
year.
    While it is true that the FCC continues to receive complaints of 
indecency, it is not clear that those complaints demonstrate a 
widespread problem that warrants legislation, especially if it applies 
only to over-the-air broadcasting. For instance: Broadcasting and Cable 
magazine reported that of the over 23,000 indecency complaints that 
were filed at the FCC in July, 2005, all but five of those came from 
one entity. In the same vein, MediaWeek reported in December 2004, that 
99.8 percent of all indecency complaints filed at the FCC in 2003 and 
99.9 percent of the non-Super Bowl indecency complaints filed with the 
agency through September 2004 were brought by the same group. Thus, one 
can legitimately ask, is there a real problem or is there a perception 
of a problem created by the ease with which complaints can be generated 
in our modern technological world?
    Another fact that came out in this Committee's Forum was that 
widely available blocking technology offers parents a viable means of 
screening the programming that comes into their home. Perhaps most 
notable is the so-called V-chip, which was mandated by Congress as part 
of the Telecommunications Act of 1996 in order to empower parents to 
control the video programming available to their children. See, Section 
551, Telecommunications Act of 1996. See also, Statement of Senator 
Burns, 142 Cong. Rec. S702 (daily ed. Feb. 1, 1996) (describing the 
``V-chip technology as an aid for parents'' and as a ``tool for 
parents'' ). By law, the V-chip is in every television set 13'' or 
larger sold in America today. Coupled with the television ratings 
system, this tool is a parental control device that spans across all 
methods of video delivery.
    The V-chip and program rating information provide tools that 
parents can use, if they wish, to supervise their children's viewing 
choices. According to a Fall 2004 survey by the Kaiser Family 
Foundation, 50 percent of all parents report using television ratings 
to ``help guide their children's television choices,'' and ``the vast 
majority'' (88 percent) of those parents say that they found the 
ratings ``useful.'' Parents, Media and Public Policy: A Kaiser Family 
Foundation Survey at 4-5 (Fall 2004). Moreover, there are other 
blocking tools available to parents such as the ``TV Guardian,'' which 
automatically filters offensive language from pre-scripted television 
shows (whether broadcast or subscription) and from VHS and DVD movies. 
See http://tvguardian.com/gshell.php (last visited January 16, 2006). 
And, as we enter the world of digital radio, blocking technologies are 
also available for radio programming.
    The fact that these tools exist cannot be blithely ignored. That 
some parents may choose not to use the V-chip or other blocking tools 
cannot diminish its significance to your deliberations on the issue of 
indecency. Simply put, promoting the use of blocking technology is a 
less restrictive means of accomplishing the government's goal of 
limiting the possibility that children will be exposed to indecent 
material. See, Ashcroft v. ACLU, 542 U.S. 656 (2004). That is very 
important to all who cherish the First Amendment protections that are 
so important to our democracy.
    As I know this Committee recognizes, draconian fines and other 
threats against over-the-air broadcasters raise grave concerns about 
broadcasters' right of free speech. The increased focus on indecent 
programming has already had a significant chilling effect. Local 
stations are concerned about broadcasting live from local events where 
stations cannot completely control what observers and by-standers might 
say or do. For example, television stations in Phoenix stopped 
broadcasting the live memorial service for Army Corporal Pat Tilman, 
who left a pro-football career with the Phoenix Cardinals and was 
killed in Afghanistan, because of the language used by some of the 
mourners, including family members. Broadcasters have also edited out 
language used by soldiers in news reports from Iraq. And, many local 
broadcasters were reluctant to air the WWII war movie Saving Private 
Ryan because of uncertainty about FCC indecency enforcement.
    Increasing fines and creating a greater possibility that alleged 
indecency could affect station licenses will only exacerbate this 
problem. Large fines for even inadvertent incidents could drive some 
broadcasters, particularly those in small and medium markets, out of 
business. It will also create an atmosphere of government censorship as 
broadcasters are forced to avoid popular genres such as hip-hop because 
government regulators find that programming tasteless or offensive.
    For this reason, NAB submits that a new paradigm is necessary. It 
is NAB's position that any indecency legislation must have clear 
guidelines that are applied in a fair and consistent manner across all 
media providers. Consumers should have the same expectations as to all 
programming that comes into the home, and legislation should address 
the fact that consumers do not readily distinguish between programming 
that is provided over-the-air and other programming. Legislation should 
also recognize the importance of technology in solving these issues in 
a manner more consistent with the First Amendment. See, Ashcroft v. 
ACLU, 542 U.S. 656 (2004).
    NAB further submits that, if the Committee alters the indecency 
regime, it should also build in culpability protections to provide 
balance and avoid unintended consequences. Clearly a station's ability 
to review and reject programming on a timely basis should be taken into 
account. In addition, not all indecency violations are the same. 
Unintended violations are not the same as flagrant violations of the 
rules and should not be treated in the same manner. For example, a 
station that has taken every reasonable precaution but still has a 
slip-up on live programming should not be treated the same as another 
that either purposefully or negligently violates the rules. Any regime 
must build in guidelines to address the issue of culpability.
    The challenge for you as lawmakers is to decide what to do in the 
face of today's media realities.
    As public licensees, broadcasters take seriously our obligation to 
offer responsible programming that serves our local communities. We 
understand the concerns of our communities and strive every day to 
create compelling content that will interest, entertain and inform our 
audiences. We look forward to working with you to help focus your 
effort to address concerns about indecent programming in a fair and 
balanced manner that will not chill free speech.
    I thank you for this opportunity to appear before you.

    The Chairman. Thank you very much.
    Our next witness is Brent Bozell. Welcome back. He is 
President of the Parents Television Council of Alexandria, 
Virginia. Mr. Bozell.

 STATEMENT OF L. BRENT BOZELL, III, PRESIDENT/FOUNDER, PARENTS 
                       TELEVISION COUNCIL

    Mr. Bozell. Thank you. Good morning, Chairman Stevens and 
Co-Chairman Inouye and Senator Pryor. My name is Brent Bozell 
and I am the founder and President of the Parents Television 
Council, a nonprofit, nonpartisan organization that speaks on 
behalf of the vast majority of Americans who are sick and tired 
of the graphic sex, the ultra-violence, and the raunchy 
language that is now pouring out from many quarters over the 
public airwaves or on cable programs that the American public 
is being forced to subsidize.
    Mr. Chairman, the industry must abide by community 
standards of decency while using the public airwaves. This is 
not a proposal. This is law, well-settled law that was affirmed 
by the Supreme Court 3 decades ago. Those who violate the 
public trust are breaking that law and must be held 
accountable.
    Nearly 2 years ago, Congress promised swift action to put 
an end to this raunch. Twice now, the House has passed 
legislation to increase decency fines by an overwhelming 
bipartisan margin, most recently by a vote of 389 to 38. 
Despite genuine expressions of concern, of deep concern, from 
so many in the Senate about protecting families from graphic 
and indecent programming, here we sit again.
    The Senate must pass the Broadcast Decency Enforcement Act 
immediately and should send it to the President for his 
signature. We do not suggest a change in the indecency law, 
only a change in the penalties for those who break that law.
    You are being told that the TV rating system is enough to 
protect children, that ultimately it is up to parents to do 
something about the problem caused by Hollywood. This to me is 
an amazing dodge. The rating system has been an inconsistent, 
inaccurate, arbitrary and capricious mess, and now the industry 
is sitting here before you and is telling you to believe that 
it is going to be serious, this time it is going to be serious, 
and responsible about a better rating system. But is that not 
precisely what they promised you 9 years ago when they launched 
it? Fool me once--you have heard that jingle, but let me amend 
it now with respect to this Committee: Fool you twice, shame on 
you.
    Even if it were accurate, so what? It does nothing to stem 
the raunch pouring out of the public airwaves, nothing at all. 
Just over a year ago, Viacom agreed to a consent decree with 
the FCC--and this addresses Senator Allen's point--to resolve 
all the outstanding indecency complaints for what was a 
relatively small sum for a company its size. Yet just weeks 
later Viacom's CBS Network re-aired an episode of ``Without a 
Trace'' that included a scene of a teenage orgy, the very same 
episode and the very same scene which was addressed in the 
consent decree.
    Mr. Chairman, the penalties for breaking the law are 
useless and must be increased and enforced, with revocation 
hearings mandated for those who repeatedly, willfully break the 
law. Let us be very clear about this. The only people affected 
by this are those who are breaking the law.
    Now to cable. Consumers must--I repeat, must--be free to 
pick and choose and pay for only those cable networks they 
want. The so-called expanded basic tier networks are airing 
some of the most graphic and shocking content imaginable. 
Several weeks ago, the FOX-owned FX Network aired a program 
wherein a funeral home worker assembled various body parts from 
cadavers, stitched them together, added his sister's head to 
the body, and then had sex with this Frankenstein-like 
creation. Call it incestuous necrophilia.
    That same network also aired a different program featuring 
a police captain who broke into a house to arrest two gang 
members, and when the gang members prevailed one of them held a 
gun to the kneeling police captain and forced him to perform 
oral sex on him. The scene was revolting, with graphic dialogue 
and the police captain gagging on the gang member's penis.
    Over on Comedy Central, a Viacom-owned network, animated 
grade school children masturbate a dog until it ejaculates. 
They sit in a classroom while a teacher inserts a gerbil into 
another man's rectum as part of a science experiment. The 
children watch a competition called a ``whore-off,'' won by a 
female character who inserts an entire pineapple into her 
vagina.
    Two weeks before Christmas, the same show featured a scene 
with a statue of the Virgin Mary with blood pouring out of her 
buttocks. When some declared this to be a miracle, they were 
corrected by the pope-figure on the show, who declared: ``A 
chick bleeding from her vagina's no miracle; chicks bleed out 
of their vaginas all the time.''
    Mr. Chairman, some may choose to watch and pay for this 
content, but it is outrageous that 80 million other American 
families who find this so morally offensive are being forced to 
subsidize it if they want to watch the Disney Channel, the Golf 
Channel, the History Channel, or a football game on ESPN. 
Something can and must be done about this.
    My time is up. Mr. Chairman, Mr. Co-Chairman, Senator 
Pryor, I ask you this question with all due respect. Who are 
you going to listen to in this debate?
    I would like to add one final quick point. We have heard 
all morning long, as I have heard for years now, everyone used 
the words ``parental rights,'' ``parental empowerment,'' and 
now ``parental responsibility.'' Everyone has used it. The 
ultimate parental responsibility, parental right, parental 
empowerment, is giving the parent the right and the authority 
to choose what will be aired on his television set or her 
television set.
    I respectfully add that anyone who will give a speech 
advocating parental rights, but will not agree to allow to give 
parents rights, has lost the moral authority to talk about that 
conversation. Thank you.
    [The prepared statement of Mr. Bozell follows:]

Prepared Statement of L. Brent Bozell, III, President/Founder, Parents 
                           Television Council
    Good morning, Chairman Stevens, Co-Chairman Inouye and Members of 
the Committee. My name is Brent Bozell and I am the founder and 
president of the Parents Television Council, a non-profit, non-partisan 
organization whose mission is to protect families from graphic sex, 
violence and profanity in entertainment. Thank you for holding this 
hearing today. Millions of Americans are looking to the Senate to 
fulfill its promise to increase the financial penalty for those who 
break the law which prohibits the broadcast of indecent material over 
the public airwaves. They are also demanding you do something about a 
system that is forcing them to subsidize cable content they find 
morally offensive.
    Mr. Chairman, there has been an awful lot of talk about this issue 
over the past two years, with a number of ``solutions'' offered by the 
broadcast and cable industries. I put the word ``solutions'' in quotes 
because so much of this is feints, dodges and smokescreens that 
ultimately does nothing--nothing--to correct the problem. There are 
real solutions. Virtually every person testifying before you today 
represents a vested special interest and will say, and spend whatever 
it takes to protect their special interest. We speak on behalf of 
another special interest altogether: the vast majority of Americans 
sick and tired of the sewage pouring out of their airwaves, or on cable 
programs they are being forced to underwrite.
    After your ``Open Forum'' on November 29th, I wrote you and the Co-
Chairman a letter in which I proposed a three-point solution. I 
formally submit this three-point solution to you and to the Committee 
again today as a reasonable resolution to both the broadcast and cable 
issues. Simply put, the three points are as follows: There must be real 
penalties for those who violate broadcast indecency laws, therefore 
fines must be increased. Second, if aired outside the so-called ``safe 
harbor'' period, indecent material should be limited to cable. Third, 
consumers should be free to pick and choose--and pay for--only those 
cable networks they want.
    Please allow me to explain this solution and elaborate on my 
comments in that letter.
    Mr. Chairman, the broadcast airwaves are public property. They 
belong to the people. All the people. Broadcasters are given a 
license--a temporary right--to use this public property in exchange for 
a promise to serve the public interest. Not long ago, FCC Commissioner 
Michael Copps testified before this Committee and noted that the term 
``public interest'' appears 112 times in the Communications Act of 
1934. Sometimes public interest and corporate interest go hand-in-hand. 
And sometimes they do not. Some at this hearing confuse Nielsen 
ratings, advertising revenue or even Emmy Award nominations with public 
interest. That is an error in premise, Mr. Chairman, and it leads to 
error in conclusion.
    The industry must abide by community standards of decency while 
using the public airwaves. This is not a proposal; this is law, well-
settled law that was affirmed by the Supreme Court three decades ago. 
The airwaves must remain safe for families. Those who violate the 
public trust are breaking the law and must be punished accordingly.
    Nearly two years ago, the American people were outraged by a 
striptease act during the Super Bowl's halftime show--the most-watched 
television program of the year, beamed, to our shame, around the world, 
and watched here at home by tens of millions of young children. In the 
wake of that well-deserved outrage, the Congress promised swift action 
to prevent a similar occurrence and the Administration promised to sign 
the new legislation. The House quickly passed a bill to increase the 
indecency fines by an overwhelming bipartisan margin. The Senate was 
unable to bring similar legislation to the floor for a vote. At the end 
of 2004 nothing had been achieved.
    Early in 2005, the House again passed the Broadcast Decency 
Enforcement Act with a huge and bipartisan majority, 389 to 38, to be 
exact. And, yet, here we are again. All year long we heard how deeply 
concerned this Committee and the Senate as a whole were about 
protecting children from those who would use the public airwaves to 
pollute our family's living rooms. And nothing was done.
    So, the first point of my three-point solution is that the Senate 
must pass the Broadcast Decency Enforcement Act and immediately send it 
to the President for his signature. We do not suggest a change in the 
indecency law, only a change in the fines for those who break that law. 
The existing fine structure is meaningless. Legislation that increases 
the fine for violations to $500,000 per violation, per affiliate, with 
a ``3 strikes'' license revocation hearing mandated for repeat 
offenders, is a solution.
    Now let me tell you what is not a solution. You are being told that 
the entertainment industry bears no responsibility when it produces 
``cutting edge'' material; that that the V-Chip, the TV ratings system 
and parental control devices are enough to protect children; that 
ultimately it's up to parents to do something about the problem caused 
by Hollywood. But these are all dodges. The V-Chip is a dodge. It 
relies on a reliable ratings system, but as the PTC publicly exposed 
last year, the ratings system is inconsistent, inaccurate, arbitrary 
and capricious, not just across the various networks but even within a 
network. And understand why this is so: the networks themselves rate 
their programs, and will not do so accurately because they cannot 
suffer the consequences. If they rate the program too steeply--that is, 
ascribing to it the correct adult warnings--many prominent advertisers 
will not sponsor the program. There is an inherent and unmistakable 
conflict of interest.
    So long as the television rating system is a failure, the V-Chip 
will continue to be a failure as well. But wait. Now the industry would 
have you believe it is going to be serious--this time--and responsible 
about a better ratings system. But isn't that precisely what they 
promised you nine years ago when they launched it? They have been 
mocking the public for nine years. ``Fool me once . . .'' you've heard 
that jingle, but let me amend it with respect to this Committee: ``Fool 
you twice, shame on you.''
    Opponents of an indecency fine increase will also tell you that the 
current fine structure is adequate deterrence to airing indecent 
material. Do not be fooled by this. In spite of emotion-filled 
Congressional testimony of network executives preaching zero-tolerance 
policies for indecency violations, the truth is that the networks have 
not lived up to the promises they made to you. Instead they waited for 
the media attention to blow over and they went right back to doing what 
they had been doing before. Here's just one example. Just over a year 
ago, Viacom agreed to a Consent Decree with the FCC to resolve all of 
its outstanding indecency complaints for what was a relatively small 
sum for a company of its size. In that Decree, Viacom admitted to 
airing indecent material and agreed to institute a company-wide policy 
to ensure against the further violation of indecency law. However, just 
weeks after signing that Consent Decree, Viacom's CBS network re-aired 
an episode of Without a Trace that included a scene of a teen sex orgy. 
This was the very same episode and the very same scene which was the 
subject of an indecency complaint addressed in the Consent Decree. 
Another example: A few short months ago CBS aired an episode of NCIS, 
which began with the scene of a woman performing a striptease for a 
voyeuristic Internet audience. During the course of her striptease the 
woman was savagely murdered, graphically depicted as having her throat 
slit--all before the opening credits even roll. As if a broadcast which 
depicts Internet pornography and a throat-slitting isn't bad enough by 
itself, this scene was aired at the top of the 8:00 p.m. hour--7:00 
p.m. in the central and mountain time zones--when millions of children 
were watching television.
    It's not just CBS, Mr. Chairman, which is making a mockery of the 
indecency laws. Although the concert was a noble idea, and despite 
every assurance from the network, and even despite a several hour tape 
delay, ABC aired an unedited F-bomb during its broadcast of the Live 8 
concert. And this past summer, the FOX network aired an episode of The 
Inside which highlighted a forced sodomy scene. Sadly there are many, 
many more examples of the broadcast television networks' utter 
disregard for the spirit and the letter of law.
    Mr. Chairman, the fines for breaking the law must be increased. 
Unless and until they are increased, the networks with their billions 
of dollars will continue to break the law and flaunt the public's will. 
Additionally, the network affiliates must be given the unfettered 
ability to prescreen programming and, without the risk or fear of any 
economic retribution by the network, the affiliates should be allowed 
to preempt or edit programs which they believe may violate their 
community standards.
    I've used this metaphor with you before: Imagine that we are 
talking about public highways, not public airwaves. If there's a 
pothole in the middle of the road, do you solve the problem by putting 
up signs, and arrows, and signal flares warning drivers about the 
pothole, or do you fix the pothole? What the networks are proposing is 
adding more signs. What they need to do is fix the pothole.
    The second point of my proposed three-point solution is simply 
this: if indecent material is to be aired outside the so-called ``safe 
harbor'' period, then it should be relegated to the cable networks. We 
hear many broadcasters complain that allowing indecent material on 
cable, but not broadcast, creates an un-level playing field, putting 
them at a competitive disadvantage with cable. Do not be fooled by this 
smokescreen. Studies show that six companies--AOL Time Warner, Liberty, 
ABC/Disney, CBS/Viacom, NBC/Universal and FOX/Newscorp control 
approximately two-thirds of all viewers on television. In short, they 
control both sides of the coin. In addition, doesn't it strike you as 
odd that broadcasters never seem to feel the need to compete with the 
positive programming on cable? Seven of the top ten most popular shows 
on cable last week we're all on Nickelodeon. Broadcasters must be 
reminded that their status as a broadcast licensee puts them in a 
different position: one of public trust. If they feel the playing field 
is not level, they have every ability not to use the public airwaves 
and instead seek distribution via cable or satellite.
    My third and final point is that consumers should be free to pick 
and choose--and pay for--only those cable networks they want. This 
ensures that indecent cable programming is indeed an ``invited guest'' 
into the home. Some call it ``Cable a la Carte,'' others call it 
``Cable Choice.'' We don't suggest that the cable industry be 
prohibited from selling programming in bundled tiers; we do suggest 
that they must offer unbundled programming as one choice for their 
subscribers.
    Let me tell you why Cable Choice must--I repeat, must--happen. In 
recent weeks and months, a number of the so-called expanded basic tier 
networks have aired some of the most graphic and shocking content 
imaginable. I'm not talking here about HBO or some sort of pay-per-view 
channel; I'm talking about advertiser-supported basic and expanded 
basic cable; what families are given to take when they subscribe to 
this service.
    Several weeks ago the FX network, owned by the News Corporation, 
aired a program featuring a storyline wherein a funeral home worker 
preserved his deceased sister's head. He assembled various body parts 
from cadavers and stitched them together, adding his dead sister's 
head. And then he had sex with his Frankenstein-like creation. Call it 
incestuous necrophilia.
    Not long ago that same network also aired a different program with 
an episode featuring a police captain who broke into a house to arrest 
two gang members. There was a struggle for a gun, and when the gang 
members prevailed, one of the gang members held the gun to the head of 
the kneeling police captain and forced him to perform oral sex on him. 
The scene was revolting, with graphic dialogue and the police captain 
gagging on the gang member's penis.
    Over on Comedy Central, a Viacom-owned network, animated grade 
school children masturbate a dog until it ejaculates. They sit in a 
classroom while a teacher inserts a gerbil into another man's rectum as 
part of a science experiment. And the children watch a competition 
called a ``whore-off'' which is won by a female character who inserts 
an entire pineapple into her vagina. Two weeks before Christmas this 
same show featured a scene with a statue of the Virgin Mary, with blood 
pouring out of her buttocks. When some declare this to be a miracle, 
they are corrected by the pope-figure, who declares, ``A chick bleeding 
from her vagina is no miracle. Chicks bleed out their vagina all the 
time.''
    Mr. Chairman, it would be one thing if these networks were 
supported by subscribers who wanted to watch such filth. It is wholly 
another thing for you, me, and 80 million other American families to be 
forced to subscribe to these networks--to underwrite the production of 
this material--in order to watch the Disney Channel, the Golf Channel, 
the History Channel or a football game on ESPN.
    The cable industry will say just about anything to prevent 
consumers from their right to take and pay for only the programming 
they want. First, they said that it was technically not feasible to 
have a consumer-driven a la carte subscription model. That falsity was 
quickly exposed by virtue of the rapid growth in digital set-top cable 
boxes. Next, the industry said it would spend $250 million to educate 
consumers how to block networks from coming into their homes. But 
again, this was quickly exposed as a red herring, for customers had to 
pay for the networks that they chose to block. The industry then 
claimed program diversity would be ruined with an a la carte model. 
Niche and targeted networks would go bankrupt, they said. But wait a 
minute. Hasn't the industry for years defended its programming, even 
its offensive programming as necessary to satisfy market demand? It 
just can't have it both ways! The industry then struck fear into the 
hearts of many by arguing that Cable Choice would cause consumer prices 
to increase, not decrease, and would result in fewer channel 
opportunities, not more. This is simply outrageous. First, when in the 
history of commerce has increased competition resulted in higher 
prices? And second, for more than a decade the industry itself has been 
increasing consumer prices at three or four times the rate of 
inflation, with all the proceeds going into its own pockets. The 
industry is more than happy to feather its own nest at the expense of 
the consumer, so long as they can do it without bringing undue 
attention on their pricing scheme.
    For instance, after NBC completed its recent acquisition of 
Universal Studios, a quick look into the television program archive 
vaults led to the creation of a new cable network called Sleuth, 
comprised of police dramas. With its unfair negotiating leverage over 
the cable distributors, NBC can assure carriage of Sleuth in most of 
the 80 million cable homes in the U.S. Media reports state that NBC is 
commanding 10 cents per subscriber per month for its newest cable 
network. This translates into nearly $100 million in new annual revenue 
to NBC but at a barely noticeable dime per month for most customers. To 
paraphrase the old saw, a dime here and a dime there, and soon you're 
talking real money.
    Last November at the Open Forum, you heard representatives from the 
American Cable Association, which represents nearly 900 small and 
independent cable systems, and DISH Networks, the second-largest 
direct-to-home satellite provider. Those two representatives told you 
that they wanted to offer their customers Cable Choice but they were 
prohibited by the networks from doing so. Clearly there is a ``cozy'' 
relationship between the networks which takes the form of an anti-
competitive and monopolistic practice. One wonders how much longer this 
kind of behavior can last without an antitrust investigation.
    In the weeks since your Open Forum last November, we have seen the 
cable industry do something it said it would never do: offer a family 
tier of programming as a prescription for increasingly raunchy cable 
content. It sounded good, Mr. Chairman, but don't be fooled. There is 
one reason and only one reason why a family tier of programming was 
offered: it was offered to appease you; to throw you a bone in the hope 
that it would table any potential action by your Committee. The family 
tier solution is the last-ditch attempt by the cable industry to 
prevent Cable Choice--the a la carte pricing system--from becoming 
reality.
    The cable industry's sudden embrace of the family tier model is 
quite possibly its most cynical response yet. In fact, they have 
designed these family tiers to fail, because they would like nothing 
better than for the family tier concept to fail so they could claim 
after the fact that no demand exists for a different way of doing 
business in the cable industry.
    The cable industry executives who have concocted this plan will be 
hard pressed to find many consumers, even their own employees, to whom 
the proposed family tier would hold any great appeal. After Time Warner 
released its ``family'' tier lineup, we documented no less than 27 
separate networks that are totally, or mostly family-friendly, that 
didn't make the list. According to this company, no family wants to 
watch sports, or movies, or religious programming: all networks devoted 
to these themes were omitted. What Cox and Comcast have offered varies 
slightly, but not much.
    Another problem with the family tier approach involves the must-
carry ``basic'' tiers that customers will necessarily subscribe to in 
order to get access to the family tier of programming. In all cases, 
the basic tier would include the local broadcast stations, but in many 
markets this basic tier includes some cable networks. For example, TBS 
is carried as part of many cable distributors' most basic tier, and 
carries the former HBO show Sex and the City several nights per week. 
This show, as you likely already know, includes some of the most 
shocking sexual and profane content imaginable, including references to 
group sex, masturbation, sex toys, and fellatio.
    Our position is clear: if FCC oversight of cable programming were 
the only option to address raunchiness on cable, we would take it. But 
there is a better way, and that is to provide cable channel choice to 
America's families. It is the only option available that creates a real 
free market in the cable industry.
    The problem of indecency on television is a serious one. The public 
is fed up with and appalled at the Senate's inability to address the 
issue. Let us be very clear where the American people stand: According 
to the Pew Research Center, 75 percent of the American public is 
demanding tighter enforcement of government rules on broadcast content, 
particularly when children are most likely to be watching. Sixty-nine 
percent of the American public also are demanding higher fines for 
media companies that violate the law. Where cable choice is concerned, 
the numbers are no different. According to a Wirthlin poll conducted 
for Concerned Women for America, 80 percent of the American people 
disagree with the way the cable tier pricing system currently 
functions. Sixty-six percent of cable subscribers--that's 2 out of 3--
say they prefer to choose for themselves the programming included in 
their cable subscriptions. And here's another number that should factor 
into the equation for everyone involved: when non-cable subscribers 
were asked if they would be more likely to subscribe to cable if they 
could choose the programming included in their cable package, 66 
percent said they would be more likely to subscribe, 39 percent of that 
number say they would be ``much more likely to subscribe.''
    That is the market response. That is what the American people want. 
Everything else you're hearing is the voices of special interest who 
are forcing the American public, your constituents, to subsidize, for 
their profit, what is on cable television, or to put up with an abuse 
of the public trust by the constant, and often wretched abuse of the 
public airwaves.
    Mr. Chairman, Mr. Co-Chairman, and Members of this Committee, I ask 
this with all due respect: Who are you listening to? Thank you.

    The Chairman. Thank you.
    Our next witness is Martin Franks, the Executive Vice 
President of CBS from New York City. Mr. Franks, nice to have 
you back.

         STATEMENT OF MARTIN D. FRANKS, EXECUTIVE VICE 
          PRESIDENT, PLANNING, POLICY AND GOVERNMENT 
                   RELATIONS, CBS CORPORATION

    Mr. Franks. Thank you, Senator Stevens, Senator Inouye, 
Senator Pryor. Thank you for this opportunity to detail the 
care CBS devotes to a role we take very seriously, that of a 
guest in America's living rooms. The CBS Standards and 
Practices Department, which reports to me, reviews each 
program, each commercial, and each promotional announcement 
before any one of them ever reaches our air. In the case of 
prime time programs, that process involves careful scrutiny and 
revision of at least multiple drafts of scripts, a video rough 
draft, known as the rough cut, and the final air copy. From 
that final air copy, standards determines the appropriate V-
Chip rating.
    We do not assign those ratings on a wholesale basis. Each 
show is reviewed and rated individually in order to help inform 
parents as to that program's appropriateness for their 
household. On any script with even a hint of possibly indecent 
material, a separate review is performed by the CBS Law 
Department. That show does not reach air until both the Law and 
Standards Departments are convinced that it is free of indecent 
content.
    Every live entertainment program on CBS is now subjected to 
an audio and a video delay system so we can delete offensive 
language or video images. And while it may now be obvious to 
you that we would put a live award or reality show on a delay, 
last November the Macy's Thanksgiving Day Parade on CBS was 
also on a delay, in case the random streaker or offensive sign-
bearer decided to try to take advantage of our air for their 
own purposes. And while they could walk away without 
repercussion, CBS and our affiliates would be subject to 
millions of dollars in fines and potential license revocation.
    Permit a word for those who say that more family-friendly 
programming is the solution. In the mid to late 1990s, as a 
conscious programming and business strategy, CBS offered 
wonderful family friendly programming in the 8 o'clock hour: 
``Touched by an Angel,'' ``Bill Cosby,'' ``Dr. Quinn,'' 
``Promised Land.'' And we got killed in the marketplace. 
Advertisers and the audiences they covet made other viewing 
choices in droves. Given a choice, the audience voted with 
their remote controls for edgier fare.
    Let me be clear. CBS would be happy to go back to the 
three-channel era, when a family viewing hour was not subject 
to counterprogramming pressure. But in today's world of 
hundreds of channels, a state of affairs frequently praised in 
other public policy debates as, ``viewer choice and 
diversity,'' looking back lovingly at the past that cannot be 
recreated will not guide us toward a solution for today.
    So what can be done? As I told the Committee on November 
29th, I am surprised that so many are ready to give up on the 
V-Chip, a system already in place that can be used to block 
unwanted programs. It is not perfect, but neither would any new 
system be. It is a tool already in millions of television sets 
today, and with the millions of new sets that will be sold as a 
result of this Committee's proposed hard deadline for the 
digital transition, many more millions of V-Chip-equipped sets 
will enter the marketplace annually.
    Moreover, in the month since the Committee last met on this 
subject, under the remarkable leadership of Jack Valenti, the 
entire television industry--broadcast, cable, satellite, 
television set manufacturers, and Hollywood--has come together 
in an unprecedented unified effort and has engaged the Ad 
Council to guide us through a sustained industry-wide national 
campaign to educate parents on the ready availability of 
blocking technology in their sets, its ease of use, and how 
they can use it to block unwanted programs from ever entering 
their living rooms.
    As strongly as I can, I urge the Committee to give this 
effort a chance to take hold. In 20 years in the business, I 
have never seen the industry come together in this fashion. It 
is far from the norm. Frankly, I believe this campaign is the 
best chance by far for both a near and a long-term solution to 
helping parents supervise their children's television viewing. 
If our mutual primary focus is to help parents, then by 
comparison stiffer penalties for indecency will not help them 
much at all.
    Thousands of hours of television programming are available 
each year and only a very few of those hours are even accused 
of indecency, much less found guilty. But of those thousands of 
hours, a great many may not be appropriate for children. A 
fines bill will not help parents with that cascade of otherwise 
perfectly legal programming coming into their homes. Only 
helping parents understand that they already have effective 
blocking technology that is easy to engage will help address 
the real issue facing American parents.
    It is my fervent hope that you will help us advance this 
effort to help American parents, because this is much more 
central to their everyday lives than what the penalty will be 
for a small handful of programs found to be indecent.
    Thank you.
    [The prepared statement of Mr. Franks follows:]

   Prepared Statement of Martin D. Franks, Executive Vice President, 
       Planning, Policy and Government Relations, CBS Corporation
    Good morning Chairman Stevens, Co-Chairman Inouye and Members of 
the Committee. I am Martin D. Franks, Executive Vice President, 
Planning, Policy and Government Relations for the CBS Corporation. I 
appreciate the opportunity to appear before you today on the topic of 
decency on television.
    We at CBS know that we are a guest in viewers' living rooms. Thus, 
aside from any legal regulatory requirements that govern our content, 
we strongly believe that we have an obligation to remain attuned to our 
audience and its needs, tastes, sensibilities and expectations.
    One of my responsibilities is overseeing the CBS Television 
Network's Standards and Practices Department which reviews all scripted 
and reality programming, movies, commercial messages and promotional 
announcements before they air. In the case of prime time programs, that 
process involves careful scrutiny and revision of multiple drafts of 
scripts, including the video first draft, known as the rough cut, and 
the final air copy. From that final air copy, the Standards Department 
determines and applies the appropriate TV ratings. We do not assign 
those ratings on a wholesale basis. Each episode of each show is 
reviewed and rated individually.
    When any script contains even a hint of possibly indecent material, 
a separate review is performed by the CBS Law Department, and such a 
show does not reach air until it has passed muster by both CBS Law and 
Standards and Practices.
    For live entertainment programming, CBS for years has employed 
delay equipment to make possible the deletion of unanticipated 
offensive language. But this system is designed to catch only audio. 
With respect to video, the first line of defense for our network, and 
for that matter, the entire industry, at live news, entertainment and 
sporting events, has been to ``cut away the camera,'' averting the 
camera's eye away from inappropriate graphic subjects.
    Given the history of broadcast television up until fairly recently, 
deleting troublesome video has never been a concern, except perhaps for 
the occasional streaker dashing across a sports field, a circumstance 
we all have become fairly expert at avoiding.
    Unfortunately, we now understand all too well that people in front 
of a live camera--whether it be a celebrity on an awards show, a fan in 
the stands of a sporting event, or even a bystander at the Macy's 
Thanksgiving Day Parade--can push the limits of appropriateness and 
yield ineffective the cut-away camera, our first line of video defense. 
The consequences of serving our viewers by delivering to them in the 
comfort of their living rooms live events for free that they are unable 
to attend in person can be severe: We are liable for potentially heavy 
monetary and licensing penalties for broadcasting video that contains 
fleeting images of people who take advantage of our air for their own 
purposes and without any liability on their part.
    CBS has responded by implementing for all live entertainment 
programming, an enhanced delay system for deletion of any inappropriate 
audio and/or video footage, if needed. Developed by CBS engineers, and 
first put in place for the 2004 Grammy Awards, the system is 
groundbreaking, costly to operate and maintain, and requires skilled 
operators able to work under extraordinary pressure. After all, a 
baseball player who fails six times out of ten at the plate is a cinch 
for the Hall of Fame, whereas the Standards Editor who bats only .999 
is subject to Federal investigation as well as fines and license 
revocation for his or her employer.
    Despite our efforts to do everything technically, mechanically and 
humanly possible to eliminate inappropriate language and behavior, we 
do worry that anything more drastic could mean the elimination of live 
programming in this country. That would not be a good outcome for 
viewers of broadcast television, who are now able to access for free 
major live sports and entertainment events.
    As broadcasters, we have an obligation to operate in the public 
interest. The FCC and the courts have consistently interpreted this to 
require broadcasters to air programming that is responsive to the 
interests and needs of our communities. Our public interest duty, 
therefore, mandates that we serve a broad spectrum of America, and not 
just one narrow group. We must strive to inform and entertain a diverse 
population that forms the fabric of America. And we do: CBS offers 
among the best in news, sports, and entertainment, as well as 
educational and informational programming for children. Our 
entertainment programming includes scripted comedies and dramas, 
reality shows, original movies, and awards events. That this 
programming appeals to a wide cross-section of American tastes is 
demonstrated on the website of Parents Television Council. While I 
disagree with them often, I compliment Brent Bozell and the PTC for 
having the courage and intellectual rigor to be specific in their 
criticisms and rejecting overbroad generalizations. One way they do so 
is by singling out shows worthy of their praise, the ``best of'' list, 
and those that are not, the ``worst of'' list. CBS shows seem to end up 
on both of the PTC lists.
    Millions of Americans, however, disagree with PTC's ``worst of'' 
categorization. Week after week, for years now, millions of homes, in 
every market in the country--from Salt Lake City to New York City--tune 
in to shows on the ``worst of'' list. Two of those shows, for example, 
``CSI: Crime Scene Investigation'' and ``Without A Trace'' are among 
the top ten most popular shows in America, with some one-quarter of all 
households watching television making these programs their weekly 
choices. These shows, we concede, contain some scenes inappropriate for 
younger children (and they usually carry a V-Chip rating that reflects 
that fact), but they do so in a way that is integral to the context of 
an episode.
    Context is everything. Catching the bad guys who break the law and 
bringing them to justice is the theme of the forensic science program 
``CSI.'' The program reportedly is inspiring hundreds of college 
students to pursue a career in the field, in which at least one expert 
estimates an additional 10,000 scientists are needed nationwide. \1\ 
``Without A Trace,'' a drama about the missing persons unit of the FBI, 
necessarily recounts stories about the not-so-pretty disappearance of 
people, and concludes each program with FBI-supplied information about 
a real-life missing person. Just this past summer, a viewer responding 
to one of these segments led to the recovery of two missing children. 
\2\
---------------------------------------------------------------------------
    \1\ ``The CSI Effect,'' Nancy McGuire, http://www.chemistry.org/
portal/a/c/s/1/feature_ent.html?id=c373e9026ca0695f8f6a17245d830100, 
the website of the American Chemical Society, March 7, 2005.
    \2\ Federal Bureau of Investigation press release, July 25, 2005, 
http://oklahomacity.fbi.gov/pressrel/2005/jul25_05.htm.
---------------------------------------------------------------------------
    In a Nation with such diverse tastes and backgrounds, and where 
only about one-third of the homes have children, policymakers cannot 
and should not be deciding what Americans watch on television. These 
are fundamental decisions for those capable of making such decisions--
adult viewers and parents of child viewers. And what is appropriate for 
one viewer may not be for another. That is where the TV ratings and V-
Chip tools come in. The TV ratings system gives parents information 
about the age-appropriateness and content of television programs. And 
the V-Chip enables parents to automatically block programs by TV 
ratings. Beginning six years ago this month, Federal regulations 
mandated the manufacture of a V-Chip in all TV sets 13 inches and 
larger sold in this country.
    I am surprised that so many in Washington seem ready to give up on 
these tools. It is not perfect, but neither would any new system be, 
including a ``safe harbor'' for violent programming, which is 
contemplated by S. 616, the bill introduced by Senators Rockefeller and 
Hutchison. Defining violent programming and cordoning it off from 
children who have not yet been tucked into bed is a near-impossible 
exercise as evidenced by proposed solutions. For example, there are 
strong advocates of restricting the airing of violent material during 
certain hours who argue that league-sanctioned sponsored sports, such 
as NFL, NBA and NHL games, should be exempt. Yet, these advocates would 
not exempt professional wrestling, because it contains gratuitous 
violence. \3\ Other advocates of limiting violence to a safe harbor 
would carve out simulated war activities that are ``distant in time,'' 
as well as other combative activities, such as a ``shoot-out at the old 
corral'' or a Star Wars-type laser gun confrontation. \4\ It is unclear 
under these definitions whether ``Saving Private Ryan'' or 
``Schindler's List'' could ever be shown during prime time. And news--
if it is not made exempt from any safe harbor, coverage of stories 
involving war, crime and other potentially violent material would have 
to be shunted to certain hours of the day. And perhaps the same is true 
for traditional ``family-friendly'' nature programs, some of whose 
episodes are entirely devoted to bloody shark and hyena attacks. These 
are line-drawing activities meant for viewers and parents, not for 
Congress or the FCC.
---------------------------------------------------------------------------
    \3\ In the Matter of Violent Television Programming and its Impact 
on Children, FCC's MB Docket No. 04-261, Comments of Pappas Telecasting 
Companies, filed October 15, 2004.
    \4\ Id., Comments of Morality in Media, filed September 7, 2004.
---------------------------------------------------------------------------
    That brings us back to TV ratings and V-Chip. Broadcast and cable 
programmers all label their product with the TV ratings, which can be 
accessed and used by viewers without any additional technology 
whatsoever. These ratings include descriptors alerting viewers that an 
episode may contain violent or sexual content. And the V-Chip, as well 
as cable and satellite blocking techonology, found in millions of 
television sets and set top boxes today, can be programmed to block the 
receipt of programming carrying designated TV ratings. With the 
millions of new sets that will be sold as a result of this Committee's 
proposed hard deadline for the digital transition to be completed, many 
more millions of V-Chip-equipped sets will enter the market annually.
    Critics of these tools argue that parents have no idea how the V-
Chip works or even know that their television set contains one. The V-
Chip is worthless, they say. We agree that there is work to be done on 
educating consumers, and Jack Valenti came before this Committee today 
to describe an unprecedented cross-industry plan for communicating to 
parents about the power they have to control television in their homes. 
We appreciate the role this Committee played late last year in urging 
us all to act in unison. And we hope that you will all be patient as we 
roll out this first-of-a-kind campaign about tools that were sanctioned 
and enacted by Congress. It represents by far the best hope anytime 
soon to help parents control their children's television viewing.
    But let's not forget how far we have come already. Even back in 
July 2001, a mere 18 months after the V-Chip mandate for television 
sets became effective, The Henry Kaiser Family Foundation issued a 
study that found that 36 percent of all parents who were aware of the 
V-Chip used it to regulate their children's viewing habits. \5\ Of 
those parents who used the V-Chip, the study reported, 86 percent said 
it was useful for blocking shows. \6\ And of those parents who did not 
use the V-Chip, 51 percent said it was because their children usually 
watch TV with an adult in the vicinity, and 25 percent said it was 
because they trust their children to make the right decisions. \7\ As 
for the TV ratings associated with the V-Chip, 56 percent of parents in 
the 2001 study reported using them to make decisions about what shows 
their children watch. This is an impressively significant number for a 
new system, particularly when compared with use of the movie ratings 
system, which had been around for 33 years at the time and which 84 
percent of parents reported using. \8\
---------------------------------------------------------------------------
    \5\ ``Parents and the V-Chip 2001: A Kaiser Family Foundation 
Survey, Toplines,'' www.kff.org/entmedia/vchip.cfm, page 1.
    \6\ Id. at 13.
    \7\ Id. at 3.
    \8\ Id. at 1.
---------------------------------------------------------------------------
    Finally, let me mention ``family-friendly programming.'' In the 
1990s, as a conscious strategy, CBS offered several programs in that 
genre in the 8 o'clock hour: ``Touched by an Angel,'' ``Cosby,'' ``Dr. 
Quinn, Medicine Woman,'' and ``Promised Land.'' And we got killed in 
the marketplace. More recently, the first half of CBS's widely 
acclaimed ``Pope John Paul II'' miniseries was unable to capture even a 
third of the viewers compared to ``Desperate Housewives'' and far less 
than half that of ``Grey's Anatomy.'' And our ratings were only 
slightly better than those garnered earlier that week by ABC's movie 
version of the Pope's life. \9\
---------------------------------------------------------------------------
    \9\ ``Sunday Night Sinners Outshine CBS's `Pope','' The Hollywood 
Reporter, www.hollywoodreporter.com, December 6, 2005.
---------------------------------------------------------------------------
    Let me be clear, CBS would be happy to go back to the three-channel 
era that I and many others recall fondly, but in today's world of 
hundreds of channels--a state of affairs frequently praised in other 
public policy debates as ``viewer choice and diversity'' --looking back 
lovingly at the past will not guide us toward a solution for today. 
Viewers now have the tools to respond to this amazing choice and 
diversity, and we in the television industry stand ready to educate and 
encourage them to actively use those tools.

    The Chairman. Thank you.
    Our next witness is Mr. Alan Rosenberg, the President of 
the Screen Actors Guild of Los Angeles. Thank you for coming.

  STATEMENT OF ALAN ROSENBERG, PRESIDENT, SCREEN ACTORS GUILD

    Mr. Rosenberg. Thank you, Chairman Stevens, Co-Chairman 
Inouye, Senator Pryor, and Members of the Committee. Thank you 
for inviting me to participate in this hearing. My name is Alan 
Rosenberg and I am the President of the Screen Actors Guild. I 
am honored to be here today representing 120,000 proud members 
of the Screen Actors Guild, just as former President Ronald 
Reagan did. Founded over 70 years ago, and we are part of the 
AFL-CIO. Throughout the world, our members are hired to perform 
roles in television programs, motion pictures, commercials, and 
interactive media, bringing countless hours of entertainment 
and information to the global viewing public. We take great 
pride in these ongoing creative contributions to America's rich 
artistic, cultural, and entertainment landscape.
    As professional performers, we want to ensure that the 
artistic freedoms guaranteed by the First Amendment of the 
United States Constitution are treated as sacrosanct and not 
sacrificed because of a couple of extremely isolated incidents. 
As parents, we want to ensure that children are not exposed to 
content not intended for them. Finding the proper balance 
between protecting freedom of artistic expression and 
protecting children from indecency is a tremendous challenge 
and an enormous responsibility for Congress to undertake.
    However, we believe that Congress can reach an effective 
yet equitable balance between proceeding in a narrowly tailored 
manner which deters broadcast indecency without discouraging 
protected speech or disproportionately punishing individual 
American citizens. American film and television is an integral 
component of our popular culture, mirroring our history and our 
national identity. Our stories must be portrayed sincerely and 
without censorship. Sometimes angry language that I would never 
use in my home is required in order to convey the reality of a 
situation. Can we risk sugar-coating the artistic recreation of 
events, news, and our own history in the pursuit of a decency 
standard narrowly defined about what some people might find 
objectionable? How will generations to come learn about the 
hatred of racism or see the great works of William Shakespeare 
come to life without using words or phrases that a small 
minority of viewers might find indecent?
    Societies often quell dissent through the media. Censorship 
is a way to limit what facts are heard and to propagandize what 
the public sees and hears. Is that the kind of media we want to 
provide in this country?
    Some of the most imaginative, thoughtful, and proactive 
television shows of all time, from ``All in the Family'' to 
``NYPD Blue,'' pushed age-old boundaries and offered the 
viewing public something different. The history of free-flowing 
creativity and dialog over our airwaves has been dependent upon 
the principle of free expression without fear of government 
retaliation.
    However, the indecency fine increases passed by the House 
of Representatives could significantly undermine this principle 
by subjecting American citizens to financial ruin for 
expressing their constitutionally protected rights. The House 
legislation increases the fines individual Americans would pay 
for broadcast decency violations by almost 5,000 percent, from 
$11,000 to $500,000. It would eliminate the existing warning 
requirement.
    SAG members work primarily on scripted projects. We are 
hired to perform a role. To be threatened with a half a million 
dollars in fines for doing our jobs is incomprehensible. Any 
actor on television could become the target of citizens who 
disagree with the actor's religious or political beliefs. Well-
orchestrated campaigns urging FCC complaints could become the 
norm if the extreme and disproportionate fine increases for 
individuals become law.
    Existing safeguards already protect the public's interest 
and obviate the need for such extreme sanctions against 
individual Americans. Live broadcasts are becoming increasingly 
rare and our employers utilize a 7-second delay in such 
instances. Additionally, nearly every actor's series contract 
includes a morals clause prohibiting unbecoming behavior on and 
off screen. So if an actor appeared on ``The Today Show'' and 
unleashed a slew of expletives that somehow made it past the 
network delay switch, such conduct would likely result in 
getting fired from a hit TV series, losing lucrative 
endorsement contracts, and jeopardizing future employment. This 
is certainly not a risk that anyone I know is willing to take.
    In addition, other safeguards exist to protect children 
from indecent content. These include the new TV rating system 
that Jack Valenti discussed, the cable industry's new family 
tier, channel blocking technologies, the V-Chip, and public 
service announcement campaigns. This growing web of safeguards 
should be given an opportunity to work before the Senate enacts 
an excessive fine regime for individual Americans.
    While the fines contained in the House bill are often 
referred to as performer fines, they are not limited to high-
profile stars. In actuality, they would apply to any American 
citizen who inadvertently runs afoul of the ever-changing FCC 
standards. Your constituents, whether they call in to a radio 
station talk show, give a man on the street interview, or, 
worse, are grief-stricken family members at the scene of a 
crime or a funeral, could be subject to financial ruin for 
exercising their constitutionally protected right of free 
speech.
    Even if fines were tempered by an individual's ability to 
pay, the legal fees associated with defending a complex FCC 
forfeiture proceeding could bankrupt many of our constituents--
your constituents, excuse me.
    Unlike broadcast licensees, individual citizens, including 
the members I represent here today, are not aware of the FCC's 
vague and changing indecency standards. Should they really be 
subject to half a million dollar fines without a warning? My 
wife is an actress in the number one TV show, ``CSI.'' While 
there is nothing indecent about the show, it is certainly not 
something young children should watch, nor is it intended for 
them. Crime scenes and autopsies are not the best choice for 
kids. But the fact that provocative television shows like CSI 
are not appropriate for children does not mean that they should 
not be available for adults to watch. If all America's 
entertainment output were to be distilled to a level that is 
appropriate for children, every movie and program would be 
rated G. While some groups out there might cheer this outcome, 
it would drastically limit the entertainment industry's ability 
to explore the full depth and diversity of the human 
experience.
    If you allow the content considerations of a single 
demographic, be it children or some narrow segment of an adult 
special interest group, to dictate the standards for what is 
appropriate for the entire Nation, you suppress one of this 
country's greatest assets, the diversity and creativity of the 
American people. That is why the Senate should not only refrain 
from fining individual citizens, it should also avoid revoking 
station licenses for indecency violations. Increasing existing 
broadcaster fine levels, as is proposed in Senator Brownback's 
bill and the House legislation, will provide a sufficient 
deterrent to airing indecency. Threatening a broadcaster's 
license, which are in some cases worth hundreds of millions of 
dollars, would result in a total clamp-down on all content, 
even that which is not indecent. The best programs on the 
airwaves, from local TV productions to hit network shows, 
enjoyed by tens of millions of viewers, could go by the wayside 
due to the threat of censorship through a station's license 
revocation. This would have a devastating effect on our 
Nation's artistic, cultural, and economic fabric. Bland 
programming is safe, but it is not necessarily good. We believe 
the American people deserve remarkable, innovative programming, 
not bland.
    I see my time is up and thank you very much for allowing me 
to participate today.
    [The prepared statement of Mr. Rosenberg follows:]

  Prepared Statement of Alan Rosenberg, President, Screen Actors Guild
    Mr. Chairman, Co-Chairman Inouye, and Members of the Committee, 
thank you for inviting me to participate in this hearing. My name is 
Alan Rosenberg and I am the President of Screen Actors Guild.
    I am honored to be here today representing 120,000 proud members of 
Screen Actors Guild, founded over 70 years ago and part of the AFL-CIO. 
Throughout the world, our members are hired to perform roles in 
television programs, motion pictures, commercials, and interactive 
media, bringing countless hours of entertainment and information to the 
global viewing public. We take great pride in these ongoing creative 
contributions to America's rich artistic, cultural, and entertainment 
landscape.
    As professional performers, we want to ensure that the artistic 
freedoms guaranteed by the First Amendment of the United States 
Constitution are treated as sacrosanct and not sacrificed because of a 
couple of extremely isolated incidents. As parents, we want to ensure 
that children are not exposed to content not intended for them.
    Finding the proper balance between protecting freedom of artistic 
expression and protecting children from indecency is a tremendous 
challenge and an enormous responsibility for Congress to undertake. 
However, we believe that Congress can reach an effective yet equitable 
balance by proceeding in a narrowly tailored manner, which deters 
broadcast indecency without discouraging protected speech or 
disproportionately punishing individual American citizens.
    American film and television is an integral component of our 
popular culture, mirroring our history and our national identity. Our 
stories must be portrayed sincerely and without censorship. Sometimes, 
angry language that I would never use in my home is required in order 
to convey the reality of a situation. Can we risk sugarcoating the 
artistic re-creation of events, news, and our own history in the 
pursuit of a ``decency'' standard narrowly defined by what some people 
might find objectionable? How will generations to come learn about the 
hatred of racism, or see the great works of William Shakespeare come to 
life, without using words or phrases that a small minority of viewers 
might find indecent?
    Societies often quell dissent through the media. Censorship is a 
way to limit what facts are heard and to propagandize what the public 
sees and hears. Is that the kind of media we want to provide in this 
country?
    Some of the most imaginative, thoughtful, and proactive television 
shows of all time--from All in the Family to NYPD Blue--pushed age-old 
boundaries and offered the viewing public something different. The 
history of free-flowing creativity and dialogue over our airwaves has 
been dependent upon the principle of free expression without fear of 
government retaliation.
    However, the indecency fine increases passed by the House of 
Representatives could significantly undermine this principle by 
subjecting American citizens to financial ruin for expressing their 
constitutionally protected rights. The House legislation increases the 
fines that individual Americans would pay for broadcast decency 
violations by almost 5,000 percent (from $11,000 to $500,000) and would 
eliminate the existing warning requirement.
    SAG members work primarily on scripted projects--we are hired to 
perform a role. To be threatened with half a million dollars in fines 
for doing our jobs is incomprehensible. Any actor on television could 
become the target of citizens who disagree with the actor's religious 
or political beliefs. Well-orchestrated campaigns urging FCC complaints 
could become the norm if the extreme and disproportionate fine 
increases for individuals become law.
    Existing safeguards already protect the public's interest and 
obviate the need for such extreme sanctions against individual 
Americans. Live broadcasts are becoming increasingly rare, and our 
employers utilize a seven-second delay in such instances. Additionally, 
nearly every actor's series contract includes a morals clause 
prohibiting unbecoming behavior on and off screen.
    So if an actor appeared on the Today Show and unleashed a slew of 
expletives that somehow made it past the network delay switch, such 
conduct would likely result in getting fired from a hit TV series, 
losing lucrative endorsement contracts, and jeopardizing future 
employment. This is certainly not a risk that anyone I know is willing 
to take.
    In addition, other safeguards exist to protect children from 
indecent content. These include the new TV ratings system that Jack 
Valenti discussed, the cable industry's new family tier, channel 
blocking technologies, the V-chip, and public service announcement 
campaigns. This growing web of safeguards should be given an 
opportunity to work before the Senate enacts an excessive fine regime 
for individual Americans.
    While the fines contained in the House bill are often referred to 
as ``performer fines,'' they are not limited to high profile stars. In 
actuality, they would apply to any American citizen who inadvertently 
runs afoul of the ever-changing FCC standards. Your constituents--
whether they call in to a radio talk show, give a ``man on the street'' 
interview, or worse, are grief stricken family members at the scene of 
a crime or a funeral--could be subject to financial ruin for exercising 
their constitutionally protected right of free speech. Even if fines 
were tempered by an individual's ability to pay, the legal fees 
associated with defending a complex FCC forfeiture proceeding could 
bankrupt many of your constituents.
    Unlike broadcast licensees, individual citizens, including the 
members I represent here today, are not aware of the FCC's vague and 
changing indecency standards. Should they really be subject to half 
million dollar fines without a warning?
    My wife is an actress on the number one TV show, CSI. While there's 
nothing ``indecent'' about the show, it's certainly not something young 
children should watch, nor is it intended for them. Crime scenes and 
autopsies are not the best choice for kids. But the fact that 
provocative television shows like CSI are not appropriate for children 
doesn't mean that they shouldn't be available for adults to watch. If 
all of America's entertainment output were to be distilled to a level 
that is appropriate for children, every movie and program would be 
Rated G.
    While some groups out there might cheer this outcome, it would 
drastically limit the entertainment industry's ability to explore the 
full depth and diversity of the human experience. If you allow the 
content considerations of a single demographic (be it children or some 
narrow segment of an adult special interest group) to dictate the 
standards for what is appropriate for the entire Nation, you suppress 
one of this country's greatest assets--the diversity and creativity of 
the American people.
    That's why the Senate should not only refrain from fining 
individual citizens; it should also avoid revoking station licenses for 
indecency violations. Increasing existing broadcaster fine levels, as 
is proposed in Senator Brownback's bill and the House legislation, will 
provide a sufficient deterrent to airing indecency. Threatening a 
broadcaster's license (which are in some cases worth hundreds of 
millions of dollars) will result in a total clampdown on all content, 
even that which is not indecent.
    The best programming on the airwaves--from local TV productions to 
hit network shows enjoyed by tens of millions of viewers--could go by 
the wayside due to the threat of censorship through a station's license 
revocation. This would have a devastating effect on our Nation's 
artistic, cultural, and economic fabric. Bland programming is safe, but 
it is not necessarily good. We believe the American public deserves 
remarkable, innovative programming. Not bland.
    Mr. Chairman, this sort of national dialogue on the proper balance 
between freedom of expression and protecting children is both healthy 
and necessary in any democratic society, particularly one as rapidly 
evolving as our own, whose entertainment and cultural output are so 
widely exported around the world. Given the serious implications for 
First Amendment freedom of speech posed by this debate, the Senate 
should proceed in a narrowly tailored manner that neither discourages 
protected speech nor disproportionately punishes individual American 
citizens. The ``baby'' of free artistic expression on America's 
airwaves is simply too important to be thrown out with the ``bath 
water'' of indecency.
    I applaud your leadership in this regard, and look forward to 
working with you and Members of the Committee in striking the proper 
balance.
    Thank you again for the opportunity to speak today.

    The Chairman. Thank you.
    Our last witness today is Jeff McIntyre, the Legislative 
and Federal Affairs Officer of the Public Policy Office of the 
American Psychological Association. Senator Rockefeller 
mentioned your appearance. We are happy to have you here.

        STATEMENT OF JEFF J. McINTYRE, LEGISLATIVE AND 
        FEDERAL AFFAIRS OFFICER, PUBLIC POLICY OFFICE, 
               AMERICAN PSYCHOLOGICAL ASSOCIATION

    Mr. McIntyre. Thank you, Mr. Chairman. I am honored to be 
here today. I am honored to be here today on behalf of the 
American Psychological Association. APA is the largest 
organization representing psychology and has over 150,000 
members and affiliates to advance psychology as a science, as a 
profession, and as a means of health, education, and human 
welfare.
    My years of policy experience related to children and the 
media include serving as a negotiator for the development of 
the current television rating system, as an adviser to the 
Federal Communications V-Chip Task Force, and as a current 
member of the Oversight Monitoring Board for the television 
rating system. I am also a co-chair of the Children's Media 
Policy Coalition, a national coalition of public health, child 
advocacy, and education groups, including the American Academy 
of Pediatrics, Children Now, and the National PTA.
    In the late 1990s, tragic acts of violence in our schools 
directed our Nation's attention to the serious problem of youth 
violence. School shootings in Paducah, Kentucky, Jonesboro, 
Arkansas, Edinboro, Pennsylvania, Springfield, Oregon, and 
Littleton, Colorado, brought about a national conversation on 
the roots of youth violence and what we as parents, as 
psychologists, and public policymakers could do to prevent more 
incidents of youth violence.
    Psychological research on violence prevention and child 
development informs and continues to address this need. While 
the foundation of acts of violence are complex and variable, 
certain risk factors have been established in the psychological 
literature. Among the factors that place youth at risk for 
committing an act of violence are exposure to acts of violence, 
including those in the media.
    Foremost of the conclusions drawn on the basis of over 30 
years of research contributed by American Psychological 
Association members, as highlighted in the U.S. Surgeon 
General's report in 1972, the National Institute of Mental 
Health's report in 1982, and the 3-year National Television 
Violence Study in the 1990s, shows that repeated exposure to 
violence in the mass media places children at risk for 
increases in aggression, desensitization to acts of violence, 
and unrealistic increases in fear of becoming a victim of 
violence, which results in the development of other negative 
consequences and characteristics, such as a mistrust of others.
    This research provided the foundation upon which 
representatives of the Public Health Community, comprised of 
the American Psychological Association, the American Academy of 
Pediatrics, and the American Medical Association, issued a 
consensus statement in the year 2000 regarding the state of the 
science on the effects of media violence on children.
    Certain psychological facts are well established in this 
debate. As APA member Dr. Ronald Huesmann of the University of 
Michigan stated before the Senate Commerce Committee here: 
``Just as every cigarette you smoke increases the chances that 
someday you will get cancer, every exposure to violence 
increases the chances that someday a child will behave more 
violently than he or she otherwise would.''
    Now, hundreds of studies have confirmed that exposing our 
children to a steady diet of violence in the media makes them 
more violence-prone. The psychological processes here are not 
mysterious. Children learn by observing others. Mass media and 
advertising provide a very attractive window for these 
observations.
    Now, excellent pro-social programming for children, such as 
``Sesame Street,'' and pro-social marketing such as that around 
helmets for skateboarding, for instance, is to be commended and 
supported. Psychological research shows that what is 
responsible for the effectiveness of good children's 
programming and pro-social marketing is that children learn 
from their media environment.
    Now, if children can learn positive behaviors via this 
medium, they can learn harmful ones as well. Our experience 
with the rating system merits some attention in this 
discussion. There continues to be concern arising from the 
ambiguity in the implementation of the current rating system. 
The rating systems can be undermined by marketing efforts of 
the very groups responsible for its implementation and 
effectiveness, for instance marketing adult-rated programs to 
children. This displays a significant lack of accountability 
and should be considered when proposals for industry self-
regulation are discussed.
    At the very least, the industry fails to actively promote 
the rating system. I am hopeful that Mr. Valenti's suggestions 
here may stem that somewhat.
    Also undermined here are the interests of parents. As the 
industry has shown a lack of accountability in the 
implementation of the existing rating system, parents have 
struggled to manage their family's media diet in the midst of 
misleading and contradictory information. More information 
regarding ratings and program content should be made available. 
As with nutritional information, content labeling should be 
available on the product and not hidden on websites or the 
occasional public education pamphlet. Any move by the industry 
to fix the current rating system by implementing a system with 
less content-based information should be seriously questioned. 
The Federal Trade Commission report on the marketing of 
violence to children only heightens these concerns.
    The Children's Online Privacy Protection Act enacted in 
1998 established that parents have a right to protect their 
children's privacy from unwanted solicitation of personal 
information. I would argue that, based on the years of 
psychological research in violence prevention and clinical 
practice with children, parents also have the right to protect 
their children from material that puts them at risk of harm. 
With the considerations in place for children's privacy, the 
precedent for protecting the safety and welfare of children in 
a media environment is well established.
    This is a la carte in reverse. A detailed content-based 
rating system is a vital step toward giving parents the 
information they need to make choices about their children's 
media habits. Decades of psychological research bear witness to 
the potential harmful effects for our children and our Nation 
if these practices continue.
    Chairman Stevens and Members of the Committee, thank you 
for your time. Please regard me and the American Psychological 
Association as a resource to the Committee in your 
deliberations on this matter.
    [The prepared statement of Mr. McIntyre follows:]

Prepared Statement of Jeff J. McIntyre, Legislative and Federal Affairs 
   Officer, Public Policy Office, American Psychological Association
    Good morning. I am Jeff McIntyre, and I am honored to be here today 
to represent the American Psychological Association. The American 
Psychological Association is the largest organization representing 
psychology and has over 150,000 members and affiliates working to 
advance psychology as a science, a profession, and as a means of 
promoting health, education, and human welfare.
    My years of policy experience related to children and the media 
include serving as a negotiator for the development of a television 
ratings system, as an advisor to the Federal Communications 
Commission's V-chip Task Force, and as a current member of the 
Oversight Monitoring Board for the television ratings system. I also 
co-chair the Children's Media Policy Coalition, a national coalition of 
public health, child advocacy, and education groups, including the 
American Academy of Pediatrics, Children Now, and the National PTA.
    In the late 1990s, tragic acts of violence in our schools directed 
our Nation's attention to the serious problem of youth violence. School 
shootings in Paducah, Kentucky; Jonesboro, Arkansas; Edinboro, 
Pennsylvania; Springfield, Oregon; and Littleton, Colorado, brought 
about a national conversation on the roots of youth violence and what 
we--as parents, psychologists, and public policymakers--could do to 
prevent more incidents of youth violence.
    Psychological research on violence prevention and child development 
informs, and continues to address, this need. While the foundations of 
acts of violence are complex and variable, certain risk factors have 
been established in the psychological literature. Among the factors 
that place youth at risk for committing an act of violence are exposure 
to acts of violence, including those in the media.
    Foremost, the conclusions drawn on the basis of over 30 years of 
research contributed by American Psychological Association members--as 
highlighted in the U.S. Surgeon General's report in 1972, the National 
Institute of Mental Health's report in 1982, and the three-year 
National Television Violence Study in the 1990s--shows that repeated 
exposure to violence in the mass media places children at risk for:

  <bullet> increases in aggression;
  <bullet> desensitization to acts of violence; and
  <bullet> unrealistic increases in fear of becoming a victim of 
        violence, which results in the development of other negative 
        characteristics, such as mistrust of others.

    This research provided the foundation upon which representatives of 
the public health community--comprised of the American Psychological 
Association, the American Academy of Pediatrics, and the American 
Medical Association--issued a consensus statement in 2000 regarding the 
state-of-the-science on the effects of media violence on children.
    Certain psychological facts are well established in this debate. As 
APA member Dr. Rowell Huesmann of the University of Michigan stated 
before the Senate Commerce Committee--just as every cigarette you smoke 
increases the chances that, someday, you will get cancer, every 
exposure to violence increases the chances that, some day, a child will 
behave more violently than he or she otherwise would.
    Hundreds of studies have confirmed that exposing our children to a 
steady diet of violence in the media makes them more violence prone. 
The psychological processes here are not mysterious. Children learn by 
observing others. Mass media and the advertising world provide a very 
attractive window for these observations.
    Excellent children's pro-social programming (such as Sesame Street) 
and pro-social marketing (such as that around helmets for 
skateboarding) is to be commended and supported. Psychological research 
shows that what is responsible for the effectiveness of good children's 
programming and pro-social marketing is that children learn from their 
media environment. If children can learn positive behaviors via this 
medium, they can learn harmful ones as well.
    Our experience with the ratings system merits attention in this 
discussion. There continues to be concern arising from the ambiguity in 
the implementation of the current ratings system. The ratings system 
can be undermined by the marketing efforts of the very groups 
responsible for its implementation and effectiveness (e.g., marketing 
adult-rated programs to children). This displays a significant lack of 
accountability and should be considered when proposals for industry 
self-regulation are discussed. At the very least, the industry fails to 
actively promote its rating system.
    Also undermined here are the interests of parents. As the industry 
has shown a lack of accountability in the implementation of the 
existing ratings system, parents have struggled to manage their 
family's media diet in the midst of misleading and contradictory 
information. More information regarding ratings and program content 
should be made available. As with nutritional information, content 
labeling should be available on the product and not hidden on websites 
or in the occasional public education pamphlet. Any move by the 
industry to fix the current ratings system by implementing a system 
with less content-based information should be seriously questioned. A 
Federal Trade Commission report on ``The Marketing of Violence to 
Children'' heightens these concerns.
    The ``Children's On-Line Privacy Protection Act,'' enacted in 1998, 
established that parents have a right to protect their children's 
privacy from the unwanted solicitation of personal information. I would 
argue that, based on the years of psychological research on violence 
prevention and clinical practice with children, parents also have the 
right to protect their children from material that puts them at risk of 
harm. With the considerations in place for children's privacy, the 
precedent for protecting the safety and welfare of children in a media 
environment is well established.
    This is `a la carte' in reverse. A detailed, content-based ratings 
system is a vital step towards giving parents the information they need 
to make choices about their children's media habits. Decades of 
psychological research bear witness to the potential harmful effects 
for our children and our Nation if these practices continue.
    Chairman Stevens and Members of the Committee, thank you for your 
time. Please regard me and the American Psychological Association as a 
resource to the Committee in your deliberations on this important 
matter.

    The Chairman. Well, thank you very much, Mr. McIntyre. As I 
said, I viewed that V-Chip presentation of the industry last 
night. You are on the advisory board. Are you satisfied with 
that presentation that it is going to give additional tools to 
the American family?
    Mr. McIntyre. I am hopeful. As I look back over my notes 
here for what the presentation was, with the exception of Mr. 
Valenti's proposal that the ratings will be shown coming out of 
commercial breaks, it was my understanding that most of this 
stuff was supposed to be happening 10 years ago when the 
ratings agreement was originally made.
    The Chairman. It has been in the systems. It has been on 
the television, but it has not been explained how to use it. 
Last night I saw a detailed explanation of how to use it, how 
effective it is. You say you are on the advisory board for that 
group, for the V-Chip?
    Mr. McIntyre. I am on the Oversight Monitoring Board, yes, 
sir.
    The Chairman. Monitoring board. Well, what do you think? 
Have you seen the presentation they gave us last night?
    Mr. McIntyre. We have not. The monitoring board meets 
roughly about twice a year, and mostly to my experience, speaks 
really only to addressing the individual promotional campaigns 
of a given network. It really has not done much.
    The Chairman. Jack, can we invite him down to look at that 
this afternoon?
    Mr. Valenti. Absolutely. I will escort him over there.
    Mr. Franks. Senator Stevens, may I----
    The Chairman. Let me finish if I may.
    On the violence, we agree with you. But I am going to go to 
the Caps game tonight and I have got a hockey puck son and 
three hockey puck grandchildren, grandsons. They see violence 
in sports. How does that affect the children?
    Mr. McIntyre. It really depends on the individual child and 
on the parents. I would probably guess that you are a pretty 
good grandparent and your children are good parents. Your 
children, your grandchildren are not necessarily having 
problems with bullying or violence-prone necessarily. The way 
the rating system should be set up is to be able to allow for 
parents to make the decisions based on what their individual 
children are going through. So if I have a child and he is 
prone to bullying, then I would have some second thoughts about 
taking him into environments where violence may be a part of 
that regularly.
    The Chairman. Well, one of the things they see is a person 
who goes too far put in the penalty box, does he not?
    Mr. McIntyre. According to the NHL, I think that is the 
rule, yes, sir.
    The Chairman. My grandsons get there quite often, I think.
    [Laughter.]
    The Chairman. Mr. Rosenberg, has anything been done in the 
industry to discourage actors from putting indecency out in 
terms of programs that are related to children?
    Mr. Rosenberg. Well, in all of our contracts, if we 
contract to do a series, there is a morals clause.
    The Chairman. Well, in ``Harry Potter'' they have all 
things that scare people, but they do not really show real 
violence. Right?
    Mr. Rosenberg. Right.
    The Chairman. Now, is there some industry approach--do 
actors question the impact of what they are doing on children?
    Mr. Rosenberg. You know, I have not done much children's 
programming. Actors question what they are doing all the time. 
If something is offensive to me, I do not hesitate to question. 
I mean, we all have that right.
    But we are also hired hands. We do not write the shows and 
we do not broadcast them. Actors, I suppose if you are given a 
script that has something that might be objectionable, either 
if it is violent or if there is scatological language, I guess 
your job is on the line when you decide whether to say the 
words that are in that script or not, or do the actions that 
are in that script or not. It is up to the individual actor, I 
suppose.
    But we do have morals clauses in our contracts which 
prevent us from engaging in indecent behavior.
    The Chairman. Thank you.
    Mr. Reese, we have been wrestling with the problem, it 
comes from the fact that past Supreme Court decisions appear to 
give us greater power in terms of over-the-air broadcasters 
than those who use satellite or cable. Now, you make the point, 
and I have made it too, that at the time those decisions were 
made about 10 to 12 percent of the people got their programming 
over cable. Now satellite and cable is above 80 percent. Even 
most of the programs that the broadcasters provide are carried 
through the cable system under our must-carry concept, which 
currently is under challenge.
    Now, what do you tell parents about the role of 
broadcasters in this argument right now? There is a dichotomy 
here that a program coming over over-the-air broadcasting, if 
received through a system that was through cable, would not be 
subject to regulation, but if it was out there and received in 
rural America where there is no cable, it would be subject to 
this regulation.
    Now, what does industry think about this situation right 
now?
    Mr. Reese. Well, I felt I had a good source when I quoted 
you, Senator, from your November 29th comments.
    The Chairman. That pleased me, but I am not sure it pleased 
my colleagues up here at all.
    Mr. Reese. The underpinning of the Pacifica discussion 
seems to not really be valid any more. Any sort of 
pervasiveness argument that could have been made in the 1970s 
about broadcasting vis a vis cable at that time and at least, 
at best a fledgling satellite industry, just does not work any 
more. Americans do not make a distinction about where the 
product comes from.
    The broadcaster who does something that is deemed indecent 
under the less than perfect regulatory system we have now is 
the one that is subject to the fine because it went out over 
the air, even if only 10 percent of the audience happened to 
see it through an antenna in their home.
    The Chairman. My last is just a comment to you, all of you. 
Staff has pointed this out. We had a discussion in my family 
this weekend about the TV Guide and the programming that is 
shown on the screen on the television, whether it is cable or 
satellite or over-the-air. The presentations of programming 
that are available do not show ratings. I am informed now even 
as far as the movies the newspapers are not showing ratings.
    I think that is missing here somehow. When the public looks 
at a presentation of what they can look at, why should they not 
see the ratings? Why should not the ratings be available 
through these programs that come, like TV Guide? Children look 
at those and the parents look at those. Why should they not 
find out how those programs are rated? Mr. Franks?
    Mr. Franks. Well, two things, Senator. One, Jack can 
recount these stories better than I, but we have worked for 
years to try and persuade--the ratings are made available to 
the newspapers and to all the media several weeks in advance 
before the program airs. A very few newspapers or other listing 
services actually carry the ratings for their own economic 
reasons, having to do with their own space limitations.
    I would commend USA Today, for example. If you look at that 
back page where they have what is on tonight, it has extensive 
V-Chip rating information.
    The Chairman. They are the one exception, yes.
    Mr. Franks. As for ourselves, in our own promotions, if we 
are promoting a show that is on tonight or on tomorrow night, 
we put the rating into the promotion.
    The Chairman. Well, I think that is something we ought to 
look at. The newspapers certainly are critical of what is going 
on and yet they are not helping at all to provide the solutions 
for the American family.
    Mr. Franks. The same thought has occurred to us, Senator.
    May I just refer to one thing Mr. McIntyre raised? He has 
actually been a very constructive force in this debate and so I 
do not want to suggest that I am criticizing him in any way. 
But one of the things he was arguing for is a more detailed 
rating system to give parents more information, and that is not 
a bad idea. But one of the things that we also discussed at 
some length on the 29th of November is that the current rating 
system is too complex. I think part of what we have tried to do 
is to strike a balance between giving parents as much 
information as we can get to them without overwhelming them or 
it being so complex that they do not understand it or cannot 
figure it out. It is a difficult balance to strike and it just 
goes to the struggle we are having to try and get this right. 
It is not easy.
    The Chairman. Mr. McIntyre, we do not have a lot of time, 
but you ought to have a right to answer that.
    Mr. McIntyre. Thank you, Senator. I appreciate that.
    We hear this a lot and we have struggled with the rating 
system being too complicated. In a world where families program 
their TiVos, where they now download videos on their cell 
phones, where individuals are fluent on their Blackberries 
probably even as we speak, we are told that S, V, and L as 
attached to the rating system is too complicated. We do not buy 
that.
    We understand that it is more complicated than 1, 2, 3, but 
we think with the proper promotion and the proper advertising, 
with the help of the newspapers, as you mentioned, that it can 
be easily digestible and usable by the majority of the American 
public.
    The Chairman. Well, I hope you do go with Mr. Valenti and 
see this. I was surprised at the detail that is there. I was 
also surprised that if you really are a parent and you block 
out all rating--unrated programs, what you really block out. 
You block out emergency notices, you block out sports. You 
block out a lot of things, which puts a lot more burden on the 
parent to go back and say--but you have the tools--you can 
watch this news program, you can watch that sports program. But 
it is a more difficult thing to do because there are so many 
programs that are not rated.
    But I would urge you to go take a look at it.
    Senator Inouye.
    Senator Inouye. I thank you.
    Mr. Valenti opened his statement by citing a poll. The 
first question was: Do you believe that the programming on 
television is getting a bit too violent and indecent? I believe 
he cited that over 70 percent of the parents said yes. Question 
two: Should the government do something about that? Over 70 
percent said no.
    I have been listening to your testimony very carefully. Mr. 
Bozell speaks of raising the fine and Mr. Rosenberg I believe 
cited Mr. Brownback, who calls for raising the fine also. But 
for the rest of you, you seem to be expressing the views of the 
70 percent in saying that Congress should not legislatively 
take action at this moment. Am I correct? Mr. Reese.
    Mr. Reese. Senator, I think that, as Mr. Bozell said, we 
have a system now. We have an indecency regime, as imperfect as 
it may be. We now have a voluntary effort which Mr. Valenti has 
headed up, which we believe has a strong potential to give 
parents--not just tell them that a system exists, but explain 
to them how to use it, which may for the first time, by the 
way, give parents the ability to program things. Normally I 
have to ask my 4-year-old granddaughter to do my programming 
for me on anything electric at my house.
    But we hope that we will not only tell them it is there, 
but show them how to use it and make it an effective tool. 
Before we expand fines and before we add some of the other 
extreme measures, including license revocation hearings, we 
would urge the Committee to give this system a chance, to see 
what impact we can have in terms of giving parents additional 
tools.
    Senator Inouye. Mr. Franks.
    Mr. Franks. Senator Inouye, I just do not think a fines 
bill is going to help parents very much. We are talking about 
such a very small subset of programming that would ever be 
subject to a fine. I think parents in their everyday lives, 
they are trying to struggle with what is going to be on 
tonight. MASH might be inappropriate in a number of households, 
given its dealings with the realities of war. No one ever 
suggested that MASH was indecent, but there are many parents 
who might want to shield their children from that kind of 
programming. A fines bill I do not think is going to help with 
that, whereas if we can educate parents that they already have 
blocking technology they can use I think that will help them 
enormously.
    Mr. Rosenberg. I would just like to make it clear that I 
spoke very much against increasing fines on individuals. Mr. 
Brownback's bill deals with raising fines on broadcasters and 
licensees. But very much opposed to fining individual American 
citizens.
    Mr. Bozell. Senator, may I say something, because I think a 
point needs to be clarified here?
    The Chairman. Sure.
    Mr. Bozell. I do not know where Mr. Valenti's poll came 
from. I think everyone here would agree that the Pew Research 
Center is one of the most reputable research organizations in 
America today. In my written remarks to you I have got these 
numbers. According to the Pew Research Center, 75 percent of 
the American public is demanding tighter enforcement of 
government rules on broadcast content, particularly when 
children are most likely to be watching. According to the same 
poll, 69 percent of the American public also are demanding 
higher fines for media companies that violate the law.
    When cable choice is concerned, the numbers are no 
different. According to a Wirthlin Poll for Concerned Women for 
America, two out of three subscribers, cable subscribers, say 
they want cable choice. That is the polling data that I am 
looking at. That is not my poll; that is the Pew Research 
Center and the Wirthlin Poll.
    Thank you.
    Senator Inouye. Any thoughts on what constitutes indecency? 
I am a lawyer, but I am confused.
    Mr. Rosenberg. Who was it who said: I will know it when I 
see it? It is a difficult, it is a difficult thing to define. 
As Mr. Valenti pointed out, the Supreme Court has not really 
been able to do it. I agree with him, a 1.5 seconds exposure to 
a naked breast is not indecent in my eyes.
    Senator Inouye. When Ms. Jackson deliberately or 
accidentally exposed herself, that was considered gross 
indecency and there was an outcry. But watching some of the 
shows on television, for example the Golden Globe awards, I 
would suggest that some of the dresses that I saw on the screen 
were much more suggestive than what Ms. Jackson showed us.
    Mr. Rosenberg. I would agree if you consider that indecent. 
I enjoyed watching the Golden Globe awards.
    But I want to ask, would we put clothing on Michelangelo's 
David, or clothe some of the fabulous nudes painted by 
Michelangelo? When you bring a child to a museum is it 
necessary to put a sign up before you walk into the room where 
the Modigliani nudes are? Is it necessary to warn them before 
they walk into that room?
    You know, I walk into those museums with my son and I watch 
television with my son and I talk about everything with him. I 
think it has been stated many times today, that is the best 
monitoring we can do, is to continue talking to our children.
    Senator Inouye. So, what is the general consensus? We want 
laws or we do not want laws?
    Mr. Bozell. My consensus is we have laws. The laws are 
there. I do not think we need new laws. I think we need to 
enforce existing laws. I think that you need to make--
understand, we need to define the difference between offensive 
and really offensive. There is plenty on television that any 
one of us in this room today might consider to be offensive, 
but it does not rise to the level of a complaint with the FCC. 
That is not what we are talking about.
    But when something does rise to that and when someone has 
broken community standards by doing something, like a Superbowl 
striptease, that shocked tens of millions of people around the 
country, then there should be the requisite fines. Now, I would 
say only if it is an egregious violation and a willful 
violation.
    Senator Inouye. My television just has basic. The programs 
you cited, are they pay for view, or what are they?
    Mr. Bozell. No, I was talking about cable. I was talking 
about basic expanded cable television when you order cable. The 
networks were FX and the shows were ``The Shield,'' ``Nip/
Tuck,'' and ``South Park'' on Viacom.
    The Chairman. But the Brownback bill does not cover them.
    Mr. Bozell. I am sorry?
    The Chairman. That bill, the Brownback bill on increasing 
fines, does not cover those programs.
    Mr. Bozell. No. I think there are two very different----
    The Chairman. So, your statement that there is an existing 
law that has not been enforced, it only applies to 
broadcasting.
    Mr. Bozell. Exactly. That is what we have been saying. We 
are saying where cable is concerned you ought to go the cable 
choice route because there is not oversight.
    Mr. Reese. Mr. Inouye, just in quick response to your 
question and with respect to Mr. Bozell's long work on this and 
his passion in it. I am not sure that the FCC knows what the 
difference between egregious and really egregious is, and that 
standard moves and that standard moves regularly. Those who are 
subject to the indecency regime now really honestly do not know 
where that line is. Many broadcasters made the decision in good 
faith not to run ``Saving Private Ryan'' because of concerns 
about fines. Afterwards when the issue was finally resolved by 
the FCC, the FCC said, no, you would not have gotten fined had 
you run that show. But the FCC is not in the business of pre-
censoring every program that might come up for airing on 
broadcast television.
    Senator Inouye. Thank you, Mr. Chairman.
    The Chairman. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    If I may, Mr. Bozell. I know that the Parents Television 
Council evaluates various programming that is on TV and I 
notice that on your list, maybe at the top of the list, is a TV 
show, I believe it is aired on FOX, called ``War At Home.'' Are 
you familiar with that, ``War At Home''?
    Mr. Bozell. I am very, very slightly familiar with that 
show, not enough to comment on it.
    Senator Pryor. Well, it does concern me that you rate it as 
the worst or one of the worst. But it also--in order to get a 
second opinion, it concerns me that other people who looked at 
it come out with the same type of conclusion. In fact, the 
Washington Post said ``War At Home is unconscionably smutty. 
Its vulgarity has no integrity. All the characters are vile in 
spirit and objectionable in essence.''
    So, here we have a second opinion that confirms your view 
of that. The thing that troubles me about it is apparently--I 
have never seen it, but apparently FOX airs it Sunday at 8:30 
Eastern, which means 7:30 Central. So, on all the broadcast 
stations that are in the Central Time Zone, like Arkansas, all 
of our broadcast stations are, I assume the FOX affiliates are 
airing it at 7:30. Given this type of critique, I think you can 
understand why a parent of two young children would be very 
concerned that my kids, who would still be up at 7:30, 
generally are not watching TV at that time, but could be, might 
be exposed to something like that.
    So, I think that we really need to come to terms with this. 
I really appreciate cable doing their best to come out with a 
family tier. I think that is a positive step. I would like to 
talk to them directly more about that and some of the 
intricacies of it.
    But I do think that broadcast has a lot of responsibility 
here. So, if I may, Mr. Franks, I would like to visit with you 
about CBS. I know that ``War At Home'' is not on CBS, so you 
are in the clear on that particular show. But I will say this. 
I have a 12-year-old and a 10-year-old at home and my 12-year-
old particularly loves to watch football, and of course CBS 
carries NFL football.
    I must tell you that when we watch the NFL on CBS, my wife 
and I, it is our policy we do not let him watch it alone. We 
sit there with the remote control, so as soon as the 
commercials come on we can change the channel. I do not think 
that is healthy. I do not think that families should have to do 
that and have to be nervous wrecks to sit down and watch a 
football game on Sunday afternoon.
    The thing about that--and I would like to get your comments 
on this--but the thing about that is that the advertising on 
there oftentimes I feel is inappropriate for 12-year-olds. I do 
not know what your market analysis shows, but I know that NFL 
has a lot of young viewers. Again, I do not know the breakdown, 
but I know there are a lot of young viewers there. I know it is 
a challenge for you to try to have advertising for programming 
that has that side of an audience. I understand that.
    But is there not something you can do about the 
advertising?
    Mr. Franks. Well, Senator, I would be happy to engage in 
this discussion today or another time to discuss specific 
commercials. We review every commercial and we make a decision 
as to whether or not it is appropriate for our air at all or 
whether it is appropriate for a particular time period or the 
NFL.
    The NFL games, the rights fees are extremely expensive, so 
keeping them on free television--I mean, ``Monday Night 
Football'' is going off of free television. Keeping them on is 
a challenge. The audience is overwhelmingly adult male. But 
even then, we still--we reject ads all the time for people that 
want to run them on the NFL. R-rated movies we frequently 
reject. A whole variety of other product categories we do not 
even put into the NFL.
    So I am easy to reach. The next time you see--in the AFC 
Championship game this weekend, if you see ads that you find 
objectionable, it would be enormously helpful to know which 
ones they are.
    Senator Pryor. Well, that would be helpful, and we will 
continue that dialogue. But I must say it is not just the paid 
advertising; it is the promotions for your own programming.
    Mr. Franks. Again, we have very experienced standards 
people, whom many people in Alan's part of the business think 
are prudes, antediluvian. And they screen all the promos before 
they reach our air. They screen all the commercials. So, you 
may disagree with our judgments and obviously you do, but we 
are not just letting them go on willy nilly without anyone ever 
having looked at them, and judgments are made. You may disagree 
with our judgments. It sounds as if you do. That is a dialog we 
are happy to have with you. I take complaint calls from our 
audience. I am pretty easy to find. It is a discussion we are 
happy to have.
    Senator Pryor. Well, I do not doubt that the audience for 
NFL--I am not just picking on you, because FOX does it and ABC 
and everybody else. I am not just picking on you. ESPN. I am 
not just picking on you, but I do believe that your audience 
for professional football is probably predominantly adult male, 
but I think there is a healthy percentage of children that are 
watching that programming as well.
    The last thing I would say if I may, Mr. Chairman, I would 
just like to get all of your thoughts--I am going to switch 
media here with you just for a second. But we all know that 
there is a certain shock jock who has gone from broadcast radio 
to satellite radio in the last few weeks. One reason he has 
gone to satellite radio is because I guess they do not have any 
regulation or it is a very different regulation regime.
    In terms of television, should we have the same regulatory 
regime for satellite as for cable as for broadcast, or are we 
just living in a world where we are going to have to 
differentiate? I will just throw that out to the panel.
    Mr. Reese. Senator Pryor, the broadcasters' position is, as 
we said earlier, we think the same regime ought to apply, but 
it would, we believe, probably take the action of Congress to 
do that.
    Mr. Bozell. I believe there is a fundamental distinction 
between cable and satellite. If you are a subscriber to cable 
and you do not like a certain program, you cannot block it out 
without losing cable. You cannot decide not to pay for it 
without losing the ability to watch cable. If you are a 
subscriber to satellite radio and do not like the Howard Stern 
Show and do not want to pay for satellite radio, you can get 
free radio. You can get an alternative to the satellite, which 
you do not get for cable. So, I think there is a fundamental 
distinction.
    That said, I think that this is going to be looked at and 
many other things are going to be looked at, and the chairman 
of the FCC has already signaled that he is going to be looking 
at this.
    The Chairman. Well, thank you all very much. We are going 
to close this hearing now. We have another hearing this 
afternoon on Protecting Children on the Internet, which will 
take place at 2:30 this afternoon. Thank you very much.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]
                            A P P E N D I X

  Prepared Statement of Lanier Swann, Director, Government Relations, 
                      Concerned Women for America
    Concerned Women for America (CWA) represents over 500,000 active 
citizens and voters around the United States. Our constituents, as well 
as many other families throughout our Nation, are frustrated and 
disgusted by the ever-worsening indecent content on television. On 
behalf of so many concerned Americans, CWA is calling on Congress to 
help stem the tide of the remarkably indecent content flooding our 
airwaves.
    Our approach to protecting consumers from the vast amount of 
questionable material on television is two-pronged. The first and most 
immediate aspect of the solution is to reach final passage of 
legislation that delivers stronger penalties to those who violate 
current Federal Communications Commission (FCC) regulations. Stronger 
penalties will force broadcasters to face the consequences of violating 
FCC policies. Current fines, like those doled out to the masterminds 
behind Janet Jackson's infamous wardrobe malfunction, were just a drop 
in the bucket for network magnates. Our hope is that in stiffening the 
fines, broadcasters will think twice before producing, promoting and 
airing blatantly offensive material. This goal is not beyond our reach; 
in fact, it sits waiting for action by the United States Senate.
    The House of Representatives easily passed Congressman Fred Upton's 
Broadcast Decency Enforcement Act of 2005 (H.R. 310). In fact, only 38 
Members voted in opposition in February of 2005. This comprehensive 
bill strengthens the FCC's ability to fine violators and would set 
fines as high as $500,000. That's a significant increase from the 
current maximum fine of just $32,500 per violation. To the great dismay 
of CWA and concerned American families, a bill that so easily passed 
the House has been held up in the Senate for nearly a year.
    The Senate Committee on Commerce, Science, and Transportation is 
also holding up a similar bill sponsored by a Senate colleague. Despite 
holding two open ``Forums on Decency,'' Committee Chairman Senator Ted 
Stevens has offered only brief comments on the Broadcast Decency 
Enforcement Act (S. 193), which was proposed by Senator Sam Brownback 
in January 2005, CWA believes that Americans both expect and deserve 
action on both bills.
    While we support the efforts of Senators like Mr. Brownback who 
have worked to bring their voices into the indecency debate, CWA urges 
immediate passage in the Senate of Congressman Upton's legislation. 
H.R. 310 will provide a key step in the effort to give families more 
options to keep highly offensive television content out of their living 
rooms.
    Stiffer fines are not the only solution to indecent television 
content. Cable is a second area where corporate irresponsibility has 
gone unchallenged for too long. The key to meeting that challenge is 
cable choice. Consumers should be given a choice of what they want to 
buy so they are no longer forced to subsidize indecent programming. For 
this reason, CWA strongly supports the introduction of an a la carte 
pricing option, or cable choice, within Americans' cable subscriptions. 
Cable choice would allow consumers to choose the channels they want in 
their cable packages. Families would have to pay only for the channels 
they select themselves.
    In every part of this country, the cable companies have a virtual 
lock on our home televisions. The current franchising rules allow one 
cable company to control nearly every local market in the country 
without any alternatives. Because of these agreements and outmoded 
laws, cable television offers only a ``take it or leave it'' 
proposition. Either you subsidize every channel included in the offered 
package, or you simply choose not to have cable at all. With this kind 
of power lorded over our television viewing, cable companies have no 
need to be responsive to consumers. We pay, they profit. No questions 
asked.
    What irks most consumers, particularly families, is that cable 
subscribers have no choice in the channels funneled into their homes. 
Whether the channels they choose not to watch are offensive, 
objectionable, or simply uninteresting, there is little consumers can 
do to avoid it coming through our living-room television set. While 
some parental controls may aid in protecting young eyes from 
questionable content, the channel is still part of the cable package 
for which we pay each and every month. In other words, no matter how 
out of touch you may feel a specific cable channel is with your 
family's values, you are still forced to subsidize the channel and the 
cable moguls who produce the programming. In a country where we are not 
asked to pay for food we don't want to eat, clothes we don't want to 
wear, and books we don't care to read, why is it that cable subscribers 
are still forced to pay for channels we don't want to watch?
    While cable choice seems to make the most sense in light of our 
free market economy, cable moguls have continued to ignore the call of 
their consumers to offer a la carte pricing. Even the endorsement of 
Federal Communications Commission (FCC) Chairman Kevin Martin seems to 
have fallen on deaf ears. In an open forum on decency sponsored by the 
Commerce Committee in November 2005, Chairman Martin noted that 
indecency complaints at the FCC have greatly increased. He urged cable 
companies to adopt methods to allow consumers to avoid seeing such 
offensive material. At the conclusion of the second hearing, cable 
providers announced that they would offer family-friendly tiers to meet 
the concerns of consumers, Senators and the FCC. Sadly, the so-called 
``family-friendly'' cable option is not the answer. It may be a step 
forward, but it is not the solution to putting a stop to the cultural 
pollution permeating our airwaves.
    Any typical channel-surfer can easily determine that cable 
programmers are perhaps the most unfit entity to be tasked with the job 
of defining ``family-friendly.'' Given the skyrocketing consumer 
complaints of a tidal wave of indecent television programming, cable 
companies have not proven themselves adequate judges of appropriate 
content.
    In fact, there are multiple channels currently included in cable 
lineups deemed ``family friendly'' by television executives. However, 
upon closer inspection, viewers will find a great deal of the 
programming contains subject matter promoting pre-marital sex, 
cohabitation, vulgarity and infidelity, topics many parents would 
consider inappropriate for family viewing. Cable choice is a far better 
alternative because it allows families to choose their own programming, 
not the cable moguls.
    We are not alone in our support of a la carte pricing. In 2005 CWA 
was joined by 38 family-friendly organizations in sending letters to 
Capitol Hill calling for a la carte pricing. Ads were run in The 
Washington Times featuring our coalition as well.
    In 2004, CWA commissioned a Wirthlin Poll to investigate what 
American consumers thought about their current cable choices. The poll 
found that 80 percent of the American people disagree with the way that 
the cable tier-pricing system currently functions; 66 percent said that 
they would rather choose their channels for themselves. In addition, 
when asked, ``Would you be more or less likely to subscribe to cable 
television if you were able to choose the programming to be included in 
your basic cable package?'' Sixty-six percent replied that they would 
be more likely to subscribe to cable, and 39 percent said that they 
would be much more likely to subscribe.
    Those polled were also asked, ``When cable customers have no 
control over which channels are included in their basic cable package, 
the cable providers should voluntarily enforce decency standards in 
that basic package, which would screen out sexually explicit or 
graphically violent material.'' Seventy-three percent of respondents 
said that they agreed.
    Cable choice is a viable, widely supported option that is a good 
answer to a problem that so-called ``family-friendly'' tiers will not 
solve. Consumers are demanding aggressive results to fight an ever-
worsening problem of indecency on television. American families need 
and deserve the best: final passage of the Broadcast Decency 
Enforcement Act, the option of cable choice, and strongly enforced 
standards for cable companies who have demonstrated little reservation 
in their marketing of highly offensive content are needed now.
    CWA urges the Committee to take immediate and effective action to 
finally solve this broadcast and cable crisis. America's parents need 
your help. Please do not ignore them any longer.
                                 ______
                                 
                                                  Sky Angel
                                       Naples, FL, December 5, 2005
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
            Re: National family-friendly television package

Dear Mr. Chairman:

    Thank you for addressing the issue of media and parental 
responsibility during the November 29th forum on ``Decency in the 
Media.'' As the only cable or satellite operator in the Nation to 
provide a family-friendly programming package, we watched with great 
interest the testimony of many esteemed leaders in the television 
industry and would like to submit these comments for the record.
    Dominion Video Satellite, Inc., d.b.a. ``Sky Angel,'' is one of the 
Nation's only three direct broadcast satellite (``DBS'') licensees, 
along with DISH Network and DIRECTV. Dominion was among the first nine 
companies to apply to the Federal Communications Commission for a high-
power DBS license in 1981, today it is the sole surviving DBS pioneer 
from that first round and currently delivers 36 television and radio 
channels to the Continental United States and various United States 
territories through a small 20-inch satellite dish.
    Sky Angel is the only national multi-channel operator to answer the 
call for a family-friendly programming service. Recently, we met with 
many leaders of the Congress, as well as of the Federal Communications 
Commission, regarding the recent launch of our new family-friendly 
national television service. The channels Sky Angel carries were 
selected based on a national survey of our subscribers who indicated 
the channels they believe are the most ``family friendly.'' Sky Angel 
has always been a leader in family television and is the only satellite 
operator to create its own educational children's television channel, 
KTV-Kids and Teens Television. As it proceeds with various 
telecommunications bills in the upcoming year, we believe that the 
Committee would benefit from knowing Sky Angel's experience as a multi-
channel family program provider.
    First, regarding the ratings system and the ``V-chip.'' Sky Angel 
has learned directly from parents that the way in which the television 
industry presently uses the ratings system is not working successfully. 
For example, Sky Angel has a joint technical venture with EchoStar. 
d.b.a. ``DISH Network,'' by which Sky Angel utilizes DISH-brand 
receiving equipment for its subscribers to view programming. DISH 
Network includes very good parental blocking features in its receiving 
equipment; however, DISH Network does not use the ``television ratings 
system'' but instead uses the Motion Picture Association of America 
(``MPAA'') ratings system on its electronic programming guide (this is 
the descriptive screen that comes up on the television screen when a 
viewer pushes the ``information'' button on the remote control to learn 
more about the program). Many times the ``television rating'' that is 
imprinted on the screen by the network (i.e., the ``G'' or ``PG'' on 
the top left hand corner of the television screen) does not match the 
MPAA ratings that DISH Network shows on the electronic programming 
guide. Therefore. parents see a ``G'' rating on the TV screen (the 
correct rating for a movie edited for television) but may see an ``R'' 
rating on the electronic programming guide (the original rating when 
the movie was in the theater). This obviously causes confusion and 
renders the parental blocking tools ineffective. We understand from a 
national supplier of television program guides to cable and satellite 
companies that, while most multi-channel operators do not use the MPAA 
ratings, there may be others in addition to DISH Network who use the 
MPAA ratings; therefore, we respectfully suggest that the ratings, on 
the television screen and on the electronic program guide, be 
standardized for all multi-channel providers. Thus, parents would see 
ratings for the program and the electronic programming guide that are 
consistent.
    Additionally, we suggest that Congress and the television industry 
agree to adopt a standardized ratings scale that would include greater 
descriptive content information. For example, a program that is ``G-
rated'' to one network may be ``PG-14'' to another network because the 
rating selections are based on each network's judgment of a program; 
the widespread use of content specific ratings that tell exactly what 
is in the program (versus just a general rating) would be more helpful 
to parents. Also, as Parents Television Council President Brent Bozell 
pointed out during the hearings, it has been our experience as well 
that many times the programs are not rated at all because there is no 
requirement for the networks to rate the programs. Therefore, there is 
no uniformity in this ``self-regulatory'' system; we believe a 
government requirement for ratings may resolve the problem.
    Sky Angel is not suggesting that the above changes in ratings are 
the final answer to the present problems with television. We believe 
the television industry has to take responsibility for the programs on 
the air, and if they will not accept that responsibility, the 
government needs to step in and broaden the indecency regulations. Sky 
Angel believes that children have a constitutional right to stay as 
innocent as long as possible, and we and other holders of public 
licenses have a responsibility to help parents protect children from 
inappropriate content. Sky Angel agrees with some in the media industry 
that there is no longer a distinction between cable and broadcast 
channels since 88 percent of the American public gets their television 
programming from either cable or satellite. While some think that cable 
channels should not be regulated for decency because they are not 
freely available like broadcast stations, Sky Angel believes that there 
is no longer a real distinction between the services since the majority 
of Americans now receive their television programming through paid 
program providers holding franchises and/or public licenses. Therefore, 
these program providers should be held accountable to the issuing 
government for how they use their authorizations. Sky Angel believes 
that the indecency restrictions should equally apply to cable channels 
as well as broadcast channels.
    Regarding Sky Angel's experience in putting together a family-
friendly tier of programming, Sky Angel has found there is a desire 
among consumers for family-friendly programming packages in addition to 
the normal programming packages already in existence. We have had good 
support from the programming industry in allowing Sky Angel to pick and 
choose those program services that would be appropriate for a family-
friendly tier. None of the programmers so far has forced Sky Angel to 
purchase program services that are inappropriate for family viewing in 
order to acquire those program services that are appropriate. But, we 
agree with EchoStar's Senior Vice President and General Legal Counsel 
David Moskowitz that it would be beneficial for multi-channels systems 
to have the legal freedom to select program services without fear that 
a programmer may require the purchase of one service in order to have 
access to another service.
    We respectfully offer our personal insight into our experience in 
providing family-friendly programming to America and are available to 
provide additional information that you believe could be beneficial to 
you. Thank you for your time and consideration.
        Sincerely,
                                          Kathleen Johnson,
                                       Vice President, Programming.
                                 ______
                                 
Consumers Union, Consumer Federation of America, Free Press
                                                   January 18, 2006
Hon. Ted Stevens,
Hon. Daniel K. Inouye,
Co-Chairmen,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Co-Chairs Stevens and Inouye:

    Thank you for your leadership in tackling the important issue of 
consumer control over television programming.
    As the Committee considers how to ensure consumers are able to 
protect their families from television content they find objectionable, 
we urge you to reject voluntary industry proposals that fail to offer 
consumers adequate control through new ``family choice tiers.'' 
Further, we urge you to carefully scrutinize whether the companies are 
designing and promoting the ``family choice'' tiers in good faith to 
ensure they have a chance to succeed in the marketplace. Absent 
commitments to offer meaningful family choice, the Committee should 
pursue legislative solutions. And finally, we urge the Committee to 
address the unfair contractual restrictions imposed by video 
programmers that prevent existing cable distributors and new video 
market entrants from offering ``a la carte'' programming that would 
actually lower consumers' monthly cable bills according to recent 
analysis announced by Federal Communications Commission Chairman Kevin 
Martin at the Committee's November 29, 2005 open forum on indecency.
    Announcements of new ``family choice'' tiers by some of the largest 
cable distributors is a good first step toward greater consumer choice 
if only because it demonstrates that the cable industry can do what, 
for years, it claimed it could not--offer consumers smaller, 
specialized bundles in lieu of the costly expanded basic tier. 
Unfortunately, because cable distributors, in tandem with powerful 
broadcast programmers, have decided which channels will be included, 
the tier offers consumers very little choice. The programming line-up 
of family choice tiers unveiled to date offer only limited channels and 
may discourage families who want greater control from subscribing to 
the tier because it lacks other general interest programming they may 
desire. Subscribers who want programming choices beyond those offered 
in the basic cable package, but who do not wish to pay for programming 
they find objectionable are left with the Hobson's Choice of the 
limited ``family choice'' tier or no popular cable programming 
whatsoever.
    In order for family-targeted tiers to offer a meaningful consumer 
choice and to serve as a viable solution to objectionable programming, 
cable distributors must allow subscribers to choose the channels they 
subscribe to and pay for from the expanded basic line-up. We urge the 
Committee to seek commitments from cable distributors to offer families 
that choice and commitments from cable programmers not to block efforts 
by distributors to do so. In lieu of those commitments, we urge the 
Committee to seek legislative solutions which ensure that subscribers, 
not cable companies, select the programming they view as appropriate 
for their families based on their unique values and preferences.
    In addition, we urge the Committee to address the contractual 
restrictions that dominant video programming companies impose on cable 
distributors. As you know, both EchoStar and Cablevision Systems have 
publicly supported policies allowing subscribers to choose the channels 
they will pay for. In addition, new video market entrant AT&T has 
likewise supported the option. Each of these distributors, however, is 
or will be precluded from offering channels individually by their 
contractual agreements with content providers. Smaller, independent 
cable distributors, too, have long objected to these contractual 
restrictions as they seek greater ability to respond to local community 
needs.
    Prohibiting contractual restrictions that prevent distributors from 
offering subscribers the option to buy channels individually would 
facilitate a marketplace response to consumer demand for greater choice 
in channel selection. At least in the limited markets where video 
competition exists, new competitors offering cable ``a la carte'' may 
enjoy a marketplace advantage, driving other distributors to respond 
with new choices and more diverse programming, and lower prices. And, 
in addition to other policy options to increase diversity of content 
offered on cable systems, eliminating the ability of dominant 
programmers to dictate all-or-nothing bundles of channels opens the 
door to independent, unaffiliated programmers seeking to offer 
television channels that respond to and reflect diverse interests and 
needs not met by the media giants.
    Recent statements by FCC Chairman Martin have debunked the much-
promoted and counter intuitive myth that cable a la carte will not 
benefit consumers. And the recent concession by the cable industry to 
offer family choice tiers likewise contradicts prior claims that 
smaller programming tiers are not economically viable. There remains no 
viable reason that cable distributors and programmers should be allowed 
to force the ``all-or-nothing'' expanded basic package upon consumers 
who merely want the ability to pay for those offerings they want--an 
option they have in every other market.
    Cable providers, working hand-in-hand with the dominant broadcast 
network programmers, should not be allowed to use their absolute 
control over television packaging to stifle video competition and 
impede the marketplace from responding to overwhelming consumer demand 
for cable channel choice. We urge the Committee to ensure that they 
cannot.
        Sincerely,
                                           Jeannine Kenney,
                                                   Consumers Union.

                                               Mark Cooper,
                                    Consumer Federation of America.

                                                 Ben Scott,
                                                        Free Press.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Bruce T. Reese
    Question. Although it's important to find ways to block indecent 
programming that is already on TV or fine licensees when it's on radio, 
I think we should also examine causes for the indecency. A recent study 
found that from 2000 to 2003, four of the nation's largest radio 
companies were responsible for 96 percent of FCC indecency fines, even 
though their stations only accounted for about half of the country's 
listening audience. Shouldn't media consolidation be part of our 
examination of indecency?
    Answer. Media ownership issues are not related to the indecency 
debate. As an initial matter, NAB notes that the study referred to in 
the question, purporting to link media ownership and indecency, admits 
that it does ``not prove a causal link between ownership concentration 
and broadcast indecency.'' \1\ Moreover, this Study contains many 
serious flaws and inherent contradictions. As just one example, the 
fact that the Study is based entirely on the number of fines proposed 
by the FCC in ``Notices of Apparent Liability'' (``NALs'') against 
radio broadcasters between 2000 and 2003 creates a number of problems. 
See Study at 12-13. First, as the Study itself recognizes, NALs are 
issued prior to any FCC final judgment that indecent material was 
actually broadcast. For this reason, the authors assert that radio 
stations should not take any action against their on-air employees on 
the basis of a Commission NAL because that ``is analogous to imposing 
punishment on an accused criminal on the basis of a prosecutor's 
indictment.'' Study at 7. Nonetheless, the authors use NALs as the 
basis for their unfounded allegations against radio broadcasters. \2\ 
The Committee should not rely upon such blatantly contradictory 
analysis.
---------------------------------------------------------------------------
    \1\ J. Rintels and P. Napoli, Ownership Concentration and Indecency 
in Broadcasting: Is There a Link? at 5 (Sept. 2005) (``Study'').
    \2\ It is worth noting that the Communications Act prevents the FCC 
from using the mere issuance of a NAL to the ``prejudice of the person 
to whom such notice was issued,'' until the proposed fine has either 
been paid or a court has ordered payment of the fine and that order has 
become final. 47 U.S.C. Sec. 504(c).
---------------------------------------------------------------------------
    The Committee should also recognize that the reason the Study gives 
for looking only at a highly limited data set directly contradicts the 
assumed link between ownership concentration and indecency. The authors 
selected 2003 as its ``end point'' for the Study because ``events'' 
after that date ``caused `indecency' on radio to come to a screeching 
halt.'' Study at 12. Unless the ``events'' were a significant change in 
ownership patterns (which did not happen), logic would suggest the 
opposite of the author's conclusion--that despite their wish to find a 
link, there is no connection between ownership patterns and indecency. 
Indeed, comparing the number of NALs the FCC issued per year prior to 
and following passage of the 1996 Telecommunication Act, which 
permitted more radio group ownership, shows no trend supporting any 
casual link.
    NAB further notes that most large radio groups that were the 
subject of the Study have not been the targets of FCC indecency 
actions. As the Study itself showed (at 17), seven of the ten largest 
radio groups (determined by the number of stations) had no indecency 
actions against them from 2000-2003--a fact that casts considerable 
doubt on any alleged link between media ownership and indecency.
    Finally, NAB submits that, far from creating problems that this 
Committee needs to address, the ownership changes authorized by the 
1996 Telecommunications Act have enabled the radio industry to regain 
its economic viability, just as Congress intended. As the FCC has 
explained, the radio industry experienced severe financial difficulties 
in the early 1990s. More than half of all commercial radio stations 
were losing money, and hundreds of stations had ceased broadcasting. 
The outlook for small stations was ``particularly bleak.'' \3\ In fact, 
the FCC concluded in 1992 that economic stress ``substantially 
threatened'' the industry's ability to serve the public interest, and 
determined that relaxing the strict radio ownership restrictions would 
help improve radio stations' ``competitive standing'' and ``ability to 
function in the public interest.'' FCC Radio Report, 7 FCC Rcd at 2760-
61. In light of this distress in the industry, Congress in 1996 
correctly reformed the strict limits on radio ownership to allow more 
station combinations. \4\ Because of this congressional action, free, 
over-the-air local radio broadcasters are again economically viable in 
an increasingly competitive multimedia marketplace. Spurious attempts 
by critics of ``big media'' to link concerns about indecency to media 
consolidation should not obscure the very real benefits derived from 
allowing radio station combinations.
---------------------------------------------------------------------------
    \3\ Report and Order in MM Docket No. 91-140, 7 FCC Rcd 2755, 2760-
61 (1992) (`` FCC Radio Report '').
    \4\ See H.R. Rep. No. 204, 104th Cong., 2d Sess. at 48 (1995) 
(Telecommunications Act sought ``to preserve and to promote the 
competitiveness of over-the-air broadcast stations'').
---------------------------------------------------------------------------
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Jeff J. McIntyre
    Question. Although it's important to find ways to block indecent 
programming that is already on TV or fine licensees when it's on radio, 
I think we should also examine causes for the indecency. A recent study 
found that from 2000 to 2003, four of the Nation's largest radio 
companies were responsible for 96 percent of FCC indecency fines, even 
though their stations only accounted for about half of the country's 
listening audience. Shouldn't media consolidation be part of our 
examination of indecency?
    Answer. Absolutely. As media programming becomes more nationalized, 
it's much more difficult to enforce the requirement of `community 
standards,' as required by the current indecency statutes. How does a 
local community exert control when the nationalized media is 
broadcasting the same product in Los Angeles as it is in the Ozarks? 
Previously, the community standard worked for issues of indecency 
because the local media was able to represent and adapt the national 
programming to fit the local standards. Now, as control of the media 
has moved away from local owners and more into the hands of a few 
multi-national owners, local communities continue to struggle with the 
media product that is given to them. This is consistent throughout most 
forms of media. The more the power of the media is in the control of a 
few owners, the less power the local communities have over it. Issues, 
such as concerns over indecent or violent programming, will continue to 
arise. For indecency/violence concerns, a nationalized media trying to 
appeal to local, community standards is designed to fail.
    Psychological research demonstrates that one way individual 
families can exert local control over their media diet is with a 
detailed, effective content based ratings system. By giving parents and 
families accurate, detailed information about what programming is 
coming into their house--they can make healthy, educated decisions 
about what media their children are consuming. When there is a loss of 
community control of the media due to consolidation, tools must be put 
into the hands of the local consumer (e.g., parents, families, 
educators) to individually control the media.
    Please consider me and the American Psychological Association a 
resource as you continue in your deliberations of this important 
matter.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Martin D. Franks
    Question. Although it's important to find ways to block indecent 
programming that is already on TV or fine licensees when it's on radio, 
I think we should also examine causes for the indecency. A recent study 
found that from 2000 to 2003, four of the nation's largest radio 
companies were responsible for 96 percent of FCC indecency fines, even 
though their stations only accounted for about half of the country's 
listening audience. Shouldn't media consolidation be part of our 
examination of indecency?
    Answer. In posing the question, you note that ``[a] recent study 
found that from 2000 to 2003, four of the Nation's largest radio 
companies wereresponsible for 96 percent of FCC indecency fines, even 
though their stations only accounted for about half of the country's 
listening audience.''
    In short, I see no link between media ownership and indecency. The 
study to which you refer, conducted by the Center for Creative Voices 
in Media, agrees. The executive summary to that study itself disclaims 
the very link the authors attempt to establish in the study: ``These 
results do not prove a causal link between ownership concentration and 
broadcast indecency. Additional research, accounting for the broad 
array of factors that may influence the likelihood of a station 
receiving an indecency violation, is necessary.'' \1\
---------------------------------------------------------------------------
    \1\ ``Ownership Concentration and Indecency in Broadcasting: Is 
There a Link? '' September 2005, Center for Creative Voices in Media, 
Fordham, freepress, at Executive Summary, page 5 (emphasis added).
---------------------------------------------------------------------------
    Even a quick look at the FCC's history of indecency fines \2\ 
demonstrates that in the ``good old days'' preceding the moment in 
history the study considers the defining moment for media 
consolidation--the Telecommunications Act of 1996--the FCC fined radio 
even more than it did in the 2000-2003 period cited by the study. In 
fact, in the three years prior to 1996, we saw nearly twice the amount 
of monetary fines levied against radio ($1.34 million) as in the four 
years in the 2000-2003 period ($678,400).
---------------------------------------------------------------------------
    \2\ Indecency Complaints and NALs: 1993-2005, www.fcc.gov/eb/oip/
ComplStatChart.pdf.
---------------------------------------------------------------------------
    Let me suggest that another problem with linking media 
consolidation and indecency is that it relies on an incorrect premise. 
The state of media ownership in this country has never been as 
competitively robust as it is today. As I said in my testimony before 
the Committee on January 19, CBS would be happy to go back to the 
three-channel television era that I and many others recall fondly. But 
those days are gone forever, and you and your colleagues should be 
proud that telecommunications law over the past decade has fostered 
explosive competition. Today consumers in this country can choose among 
hundreds of linear channels of video programming on television 
delivered 24/7 by digital broadcasters, cable operators, DBS providers 
and telephone companies. There is even more on-demand programming 
offered by many of these same providers, as well as thousands of 
Internet sites, iPods, cellphones, DVDs and more.
    To reiterate my testimony, looking back lovingly at the past and 
the good old days of broadcasting will not guide us toward a solution 
for parents today. Viewers now have the tools to respond to the amazing 
choice and diversity--the V-chip and cable and DBS parental controls--
and we in the industry stand ready to educate and encourage them to 
actively use those tools.
    Please do not hesitate to contact me if you have any additional 
questions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          L. Brent Bozell, III
    Question. Although it's important to find ways to block indecent 
programming that is already on TV or fine licensees when it's on radio, 
I think we should also examine causes for the indecency. A recent study 
found that from 2000 to 2003, four of the Nation's largest radio 
companies were responsible for 96 percent of FCC indecency fines, even 
though their stations only accounted for about half of the country's 
listening audience. Shouldn't media consolidation be part of our 
examination of indecency?
    Media ownership and consolidation is closely linked to the problem 
of indecency. The FCC and Congress bear the burden to establish 
equitable media ownership rules that preserve localism, diversity of 
ownership and the community standards upon which indecency law is 
built. We urge Congress to focus solely on the public interest and deny 
the stranglehold on local broadcasting sought by national media 
conglomerates as a result of the FCC's most recent media ownership 
rules.
    The study you cite correctly draws attention to the fact that 
increased media consolidation yields a lack of local ownership and 
therefore programming decisions often rest with executives thousands of 
miles away from the market in question. How can we expect the community 
standards of the citizens of Nebraska, Oregon or Alabama to be 
preserved and upheld by people who may have never even been to the 
community?
    The truth is that we can't, and while ownership rules must not be 
so draconian as to unnecessarily inhibit commerce, it is important to 
remember that the phrase ``public interest'' is mentioned more then 100 
times in the Communication Act of 1934 which regulates the broadcast 
medium. Clearly, owners with ties to a community are in a much better 
position to determine the public interest of those they serve and whose 
airwaves they are allowed to broadcast upon.
    Around the time of the FCC's most recent rulemaking on media 
ownership, a local PTC Grassroots Chapter Director wrote his local Fox-
owned and operated affiliate to complain about the television program 
Keen Eddie, which featured a scene where a prostitute was hired to 
perform sex with a horse in order to extract its semen. In response to 
that complaint, the Vice President and General Manager of the station, 
Cheryl McDonald, said in her letter, ``The network, not WDAF-TV4, 
decides what shows go on the air for the Fox owned and operated 
television stations.'' Local sensibilities and community standards are 
no longer applicable when mega media corporations place restraints on 
local programming. The ability of local stations to respond to the 
needs of their own community is shattered.
    The PTC's research strongly supports the assertion that local 
broadcasters, when owned and operated by networks of affiliated 
stations across the country, literally are forced to air program 
material that may be deemed indecent by local community standards. In a 
2003 survey of 97 television stations owned and operated by television 
networks, only one station had ever preempted a network television 
program based on community decency standards, and that one station did 
so only one time--one single broadcast--and that was nearly a decade 
ago.
    Moreover. the consolidation of media outlets is problematic when 
discussing issues related to indecency on cable networks. Since the 
vast majority of cable programming is owned by a mere six media 
conglomerates and all of these corporations force cable and satellite 
providers to carry all of their network offerings if any are carried, 
consumer choice in cable programming has remained impossible--despite 
an FCC report just last week that demonstrated that consumers could 
save as much as 13% if allowed to pick and choose channel lineups. In 
this respect, media consolidation has directly led to millions of 
families paying billions of dollars for channels they don't want, don't 
watch and all too often find offensive.
    We call on the Congress to end this extortion, and allow families 
to choose which cable networks they receive and pay for.
    As I'm sure you are aware, a federal appeals court overturned the 
FCC's 2003 changes to media ownership rules, and the Commission must 
now revisit the methodology used to create those rules. Although it is 
likely that the FCC will announce new rules for horizontal and vertical 
media ownership sometime this year, as the representatives of the 
people, I urge the Congress to take a proactive leadership role in 
ensuring that media ownership rules fully protect the public airwaves 
and community standards of decency. In the past the FCC ignored the 
call for local community control. It undermined this control and 
determined that a handful of media giants can buy more and more 
stations, more newspapers and more radio stations. This runs directly 
in opposition of the public interest, which Congress has the ultimate 
responsibility to uphold.
                              Attachments
Tim Maupin,
Chapter Director, Kansas City Metro Chapter,
Parents Television Council,
Kansas City, MO.

Dear Mr. Maupin,

    We received your letter dated June 30, 2003 regarding the content 
of the Keen Eddie show that aired on June 10, 2003 at 8pm.
    We forwarded your letter to the FOX Network. The Network, not WDAF 
TV4, decides what shows go on the air for the FOX Owned and Operated 
Television Stations.
        Sincerely,
                                           Cheryl McDonald,
                      Vice President/General Manager WDAF-TV/FOX 4.

                 Charlotte Observer, October 19, 2003,

                        Keep Control of TV Local

                    By Richard Burr and Jesse Helms

    When a Kansas City resident wanted to complain about the sexually 
explicit language contained in the Fox television program ``Keen 
Eddie.'' he did what most Americans would do. He wrote to his local 
television station.
    Unfortunately, despite the good intentions of management, the local 
station--owned by the Fox television network--couldn't do anything 
about it. In a letter to the viewer, the station's general manager 
confessed that the Fox network in New York controlled what programs 
aired on the Fox-owned station in Kansas City.
    That's the problem with the Federal Communication Commission's 
misguided decision to increase the national television ownership cap 
from 35 percent to 45 percent. Community standards get lost when 
networks are allowed to nationalize broadcast television programming.
    Of the more than 18,000 pages of comments filed during the FCC's 
media ownership proceeding, the networks did not cite a single 
instance--not one--where one of its owned-and-operated stations 
rejected a program that failed to meet local community standards.
    Fortunately, the FCC's record showed that non-network-owned 
stations can, and often do, reject certain network programs (including 
sexually explicit shows like ``Maxim's Hot 100'' or the ``Victoria's 
Secret Fashion Show'' ) that conflict with the essential character of 
the local communities they serve. By fulfilling their legal duty to 
reflect--not dictate--the standards of their communities. non-network-
owned stations promote the essence of ``localism,'' a principle FCC 
Chairman Michael Powell recently hailed as a ``core value'' of our 
Nation's broadcast system.
    Supporters of the FCC's decision to raise the ownership cap from 35 
percent to 45 percent argue that it promotes the benefits of 
deregulation. Yet the whole point of deregulation, especially among 
conservatives, is to place more power in the hands of local decision-
makers. Deregulation is worthless when it leads to the nationalization 
of a single product, policy or point of view that can't be adjusted to 
reflect the diverse needs of our local communities.
    Congress rejected the idea of a highly-centralized BBC-like 
broadcast system back in 1934. Instead, it chose a decentralized system 
of local stations charged to reflect the diverse needs of each local 
market. It made no sense then--and makes less now--to think viewers in 
California would have the same response to sexually explicit 
programming as viewers in North Carolina.
    We are gratified that the House of Representatives recently 
rejected the proposed 45 percent cap. By doing so, it cast an important 
vote for decentralization. Just as our education system allows families 
to influence public school curricula through their local school board, 
our broadcast system allows viewers to influence television programming 
through their local stations. By giving the networks the ability to 
purchase more local stations and control more local programming 
decisions, we would invite them to build the same centrally-controlled 
broadcast system that Congress said ``no'' to almost 70 years ago.
    Conservatives recognize the danger of nationalizing broadcast 
television content and taking away the freedom of local stations to 
respond to concerns:

  <bullet> The Christian Coalition of America doesn't want to force 
        ``vacuous trash on local television stations whose communities 
        do not want to see such radical programming.''

  <bullet> The Parents Television Council notes that the ``losers'' of 
        network ownership ``are the local communities whose standards 
        of decency are being ignored.''

  <bullet> The National Religious Broadcasters rightfully fear that the 
        prospect of losing more religious stations to the networks will 
        be a ``tsunami of sizable proportions.''

    Chairman Powell worries that supporters of the 35 percent cap are 
motivated by ``a desire to affect content.'' But Congress has no desire 
to dictate the content or morality of television shows. It is simply 
protecting the right of local viewers to affect the content of the 
programs beamed into their living rooms. To do this, local stations 
must be empowered to make programming decisions based on community 
concerns. not forced to march in lockstep with network mandates from 
New York or Beverly Hills.
    The right of local viewers to influence programming works both 
ways. Stations. of course. must pay equal attention to the interests of 
communities who want to watch programs that viewers in other markets 
may find objectionable (so as long as the program does not violate 
federal laws). While citizens in North Carolina cheered when a local 
station replaced an off-color comedy show with vintage episodes of 
``The Andy Griffith Show,'' we concede that the switch might not have 
been so warmly received in markets where viewers fail to appreciate the 
subtlety and warmth of Mayberry's homespun humor.
    Our Constitution is steeped in the principle that local governments 
are best suited to tend to the daily issues that confront local 
citizens. Our Nation's broadcast system has wisely followed this 
deregulatory principle for more than 70 years. We are not willing to 
silence the voices of local viewers in favor of a single voice from New 
York or Los Angeles.
    Are you?
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                              Jack Valenti
    Your question to the panelists following the hearing before the 
Senate Commerce Committee on January 19 was, in paraphrase:
    ``(1) Since the public is not now using available technology to 
block programs, what efforts are you making to speak directly to 
individual parents about television ratings and blocking mechanisms? 
(2) Will you consider visually showing parents how to work their remote 
controls to utilize the blocking technology? (3) Will you inform 
parents and consumers at either the point of sale or in literature to 
customers?
    To all three queries: The public is not making use of their 
blocking power in the home because there has not been to date a unified 
effort, unprecedented in its scope, scale and frequency of message 
presentations, to inform and explain to parents they have in their 
possession power to control all TV programming in their home. The 
messages which are being designed will, in simple, easy to understand 
language, instruct parents in the use of these blocking technologies.
    The overall reach of the project we presented to the Committee is 
massive. On board, in a seamless web of unity, are every TV station, 
all the national broadcast networks ABC, CBS, NBC, FOX, CW, movie 
studios, TV programmers, cable systems, direct broadcast satellite 
providers DIRECTV and EchoStar's DISH Network, TimeWarner, Comcast, 
Viacom, the Consumer Electronics Association, the National Association 
of Broadcasters, the National Cable and Telecommunications Association, 
the Motion Picture Association of America. This is an effort never 
attempted before.
    This group has enlisted the Ad Council and its prestige and 
achievements, with links to the best brains in creative advertising, to 
design the messages that will be dispatched by the hundreds of 
thousands, over and over and over again--dispatched to cable systems, 
national broadcast networks, individual TV stations, direct-broadcast 
satellite companies--to American TV homes. This avalanche of messages 
will begin sometime in May of this year.
    Additionally, with the cooperation of the Consumer Electronics 
Association, we will reach out to retail stores and TV set 
manufacturers to inform parents of the presence of a V-chip in the new 
TV set they buy. Further, we will distribute the Ad Council material to 
churches and advocacy groups so they can pass onto their congregations 
and members the messages conveyed to parents.
    Finally, the Luntz-Hart poll and the Russell Research poll reveal 
that while a majority of parents find some TV programming unsuitable 
for their children, by margins of 91 percent to 89 percent, they don't 
want the government to step in legislatively. They're rather it be done 
on a voluntary basis.
    The total cost of this unprecedented project, privately funded, 
will be some $300 million.
    To summarize this never-before-attempted-project which satisfies 
parents' desires that a voluntary program is far better and more 
effective than Congressional legislation:

        1. Enlist the Ad Council to create, supervise and monitor 
        messages to parents.

        2. Ensure that all the cooperating enterprises offer air time 
        so these messages are dispatched to all TV homes in the 
        country.

        3. Distribute educational and instructional materials to be 
        made available to parents at retail stores, in information 
        included with TV sets, and during installation of pay 
        television services.

        4. Ensure that all cooperating entities have readable logos at 
        the start of every TV show, and coming out of every commercial 
        break in programs aired.

        5. Reach out to religious and parents' advocacy groups with 
        information they can distribute to congregations or members to 
        further inform and educate them about the power that parents 
        have to control TV programming in their homes.
                                 ______
                                 
                                  EchoStar Satellite L.L.C.
                                   Washington DC, February 13, 2006
Hon. Frank R. Lautenberg,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Lautenberg,

    Thank you for your leadership on this issue, and for participating 
in the Senate Commerce Committee hearing on decency in broadcasting, 
cable and other media. EchoStar Communications Corporation has been a 
pioneer in providing consumers with control over the programming coming 
into their homes, and choice over the channels they purchase. We 
believe that educating consumers about our blocking technology is 
necessary to give parents the control they want, but Congress must 
address the bundling practices of large programmers in order to give 
consumers the choice they desire.
    Since we launched our service in 1996, we have provided consumers 
with parental controls. All DISH Network set-top boxes come with 
blocking software that allows parents to block entire channels and 
individual programs based on multiple ratings and content criteria. The 
software can also remove the channel information from our service's 
electronic program guide. We recognize that our subscribers must know 
about the parental controls in order for the technology to be useful, 
and the following is a list of the ways that we inform consumers of 
these blocking tools.

  <bullet> We provide information about our parental control features 
        in the welcome kits we mail to all new subscribers;

  <bullet> We include information about using our parental control 
        features, in easy to understand language, in the user guides 
        that accompany all of our receivers;

  <bullet> Since January 2004, DISH Network has devoted over 200 hours 
        of cross channel advertising on popular subscription channels 
        to teach our subscribers about our parental control technology;

  <bullet> The DISH Network Adult Guard Support Network on channel 490, 
        and the For Your Information Network on channel 101, provides 
        information about our parental controls, among other topics, 
        and explains how to enable it;

  <bullet> Our customer service representatives are available twenty-
        four hours per day, seven days per week at 1-800-333-DISH to 
        help subscribers set-up the parental controls for their 
        service;

  <bullet> With two simple clicks from our home page, consumers and 
        customers can find information on setting up the parental 
        control features http://www.dishnetwork.com/content/
        programming/parental control/index2.shtml:

  <bullet> All DISH Network product brochures reference the parental 
        control features of our receivers; and

  <bullet> Finally, DISH Network provides a monthly newsletter called 
        DISH Takes that appears in our customers' monthly bills that 
        periodically provides information about Adult Guard and how it 
        works. The information is also available from time to time in 
        our monthly magazine called DISH Entertainment Magazine 
        available by subscription,

    With respect to the newly-announced education campaign, we will 
consider creating ads that visually show parents how to work their 
remote controls to utilize the blocking technology. In the past, we've 
produced these kinds of ads on our service.
    In addition to blocking programming coming into consumers' homes, 
Congress can take steps to give consumers more choices over the 
programming they buy from their pay television provider. More than a 
decade ago, Congress granted local broadcast stations the right to 
demand payment from cable providers, and ultimately satellite 
providers, in exchange for carriage. These retransmission consent rules 
have provided network broadcasters extraordinary leverage over pay 
television providers who must offer ABC, NBC, CBS, and FOX programming 
to compete in the market. Today, these network broadcasters use their 
market power to bundle their local stations with other pay television 
programming and tell distributors like DISH Network, if you want one, 
you have to take them all.
    In order to give consumers more choice in the programming they 
purchase, Congress must pass legislation that would separate 
retransmission consent from other programming negotiations. One way to 
address this problem is to provide pay TV providers the opportunity to 
resolve disputes involving broadcast stations with binding arbitration. 
This would offset the broadcasters' leverage, and provide pay 
television providers the flexibility to offer programming on 
specialized themed tiers or a la carte in order to respond to consumer 
demand. During the arbitration proceeding, the programming in dispute 
should continue to be available, thereby ensuring that consumers have 
uninterrupted access to important local content.
    Thanks again for the opportunity to add this important information 
to the record.
        Sincerely,
                                          Charles W. Ergen,
                              Chairman and Chief Executive Officer.
                                 ______
                                 
                                                    Comcast
                                Philadelphia, PA, February 13, 2006
Hon. Frank R. Lautenberg,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Lautenberg:

    I was glad to have the opportunity to appear before the Senate 
Committee on Commerce, Science, and Transportation at the January 19th 
hearing on decency in broadcasting, cable and other media. I welcome 
the opportunity to respond to the follow-up questions that you asked of 
my fellow panelists and me regarding our efforts to educate parents 
about parental control technologies. As discussed in detail below, we 
are making extraordinary efforts to ensure that all of our customers 
are aware of the tools that we make available to control the 
programming that comes into their homes, and are fully informed about 
how to use these tools.
    You asked the following questions: ``I know each of you has tried 
to educate the public at large about ways to block unwanted 
programming. But the fact is, the public is not using the available 
technology and many remain uninformed. What efforts are you making to 
speak directly to individual parents and consumers about television 
ratings and blocking technology, either at the point of sale or in 
literature to customers? In your newly-announced education campaign, 
will you consider visually showing parents in the ads themselves how to 
work their remote controls to utilize the blocking technology? ''
    As you will see, our efforts are multi-faceted.
    On the first day that a household initiates service with Comcast, 
we provide them with a Welcome Kit that includes written materials that 
explain the availability and use of parental control technologies. 
Customers are also informed about the availability and capabilities of 
parental controls in billing inserts and through public service 
announcements (``PSAs''). Clear explanations of how to use parental 
controls are provided through Internet links offered on the homepage of 
Comcast.com. Tutorials that demonstrate precisely how to use the 
blocking and ``favorites'' features of parental controls are also aired 
on one of our digital channels that highlights the features of our 
digital services and can be called up, virtually instantaneously, via 
Comcast On Demand. We also staff a dedicated toll-free number with 
Comcast personnel who are trained to answer questions about parental 
control technology. In addition, Comcast has partnered with others in 
the cable industry to conduct media literacy workshops throughout the 
United States, and we work with retail stores to provide consumers with 
parental control information in in-store displays. Comcast is also 
proud to join in the sweeping new pan-industry consumer education 
campaign that was announced by Jack Valenti at the Committee's hearing.
    Below are additional details on each of the methods we use to 
inform and educate customers about parental controls.
Welcome Kit
    Technicians who install Comcast cable service at a new customer's 
home provide the customer with a Welcome Kit containing instructional 
material describing Comcast's features and services. The kit includes 
several brochures, pamphlets, and one-page informational fliers, and 
four of those pieces include information on parental controls. Our 
``Welcome to Comcast'' brochure includes a chapter called ``Using Your 
On-Screen Program Guide/Parental Controls'' (see Attachment A). That 
chapter offers a full-color, step-by-step ``how-to'' with views of the 
screens that a parent will encounter in the process. The pamphlet 
entitled ``How to Use Your New On-Screen Program Guide'' includes a 
similar guide with views of parental control screens and a detailed 
explanation of how to block selected programming (see Attachment B). 
The ``Guide to Using Your Built-In Digital Video Recorder,'' provided 
with our DVR boxes, also offers a parental controls section including 
instructions and views of the parental control screens (see Attachment 
C). Finally, the Welcome Kit also includes an 8\1/2\ by 11 inch flier 
entitled ``Using Parental Controls,'' with similar step-by-step 
instructions and snapshots of screens (see Attachment D).
    In addition to the literature provided, the Comcast technicians who 
visit customer homes and conduct installations and repairs are equipped 
to answer questions about, and to help set up, parental controls.
Billing Inserts
    Comcast also provides inserts in customer billing statements to 
remind parents that parental control technologies exist. These billing 
inserts direct parents to additional resources, including the parental 
controls section of Comcast.com (see Attachment E).
PSAs
    In May 2005, the cable industry launched its $250 million ``Cable 
Puts You In Control'' public service campaign to better acquaint 
parents with TV and MPAA ratings, the V-chip, and the blocking and 
``favorites'' features of cable set-top boxes (see Attachment F). 
Between May and November of 2005, the cable industry aired over $130 
million worth of these public service announcements. In those six 
months, Comcast alone aired over 1.6 million PSAs to inform our 
customers--and your constituents--about the availability and the 
flexibility of parental control technologies. One of the campaign's 
PSAs offers the step-by-step instructions for using a remote control to 
program parental controls, and a print version of that PSA also 
appeared in local newspapers (see Attachment G). In addition, about 30 
Members of Congress have recorded PSAs promoting public awareness of 
parental controls, and these are airing on cable systems around the 
Nation.
Website
    The front page of www.comcast.com includes a prominent ``Quick 
Links'' section with six featured links, one of which (``Parental 
Controls'') bring the user to a section of our website dedicated to 
parental controls features (see Attachment H, Comcast.com homepage). As 
of February 2, 2006, the website has registered over 277,485 visits to 
this parental control content. The parental controls section includes a 
variety of Frequently Asked Questions (``FAQs'') tailored to customers 
with different types of set-top boxes (see Attachment I). It also 
includes several downloadable PDF pages that provide step-by-step 
parental control set-up instructions for different types of cable 
boxes.
    The front page of the Parental Control section of the website links 
to other valuable sources of information on parental control 
technology, including the FCC's Guide for Parents, the cable industry's 
resource page on family-friendly programs, parental controls, the TV 
ratings system, the TV Ratings Guide and the Movie Ratings Guide (see 
Attachment J, Comcast.com Main Parental Control Page).
Video Tutorials
    ``How-to'' parental control tutorials are shown regularly on a 
digital channel that highlights features of Comcast's digital video 
services. Those same tutorials can readily be accessed via Comcast On 
Demand. They can also be accessed under the ``Help & Service'' menu in 
Comcast's digital cable services or in the Kids On Demand menu, via a 
Parental Control button that leads to a sub-menu of parental control 
tutorials on digital cable, On Demand and DVR boxes. Parental control 
video tutorials are also available online at http://
www.controlyourtv.org/, a website sponsored by the National Cable and 
Telecommunications Association, the cable industry's trade association. 
A link to this website can be found on Comcast.com.
Toll-Free Number
    In April 2004, Comcast launched a new dedicated toll-free phone 
line where customers can get questions answered about parental controls 
by trained representatives. Comcast customers can call 1-866-781-1888 
to speak to Comcast personnel live daily from 9 a.m. to 11 p.m. Eastern 
time.
Workshops
    Comcast, in partnership with other cable operators, committed to 
conduct 100 local ``Control Your TV'' events in communities throughout 
the United States. These events provide information about using cable's 
parental control tools, the TV ratings system, the V-chip and media 
literacy. The events were developed in partnership with the National 
PTA and are being coordinated with local PTA chapters where available. 
Parents are provided with simple guidelines for developing a safe media 
environment in the home. Comcast distributes handouts including two 
one-page fliers detailing the step-by-step parental control procedures 
for the two models of cable boxes supplied to Comcast customers (see 
Attachment K). Sixty (60) events were held in 2005, with more planned 
for 2006.
Pan-Industry Campaign
    The cable industry is now participating in a new pan-industry 
public awareness campaign, led by Jack Valenti, former President and 
Chief Executive Officer of the Motion Picture Association of America, 
which includes a broad group of entertainment, programming and consumer 
electronics participants. This campaign's current plans include wide 
dissemination of a PSA developed by the Ad Council, which emphasizes 
the tools parents have to manage TV programming and how easy they are 
to use. Discussions with the Ad Council are underway to develop 
additional messages.
    The campaign will also build on existing relationships with Best 
Buy and Circuit City to create consumer-friendly materials that are now 
included in in-store displays. As part of this public awareness 
campaign, the Consumer Electronics Association will also distribute V-
chip educational materials to be made available to parents at retail 
stores and in information included with TV sets.
Planned Initiatives
    In addition to what is currently available to parents, Comcast is 
working to develop more easy-to-use technologies to enable parents to 
protect their children. For example, later this year, we plan to give 
parents the power to PIN-code-protect access to the On Demand service. 
During 2007, we expect to roll out additional features including the 
ability to lock out programming by content label (based on TV ratings 
for violence, sexual situations, dialog or language), displaying these 
content labels on our program guide information screens, and offering 
family-friendly recommendations in our program guide.
    Consistent with Comcast's ongoing commitment to provide family 
friendly programming, Comcast will offer a Family Tier this year. 
Subscribers of Comcast's Family Tier will receive 35 to 40 channels, 
including many of the premier brand names in family programming, such 
as Disney, Discovery, National Geographic, and PBS KIDS Sprout, which 
features quality programming chiefly for preschoolers and young 
children.
    In short, Comcast is making every effort possible to ensure that 
parents are aware of the tools we offer and know how easy it is to use 
them. While we believe that American consumers benefit enormously from 
the abundance and diversity of the programming that we offer, we are 
fully committed to enabling each family to make its own decisions about 
what programming should be available to particular members of the 
household. We look forward to continued work with you and the other 
members of the Senate to ensure that American consumers enjoy this 
powerful combination of choice and control in their viewing experience.
    Please feel free to contact me if you have further comments or 
questions.
        Sincerely,
                                            David L. Cohen,
                                           Executive Vice President
The Attachments referred to in this letter have been retained in 
        Committee files.

                                  <all>

</pre></body></html>
